<html>
<title> - DESIGNATION OF NATIONAL MONUMENTS IN THE VIRGIN ISLANDS AND OTHER ISSUES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  DESIGNATION OF NATIONAL MONUMENTS IN THE VIRGIN ISLANDS AND OTHER 
                                ISSUES

=======================================================================

                        OVERSIGHT FIELD HEARINGS

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

          July 20, 2002 in Cruz Bay, St. John, Virgin Islands
        July 22, 2002 in Frederiksted, St. Croix, Virgin Islands

                               __________

                           Serial No. 107-143

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
        Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

80-850 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel

                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                Anibal Acevedo-Vila, Puerto Rico
Chris Cannon, Utah                   Hilda L. Solis, California
Bob Schaffer, Colorado               Betty McCollum, Minnesota
Jim Gibbons, Nevada
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 20, 2002....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     3
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Berry, David, Fisherman......................................    46
        Prepared statement of....................................    48
    Cole, Hon. Donald G., Senator, 24th Legislature of the U.S. 
      Virgin Islands.............................................    23
        Prepared statement of....................................    25
    Jackson, Myron, Department of Natural Resources..............    28
    Kean, James, Landowner, U.S. Virgin Islands, Prepared 
      statement of...............................................    54
    Kessler, Joe, President, Friends of Virgin Islands National 
      Park.......................................................    42
        Prepared statement of....................................    44
    Liburd, Hon. Almando ``Rocky'', President, 24th Legislature 
      of the Virgin Islands......................................    19
        Prepared statement of....................................    22
    Mainella, Fran P., Director, National Park Service, U.S. 
      Department of the Interior.................................     6
        Prepared statement of....................................     9
    Monsanto, Lorelie, Landowner.................................    38
        Prepared statement of....................................    40

Additional materials supplied:
    Barshinger, Craig, St. John, U.S. Virgin Islands, Letter 
      submitted for the record by The Honorable Donna M. 
      Christensen................................................    57

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 22, 2002....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................    61
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................    59
        Prepared statement of....................................    61

Statement of Witnesses:
    Brown, Virdin C., Chair, Caribbean Fisheries Council.........   100
        Prepared statement of....................................   102
    Mainella, Fran P., Director, National Park Service, U.S. 
      Department of the Interior.................................    63
        Prepared statement of....................................    66
    McAuliffe, Robert N., Fisherman..............................    91
        Prepared statement of....................................    92
    McIntosh, Maxwell, Salt River National Historical Park 
      Commission.................................................    85
        Prepared statement of....................................    86
    Plaskett, Hon. Dean C., Commissioner, Department of Planning 
      and Natural Resources......................................    75
        Prepared statement of....................................    80
    Pugh, Michelle, Owner, Dive Experience.......................    90
        Prepared statement of....................................    90
    Turner, Bill, Executive Director, St. Croix Environmental 
      Association................................................   109
        Prepared statement of....................................   111
    Tutein, Joel A., Superintendent for Christiansted National 
      Historic Site, Buck Island Reef National Monument and the 
      Salt River Bay National Historic Park and Ecological 
      Preserve...................................................    69

   OVERSIGHT HEARING ON VIRGIN ISLANDS NATIONAL PARK AND THE VIRGIN 
                 ISLANDS CORAL REEF NATIONAL MONUMENT.

                              ----------                              


                        Saturday, July 20, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                   Cruz Bay, St. John, Virgin Islands

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., Virgin 
Islands Legislature Building, Hill Top Building, Cruz Bay, St. 
John, Virgin Islands, Hon. George Radanovich [Chairman of the 
Subcommittee] presiding.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning, everybody. My name is George 
Radanovich, and I represent the 19th District in California 
which is near Yosemite National Park, and I am Chairman of the 
Subcommittee of the National Parks, Recreation & Public Lands.
    Can you hear me OK in this--
    Audience. No.
    Mr. Radanovich. No? We need to turn the volume up. Can I 
get some help here?
    Can you hear me now?
    Audience. Yes.
    Mr. Radanovich. Is that better? Does it need to be better? 
It's not good enough. Can you hear me now? OK.
    OK. My name is George Radanovich, and I represent the 19th 
District in California. I'm also Chairman of the Subcommittee 
on National Parks, Recreation and Public Lands.
    It is a great pleasure to be here on this beautiful Island 
of St. John, and I want to thank Delegate Donna Christensen for 
inviting us down and hosting this event so that we can learn 
more about the issues of the Virgin Islands National Park and 
the Virgin Islands in general.
    So, thank you very much, Donna, and we are very much 
looking forward to it.
    There are a number of issues on the island that we want to 
examine today. Among the important issues is the legality of 
former President Clinton's national monument designation of the 
Virgin Islands Coral Reef National Monument.
    The Antiquities Act of 1906 clearly states that all 
monument designations must be made on lands owned or controlled 
by the Government of the United States, and must be confined to 
the smallest area compatible with the proper care and 
management of the objects to be protected.
    Many people in the Virgin Islands believe the Clinton 
proclamations violated both provisions of the law.
    One big question still looming is who actually owns the 
submerged lands.
    This question takes on great significance because ownership 
of the submerged lands in question was transferred to the 
Government of the Virgin Islands pursuant to the Territorial 
Submerged Land Act of 1974. When the submerged lands were 
claimed by the Federal Government and the Clinton 
administration it opened up the question as to what lands were 
actually transferred to the Virgin Islands in 1974.
    Associated with this monument designation is the 
elimination, with two exceptions, by the Clinton 
administration, of the fishing rights of the residents of the 
Virgin Islands. Fishing and rights to these fishing areas are 
part of the history and culture of the Virgin Islands.
    These fishing rights were extinguished by the former 
president, even though the threat, if any, to this resource has 
not been adequately explored. In fact, no threat of overfishing 
has ever been mentioned in the proclamation.
    Another issue to be examined today is access to private 
inholdings in the Virgin Islands National Park where conflicts 
have arisen between private landowners and the National Park 
Service over access to the private lands.
    Many of its longtime residents who inherited property 
within the Park have not been able to develop their land to 
their benefit.
    As a result, groups like the Association of Concerned 
Native Virgin Islanders, Incorporated have demanded the 
immediate and unconditional access to their property. They 
assert that since 1960 no Virgin Islander has been able to 
develop land given to them by their families.
    Other issues we will look at include entrance fees for 
Virgin Islands residents into the National Park, permanent fees 
for taxi and tour operators for the National Park, and the 
expansion of a school in St. John into the National Park. I am 
very much looking forward to the testimony from all our 
witnesses, including the Governor of the Virgin Islands, and 
all the other elected officials, along with the residents of 
the Virgin Islands.
    And with that I want to thank, again, Mrs. Christensen, and 
I will turn my time over to her.
    Before I do that, though, I will mention that members will 
be given a chance to give opening statements. We'll go to our 
first panel who will speak for 5 minutes. We'll open it up for 
questions, and invite the next panel.
    And I can assure you that in this process--because I know 
some people complained about only being able to speak for 5 
minutes--with the statements, combined with the questions that 
are going to be asked afterwards, I can assure you that all of 
the issues will be highly visible and recorded into the record, 
which is the most important thing.
    The important reason for doing a hearing is getting all the 
facts into the record.
    So that's our point today, and we'll make sure that all of 
the information is there.
    So with that, Donna, thank you very much, and I turn my 
time over to you.
    [The prepared statement of Mr. Radanovich follows:]

      Statement of The Honorable George P. Radanovich, Chairman, 
      Subcommittee on National Parks, Recreation, and Public Lands

    Good morning everyone. My name is George Radanovich, representing 
the 19th District of California, and am Chairman of the Subcommittee on 
National Parks, Recreation, and Public Lands. It is a great pleasure to 
be here on the beautiful island of St. John and I want to thank 
Delegate Donna Christensen for inviting me down and hosting this event 
so that we can conduct this field hearing.
    There are a number of issues on the island that we intend to 
examine today. Among the more important issues is the legality of 
former President Clinton's nation monument designation of the Virgin 
Islands Coral Reef National Monument. The Antiquities Act of 1906 
clearly states that all monument designations must be made on lands 
``owned or controlled by the Government of the United States'' and must 
be ``confined to the smallest area compatible with the proper care and 
management of the objects to be protected''. Many people in the Virgin 
Islands believe the Clinton proclamations violated both these 
provisions of law. One big question still looming out there is who 
actually owns the submerged lands. This question takes on great 
significance because ownership of the submerged lands in question were 
transferred to the Government of the Virgin Islands pursuant to the 
Territorial Submerged lands Act of 1974. When the submerged lands were 
claimed by the Federal Government and Clinton Administration, it opened 
the question as to what lands were actually transferred to the Virgin 
Islands in 1974.
    Associated with this monument designation is the elimination, with 
two exceptions, by the Clinton Administration of the fishing rights of 
the residents of the Virgin Islands. Fishing and rights to these 
fishing areas are part of the history and culture of the Virgin 
Islands. These fishing rights were extinguished by former President 
Clinton even though the threat, if any, to this resource has not been 
adequately explored. In fact, no threat of overfishing was ever 
mentioned in the proclamation.
    Another issue to be examined today is access to private inholdings 
in Virgin Island National Park where conflicts have arisen between 
private landowners and the National Park Service over access to their 
private lands. Many of its longtime residents who inherited property 
within the park have not been able to develop their land to their 
benefit. As a result, groups like the Association of Concerned Native 
Virgin Islanders, Inc., have demanded the immediate and unconditional 
access to their property. They assert, that since 1960, no Virgin 
Islander has been able to develop land given to them by their families.
    Other issues we will look at include entrance fees for Virgin 
Island residents into the national park, permit fees for taxi and tour 
operators for the national park, and the expansion of a school on St. 
John into the national park.
    I am looking forward to the testimony from all our witnesses 
including the Governor of the Virgin Islands and all the other elected 
officials along with the residents of the Virgin Islands. With that, I 
want to again thank Mrs. Christensen and will turn the time over to 
her.
                                 ______
                                 

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you.
    And good morning, everyone.
    Audience. Good morning.
    Mrs. Christensen. I want to thank you for yielding.
    I want to welcome you, Mr. Chairman and Congresswoman 
McCollum, to St. John, the smallest of our three islands. I 
hope you get an opportunity to meet and talk to my 
constituents, and experience the warm hospitality of the people 
of the Virgin Islands while you're here.
    I also want to publicly express my appreciation to you, Mr. 
Chairman, for your willingness to come to the Virgin Islands to 
conduct 2 days of hearings, and to my colleague Ms. McCollum as 
well.
    Although we're holding our hearing in one of the most 
beautiful places on earth, like our other colleagues who are 
not present with us, both of you could be at home in your 
congressional districts attending to the needs of your 
constituents. So I really appreciate your coming here, and I 
want to also thank the staff for the hard work that they've put 
in to make this trip possible.
    And to those of you in the audience, I know you're looking 
up here and you're seeing three members of the Subcommittee, 
but let me assure you, this is the usual number that we might 
have at a hearing, so we're not slighting you in any way. As a 
matter of fact, the three that you see before you here this 
morning are usually the three who are almost always present at 
the hearings.
    So let me also welcome and thank all of the witnesses who 
are here to offer testimony.
    I want to, in particular, welcome the Director of the 
National Park Service, Fran Mainella, Director Mainella.
    During the course of today's hearing and the one on St. 
Croix on Monday you'll hear a lot about the important issues 
that we in the Virgin Islands have been wrestling with for many 
years.
    I appreciate the fact that you're here. I know this is your 
first visit here, and I look forward to working with you and 
your staff as we work to bring closure to some of those issues.
    I want to welcome the witnesses here, people whom I am 
privileged to represent, and everyone in the audience. I know 
that many would have liked to testify, and I apologize for not 
being able to accommodate everyone but, as the Chairman said, 
all written testimony also becomes a part of the official 
record of this hearing.
    So we encourage those in the audience who are not able to 
testify to present your written statements because they become 
formal parts of the record of this hearing.
    I want to welcome, particularly, Senate President Liburd, 
and thank him for making this room available to us this 
morning. Also, Senator Cole.
    Commissioner Dean Plaskett is not going to be able to be 
with us this morning. He will join us in St. Croix. But we do 
have Myron Jackson representing him here.
    And as well, I want to welcome Ms. Lorelei Monsanto, the 
St. John tour operator. I understand there will be a 
representative of that group testifying.
    We hope that Mr. Penn will be able to join us as well, Ms. 
Joseph, Ms. Alicia Wells, and Mr. Kessler, and anyone else who 
is going to testify this morning.
    Mr. Chairman, as I noted, there are a number of issues 
relating to the Virgin Islands National Park that the residents 
of St. John have been wrestling with for quite some time. You 
will hear from our testifiers this morning some of the issues 
around fees, the concern of the impact on our local fishing 
community of a possible monument, difficulties of access to 
private inholdings, and just the everyday hassles of living 
with the National Park that takes up so much of this island.
    So I'm not going to address them now because they will be 
addressed by those who will be testifying. I just want to 
mention a couple other issues that are also important.
    Chief among those issues is the need for the Park and the 
Government of the Virgin Islands to agree on an exchange of 
land so that the residents of St. John could build a school to 
accommodate the students from K through 12.
    Enrollment in the public schools on St. John, or of 
students who will attend school from St. John, has grown 
considerably since the 1970's, and the local Government has no 
more land on which to expand either of the two current St. John 
public schools.
    We have been dealing with this issue for several years, and 
I think it's time that we sit down and resolve this issue so 
that the residents and the students of St. John could get the 
kind of school that they deserve on their island.
    I also want to mention that the Park could do a better job 
of managing the impact of cruise ship traffic on the residents 
of St. John. We're always grateful for the economic benefit the 
cruise ship visitors bring to the Territory. However, St. John 
and the Cruz Bay area is very small, as you've seen, and we 
must be mindful of this as we welcome the visitors to our 
shores.
    Finally, let me say that I truly hoped that we would have 
had the legal opinion on the ownership of the submerged lands 
from the General Accounting Office released in advance of this 
hearing, and while some of the testimony both here and in St. 
Croix will relate to issues around that monument when it's 
completed, I wanted to say to the people of the Territory that 
I will come back, and we will have discussions among ourselves 
about that decision, however it comes out, and how we will 
proceed from there.
    In closing, let me just say that as best as my staff and I 
can determine, this is the first time that the Subcommittee 
with direct authority over our National Park has held an 
official public hearing in the Territory.
    So, once again, I want to thank Chairman Radanovich and 
Congresswoman McCollum for being here, the Chairman for 
agreeing to hold these hearings here because it's very 
difficult for people in the Virgin Islands to get to Washington 
to testify there.
    I want to thank everyone, once again, Director Mainella, 
all of the other people who are going to testify this morning, 
and everyone who is here in our audience for taking the time on 
a Saturday morning to come out.
    Thank you, Mr. Chairman. With that, I end my opening 
statement.
    Mr. Radanovich. Thank you very much, Mrs. Christensen.
    Mr. Radanovich. And we are, as you know, also pleased to 
have with us Congresswoman Betty McCollum from the State of 
Minnesota.
    Betty.
    Ms. McCollum. I'll be brief. In looking at the information 
that was given to me by the Park Service and others in 
preparing for this hearing, and the people whom I have had an 
opportunity to meet over the last couple of days, and then 
listening to the focus of this hearing, I just want to share 
with you that all politics is local, and it's surprisingly the 
same.
    In Lake Superior there is much controversy over who owns 
the submerged land in Lake Superior. So submerged land issues 
are happening all over our country.
    Fishing rights. Fishing rights is something that we hear a 
lot about throughout the country, and it's very important to 
come here and hear about your unique experience to give me a 
better understanding of what importance the fishing rights are.
    Private holdings. Private holdings in Voyagers National 
Park and in the boundary waters, canoe area, where I was just a 
couple of weeks ago, is an issue that we are addressing there.
    So even though this is my first visit to the Virgin 
Islands, and even though your experiences and what you need to 
have happen, to work in order to make this a community for your 
families to grow and prosper in the coming years, we share a 
common bond.
    And then, providing an opportunity with land exchanges for 
children to be educated, I can think of nothing more important 
that we can work on together cooperatively.
    So even though we usually talk about snowshoes and not 
snorkels, it is a real pleasure to be here. I'm very honored to 
be in the presence of so many people who care so passionately 
about our environment and our Government, where they would take 
time out on a beautiful day to be here.
    Thank you very much.
    Mr. Radanovich. Thank you, Ms. McCollum. And as I 
mentioned, I represent Yosemite. There's not a lot that's 
submerged there but--you know, and understanding is--that's a 
good reason why we're here.
    OK. With that we'll move to our first panel, and we're 
honored to have with us Ms. Fran Mainella, who is the Director 
of the National Park Service.
    Many people know that--or don't know Fran was a former 
Director of State Parks in the State of Florida before being 
asked to come on board and to be the Director of all of our 
nation's National Parks. And this is the Director's first trip 
into the Virgin Islands.
    And so, Fran, welcome. And we're looking forward to your 
testimony. And, again, what we might do in this case, since 
you're the only person on this first panel, would be to start 
with your statement, and then we'll ask questions and clarify 
as we go along.

  STATEMENT OF FRAN MAINELLA, DIRECTOR, NATIONAL PARK SERVICE 
(NPS), ACCOMPANIED BY JOHN KING, SUPERINTENDENT, NATIONAL PARK, 
   ST. JOHN; JERRY BELSON, REGIONAL DIRECTOR, NPS, SOUTHEAST 
 REGION; PAT HOOKS, DEPUTY, NPS, SOUTHEAST REGION; AND DANIEL 
                           SMITH, NPS

    Ms. Mainella. Thank you, Mr. Chairman, and thank you, 
Committee Members. I'm so pleased to be able to be here today.
    Can everyone hear me back there? All right. Thumbs up. Yes.
    Again, it is a great opportunity for me to be able to 
appear here in front of this Subcommittee, and this 
Subcommittee does address so much of the issues that are so 
important to our National Park.
    And being able to be out here in a field hearing, and for 
the Virgin Islands National Park and Virgin Islands Coral Reef 
National Monument is, again, an extra treat.
    I do have with me today our Superintendent John King who 
has been here about a year and a half.
    And, John, we're very pleased to have you joining with us.
    Also with me is Jerry Belson, our Regional Director for the 
whole Southeast.
    And, Jerry, appreciate your being here.
    And his Deputy, Pat Hooks, is with us, behind us. And, 
also, my assistant, who assists with Congressional appearances 
in Washington, is Dan Smith, and he's with us, also, as well as 
many key staff who really make all these things work well 
together.
    As we go forth one of the things that I want to make sure 
is clear is that we--as the Director of the National Park 
Service, I keep telling the President I got the best job in the 
Federal Government. And it is something that's a great treat to 
be able to work with all our national parks.
    But one of the key areas--and I hope that as you hear my 
testimony and answer questions--one of the things is that when 
we work together, we work together as partners, the public, the 
citizens, and our national parks. If the national parks don't 
do well, then the community that surrounds it doesn't do well. 
If the community around is not doing well, then the national 
parks suffer as well.
    We are a team and we are a partnership. So I just want to 
make sure that's a tone that is clear throughout all of my 
testimony.
    Again, we appreciate being here, and to look at many of the 
issues that lie up front here for us in the Virgin Islands. But 
in particular I'm going to focus a bit on the Virgin Islands 
Coral Reef National Monument and an update on some of those 
particular issues.
    As you know, the Virgin Islands Coral Reef National 
Monument was established on January 17th, 2001 by proclamation 
of President Clinton under the Antiquities Act, consisting of 
12,708 acres of submerged lands off the Island of St. John. The 
monument contains all of the elements of a Caribbean tropical 
marine ecosystem.
    The designation also enhances the protection of fragile 
resources, including the Virgin Islands National Park, which 
Congress established in 1956, and then again expanded in 1962. 
The establishment of the monument roughly doubled the amount of 
acreage in and around St. John that is now under the 
jurisdiction of the National Park.
    Since the designation of the Virgin Islands Coral Reef 
monument last year, representatives of the Virgin Islands 
Government raised numerous questions and concerns. In fact, on 
April 9th of 2001 the Legislature of the Virgin Islands passed 
a resolution--I believe it's Number 1609--expressing concern 
over the lack of adequate public participation in the expansion 
of the monument, ownership of the submerged lands, the size of 
the monument, and potential impacts on the fishing and marine 
industries.
    I'd like to comment a little bit on those concerns, and I 
know with follow-up questions we may be able to address a few 
more.
    While we share concerns about the way in which these 
monuments were created, our job now is to ensure that we 
develop management plans in an open, inclusive and 
comprehensive way; again, a partnership approach.
    As stated by Secretary Norton, who is head of the 
Department of Interior, on numerous occasions, the planning for 
the future management of these monuments will be a model, not 
may be, but will be a model of what we call the four C's. 
That's consultation, cooperation, and communication, all in the 
service of conservation.
    The Department of Interior is committed to management and 
protection of the monuments, consistent with the four C's and 
the purposes established in the proclamations.
    In response to this commitment the Department of Interior 
published a notice in the Federal Register on April 24th, '02, 
initiating a formal scoping period, seeking public comment to 
identify issues to consider and analyze regarding management at 
the monument designations, and these were in the western 
states.
    The Department is currently reviewing those public 
comments. After reviewing all the comments on each monument, I 
believe most of the issues can be addressed out west through 
the management planning process which also included 
comprehensive public input.
    With regard to these, the monuments here in the Virgin 
Islands we are discussing, we will anticipate a similar public 
review process as soon as the issue of the submerged land 
ownership is resolved.
    Being at this hearing today, again, will help me learn more 
about some of the management issues that we will have at--
through transcript be able to help feed into that review 
process as we go forward.
    We agree that Federal ownership or control, as Congressman 
Radanovich has indicated earlier, of land is necessary for an 
area to be designated as a national monument under the 
Antiquities Act. The General Accounting Office, as Delegate 
Christensen mentioned, is right now reviewing--and at her 
request has reviewed--the question of Federal ownership of, and 
control of these submerged lands.
    I do want to here, also, compliment Delegate Christensen 
for all that she has done.
    Now, she's got us hopping in a number of different ways in 
addressing many of the issues that you're going to bring forth 
today but I want to thank her for having--giving us the focus, 
and having me get here so that I could actually take a look at 
these issues, and not do it from sitting in Washington and 
understanding it from there.
    So I just want to thank you for allowing me to have this 
opportunity, and also to get our attention on these issues.
    Again, we hope that the GAO report will be out shortly so 
we can move forward again with more public input and 
involvement so we can better analyze how we go forward.
    As to the size of the Virgin Islands Coral Reef Monument, 
the Clinton administration determined the 12,708 acres was the 
smallest area needed to ensure the proper care and management 
of the resources being protected and their long-term 
sustainability. It is a large enough area to provide a 
fisheries nursery, and, in theory, should assure that fishing 
remains viable as an industry and a recreation activity here.
    I know one of the issues is the loss of fishing territory 
and what kind of impact it will have on the industry but also I 
think that many are aware that as we go forth we want to look 
at how do we regenerate stocks of fish so that in the long view 
we are able to have fishing for now and future generations, 
what we call ``fishing forever.''
    Like many coral reef environments throughout the world--and 
I know. I worked in many of them in Florida--the Virgin Islands 
tropical marina ecosystem is under stress.
    Damage has been caused over the years from a variety of 
natural forces, obviously, such as hurricanes and human 
activities. The marine ecosystem has been harmed by hurricanes, 
diseases of various kinds and coral predators.
    Activities that continue to the degradation of these marine 
resources include sediment runoff from incompatible land uses, 
development practices, nutrient input from sewage. Poaching, 
overfishing and improper fishing, and diving and boating 
activities can contribute.
    Mr. Radanovich. Excuse me.
    Ms. Mainella. Yes.
    Mr. Radanovich. Fran, you'll do a sum-up--
    Ms. Mainella. I will. Thank you so much.
    Mr. Radanovich. --and then we'll catch the rest in 
questions.
    Ms. Mainella. Let me just kind of come to a conclusion on 
the sense that what I want to just be able to say is that 
tourism is an important part of all that we do, and know that 
we're going to play an important role in tourism.
    And the fact is, most areas in the Nation fight to have a 
National Park come in their area because of the value it brings 
because of tourism.
    We're here to work with you. We are part of a team, and 
want to make sure you know that we are here to make sure that 
happens.
    John King and others will be ready and willing to work for 
and with you, and we're ready to assist you in whatever we can.
    Also, Delegate Christensen asked me about what can we do, 
when I met with her in Washington, about more promotions. We do 
have a video that will be ready, and we'll be ready to have 
that available to go on Cable TV or others, whatever way would 
better help this community to promote the Virgin Islands and 
our parks.
    Thank you so much.
    Mr. Radanovich. Thank you very much, Fran.
    [The prepared statement of Ms. Mainella follows:]

    Statement of Fran P. Mainella, Director, National Park Service, 
                    U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before your 
Subcommittee at this oversight field hearing on the Virgin Islands 
National Park and the Virgin Islands Coral Reef National Monument. I am 
accompanied by John King, Superintendent of Virgin Islands National 
Park, who also has management responsibility for the newly established 
Virgin Islands Coral Reef National Monument.
    We appreciate the opportunity that this hearing and visit is 
providing for all of us to increase our understanding of the Virgin 
Islands its people and its resources and to discuss the particular 
opportunities and challenges the National Park Service faces in 
managing the units here that are under our jurisdiction. My statement 
will focus on the establishment of the Virgin Islands Coral Reef 
National Monument, and an update on the planning process that will set 
forth future management goals.
    As you know, the Virgin Islands Coral Reef National Monument was 
established on January 17, 2001, by proclamation of President Clinton 
under the Antiquities Act. Consisting of 12,708 acres of submerged 
lands off the island of St. John, the monument contains all the 
elements of a Caribbean tropical marine ecosystem. The designation also 
enhances the protection of fragile resources included in the Virgin 
Islands National Park, which Congress established in 1956 and expanded 
in 1962. Establishment of the monument roughly doubled the amount of 
acreage in and around St. John that is now under the jurisdiction of 
the National Park Service.
    Since the designation of the Virgin Islands Coral Reef Monument 
last year, representatives of the Virgin Islands government raised 
numerous questions and concerns. In fact, on April 9, 2001, the 
Legislature of the Virgin Islands passed a resolution (No. 1609), 
expressing concern over the lack of adequate public participation in 
expansion of the monument, ownership of the submerged lands, the size 
of the monument, and potential impacts on the fishing and marine 
industries. I would like to briefly address those concerns.
    While we share concerns about the way in which these monuments were 
created, our job now is to ensure that we develop management plans in 
an open, inclusive, and comprehensive way. As stated by Secretary 
Norton on numerous occasions, the planning for the future management of 
these monuments will be a model of what we call the four C's: 
Consultation, Cooperation, and Communication, all in the service of 
Conservation. The Department of the Interior is committed to management 
and protection of the monuments consistent with the four C's and the 
purposes established in the proclamations. In response to this 
commitment, we published a notice in the Federal Register on April 24, 
2002, initiating a formal scoping period seeking public comment to 
identify issues to consider and analyze regarding management at the 
monument designations in the western states. The Department is 
currently reviewing the public comments. After reviewing all the 
comments on each monument, I believe most of the issues can be 
addressed through the management planning process, which will also 
include comprehensive public input. With regard to the monuments we are 
discussing today, we anticipate a similar public review process as soon 
as the issue of submerged lands ownership is resolved.
    We agree that Federal ownership or control of the land is necessary 
for an area to be designated as a national monument under the 
Antiquities Act. The General Accounting Office (GAO), at the request of 
Delegate Christian-Christensen, has reviewed the question of Federal 
ownership or control of the submerged lands in the expansion of Buck 
Island Reef National Monument. We understand that GAO will issue its 
opinion shortly.
    As to the size of the Virgin Islands Coral Reef National Monument, 
the Clinton Administration determined that 12,708 acres was the 
smallest area needed to ensure the proper care and management of the 
resources to be protected and their long-term sustainability. It is 
large enough to provide a fish nursery and, in theory, should help 
assure that fishing remains viable as an industry and a recreational 
activity here.
    Although the loss of fishing territory could have an impact on the 
industry, we believe that it should be offset by the regeneration of 
stocks of fish that should occur from the enhancement of the fish 
nurseries made possible by the designation. Like many coral reef 
environments throughout the world, the Virgin Islands tropical marine 
ecosystem is under stress. Damage has been caused over the years from a 
variety of both natural forces and human activities. The marine 
ecosystem has been harmed by hurricanes, diseases of various kinds, and 
coral predators. Activities that contribute to the degradation of these 
marine resources include sediment runoff from incompatible land-use and 
development practices, nutrient input from sewage, poaching, 
overfishing, and improper fishing, boating, and diving practices.
    Research over a long period of time has provided evidence that fish 
are not only smaller than in the past, but also that there has been a 
serial depletion of certain species, including the commercial 
extinction of the Nassau Grouper and Goliath Grouper. In addition, 
twenty years of data collection within and around Virgin Islands 
National Park show a marked decrease in the amount of sea grass beds, 
mangroves, and live coral. Research has also shown little to no 
recovery on damaged coral reefs. These conditions, and the prediction 
of continued decline, are what led to the establishment of the 
monument.
    Another critical factor in the decision to designate the Virgin 
Islands Coral Reef National Monument, as well as expand the Buck Island 
Reef National Monument, was their potential to improve the Virgin 
Islands economy. Tourism is the mainstay of the economy here, and the 
national park units on both St. John and St. Croix contribute 
significantly to the tourism revenues generated on those islands. By 
enhancing and providing more long-term protection for the spectacular 
resources managed by the National Park Service that lure tourists to 
the Virgin Islands, the monument designations were seen by the Clinton 
Administration as an important way to help improve and sustain the 
Virgin Islands' economy.
    In summary, the designation of the Virgin Islands Coral Reef 
National Monument should provide for a recovery of coral reefs and 
associated habitats, facilitate an increase in the abundance of reef 
fish, sustain traditional cultural fishing practices in surrounding 
waters, enhance the quality of the visitor experience to the Virgin 
Islands, and contribute to economic growth from tourism. As stated 
earlier, the National Park Service has been preparing to undertake the 
planning process that will set forth the future management and use of 
this area, and we look forward to working collaboratively with the 
territorial government, our gateway communities, and other interested 
stakeholders in this endeavor.
    Mr. Chairman, this concludes my remarks. Superintendent King and I 
will be happy to answer any questions you or your colleagues may have.
                                 ______
                                 
    Mr. Radanovich. I'm going to turn my time to Donna to begin 
the questioning.
    Mrs. Christensen. Thank you. I do have a few questions, 
Director. And welcome, Regional Director Mr. Belson, and Deputy 
Hooks and, of course, our own Superintendent King.
    Most of your testimony revolved around the issue of the 
Monument, and as we await the GAO opinion on who--the ownership 
of the submerged lands, should it happen that the opinion were 
to state that these were Federal lands, and that the monument 
designation is legal, can you assure me today that there will 
not be an immediate no-take imposed on the waters, the 
submerged land?
    Ms. Mainella. Delegate, one of the things that--our whole 
style, again, is a partnership approach. What we will be doing, 
just as the Secretary is doing now under the monuments that are 
already established in the western states, we will be looking 
for public input, and again, we'll do a transition team to help 
us kick this into gear.
    One that works well, is the most as we can do within the 
law that's been given to us, and I would ask for your help in 
helping us establish that transition team as we move forward.
    Mrs. Christensen. And as a follow-up to that, do you 
believe that the issue of fishing rights can be resolved 
through the management plans in the V.I. Monuments?
    Ms. Mainella. I believe the management plans are what are 
key to being able to deal with fishing issues.
    But I think there are some things that are set in law. If 
the Monument does prevail, that we won't have as much 
flexibility but I hope, again, through other approaches, that 
we can be able to better address, so that fishing not only 
exists but continues to grow in a way that is appropriate, and 
appropriate with the Monument status, if that's what does 
prevail.
    Mrs. Christensen. You've been in the Park system for a long 
time?
    Ms. Mainella. A long time.
    Mrs. Christensen. Can you tell us a little about your 
experience where, in areas where there might have been 
overfishing and also where monuments or some kind of marine 
reserve has been put in place?
    Ms. Mainella. Yes. As Director of Florida State Parks for 
the last 12 years before I came here, as Congressman Radanovich 
had indicated, I worked with a number of marine environments. 
In particular, many would know John Pennecamp Coral Reef State 
Park which abuts right up to Biscayne National Park, and that 
is very well known for its coral reefs.
    One of the things that we did have to do in there, we did 
have to go in, and go into an area where we put fishing 
restrictions, either going into no-take in some parks in the 
area, or going into catch and release, but definitely 
eliminating a lot of the anchoring and putting a lot of mooring 
buoys out there to be able to tie up to.
    In doing that we actually watched the growth and increase. 
Like the lobsters that used to be in there got very small. Now 
they're coming back and being much, much larger. And those are 
things that can happen, in other words.
    But together we have to find a way to work together, and it 
needs to be the fishing industry along with the Park, with our 
scientists, working together to understand the big picture.
    And we have to constantly look what is the big picture for 
the Virgin Islands in our parks. How we're going to make sure 
that prevails in the long way. And I've seen success there.
    Mrs. Christensen. Thank you.
    We have been also talking about fees, the issue of fees to 
the Park, and we're going to talk a little later about 
concession fees but I want to talk about entrance fees because 
in the enabling legislation it was clearly stated that there 
should be no barriers to people of the Virgin Islands using the 
National Parks, and fees are a barrier.
    And I know we've talked about this, and I'd like you, for 
the record, to respond to where we are.
    Where is the National Park Service with regard to our 
request that the fees be waived?
    Ms. Mainella. Thank you so much.
    As you know, our agents worked on this issue. Jerry Belson 
and others have worked aggressively trying to find some 
answers, and one was maybe discounts or something like that.
    Since the time I've already been here--and, again, I 
haven't even had a chance to really get out. I just arrived 
yesterday. But we talked to people even around the island 
already, and having a chance, even people coming in, and to 
talk about the fee aspect.
    I would like to ask that we look at a committee that you 
and I together, and others that are appropriate, you would 
suggest look at the fees as a whole. Fees in our National Park 
system have actually been a big success. In all honesty I think 
all of us want to see the structures, the improvements that 
John and others are making take place, but we also need to make 
sure that all that we do, again, is a fair and equitable 
situation, and abiding by all of the laws.
    So I'd like us to go back. It doesn't mean that we'll end 
up with major changes but it could be. And I would like us to 
go back and look at that so we have a clarity regarding--this 
is particularly dealing with the Virgin Islands and their 
residents as--on that, particularly, with the enabling 
legislation.
    So, if you would agree to help me in a committee to look at 
that, I would appreciate that kind of review at this time.
    Mrs. Christensen. Thank you.
    Mr. Chairman, my initial 5 minutes are up.
    Mr. Radanovich. No. We'll go--I'll allow 5 minutes. We will 
certainly do a second round.
    Mrs. McCollum, any questions?
    Ms. McCollum. I just have--it's more of a general question 
for your management plan. I know the National Park Service has 
struggled for years to get the management plans done and on 
time. I know it's been a concern, not only on my part, of the 
United States, but in--since having been appointed to this 
Committee, many other parties.
    Can you tell me what we need to do, as Congress, to 
facilitate your being able to get, after the rulings come out 
and you have your public hearings, and you get to manage--how 
we get the management plan processed, jump start it so that 
people in the Virgin Islands are not waiting for a long time 
for that to happen for the Monument?
    And, also, how, in reading some of the material that I had, 
updating the management plan to identify many of the concerns 
that Delegate Christensen brought up with cruise ship travel 
and other things?
    What can we do to make those processes which are 
independent but at the same time very complementary happen 
quickly for the people here in the Virgin Islands?
    Ms. Mainella. Well, I want to thank you all, first of all, 
because you did put some money in our budget, and I'm going to 
ask John to help me in a moment to give me even further detail, 
that we do have money in our budget for '02--that's the year 
we're in now--to begin our management planning process for the 
Park as a whole, and it certainly can tie right together with 
the Monument once we have a determination from GAO on the 
status of that.
    John, could you give us a further update how we're going 
forward?
    And is there other--I mean, you know, as the President 
asked me one time, do you--``Do parks always have all the money 
they need? Did you get all the money in your budget?''.
    I said, ``Mr. President, considering all we've gone through 
since September 11th, you've taken good care of us. The parks 
always need more money. But exactly how we've done well here in 
our budget, I thank all of you for your leadership.''
    John, could you give us an update, please, sir?
    Mr. King. Yes. Yes, Director. Can you hear me?
    Mr. Radanovich. No. You need to speak more directly. Or 
it's not on.
    Mr. King. Can you hear me?
    Mr. Radanovich. No.
    Mr. King. Can you hear me now?
    Mr. Radanovich. No. There you go.
    Mr. King. Well, I'd like to just say for the record that 
the Virgin Islands National Park does not have all of the 
funding that it would require, and anything that you might be 
able to do to help us in that regard would be greatly 
appreciated.
    As to the general management plans, we did receive funding 
in Fiscal 2002 to update the Virgin Islands National Park 
management plan and also to initiate the planning process for 
the Coral Reef National Monument, and that depending upon the 
outcome of the GAO in dealing with the question of the 
ownership of the submerged lands.
    Given the fact that we are getting so close to the end of 
the fiscal year, we've been told by our planning office that 
we're going to have to defer the starts of the award of the 
contracts to begin the GMP's in total of three.
    That the money is still available. That we have not lost 
our place in line as it were, and so we're hoping that as soon 
as the issue of the ownership of the submerged lands is 
resolved that we'll be able to commence the planning effort 
hopefully early in Fiscal 2003.
    Thank you.
    Ms. Mainella. Thank you, Mr. Chairman.
    Mr. Radanovich. You're welcome.
    Fran, a couple questions. We have mentioned that GAO 
started just looking into the legality of the Monument. 
Although I think it's very good to have the study, the GAO is 
not the final arbiter of whether this is--
    Ms. Mainella. That's correct.
    Mr. Radanovich. --right or not, or legal or not.
    Ms. Mainella. Right. That's correct.
    Mr. Radanovich. So what is, I mean, I think Donna described 
the context of what would happen if GAO came out and said yes, 
that the Monument is correct.
    But what if they don't, and how does that issue get 
resolved?
    Ms. Mainella. Again, this would go all the way to the 
Secretary level. So the only thing that I could say right now, 
immediately when that report comes out, the solicitors will 
take a look at it to understand what are the implications to us 
and to, you know, to the Park, to everyone involved. And I 
think that, again, we just have to look at it and get that 
public input.
    That's what I'm hoping these hearings--by you having these 
hearings, you're expediting all of the transactions that could 
take place following the GAO report.
    And I think the Secretary, we may come back after the 
hearing, and you and I may go back, and all of us recommend to 
the Secretary no matter whether the GAO report is out or not, 
we're planning to keep moving with the management plan and 
start the planning process. It just would be a lot clearer if 
we're doing it for a whole monument versus not.
    And so I guess, again, this will go all the way to the 
Secretary's level, and your involvement as well as mine, and 
the whole Committee certainly will help expedite a game plan on 
this.
    Mr. Radanovich. Can you answer for me, too--there's an 
issue of the health of the fisheries in the area. Is there 
evidence to suggest that the area is--that the stock is down, 
that the area has been overfished or is--
    Ms. Mainella. Yes, actually, a part of it. I didn't get a 
chance to, and I'll ask John to help me on that.
    I know that there is quite a bit of research that has shown 
that there is a drop-off in many different areas.
    John, could you follow up on that, or do you have that 
detail? I have my notes, and I'll put my glasses on to find it 
real quick.
    Mr. King. Certainly, the information that we have been 
given--
    Mrs. Christensen. You need to speak a little louder.
    Mr. King. Certainly the information that we have been given 
by the scientists, both with the National Park Service and with 
the USGS Biological Resource Division, is that the fishery in 
the Virgin Islands is in a significantly depleted state.
    As a matter of fact, we have heard references to the 
fishery in the Virgin Islands being compared to fisheries off 
the coasts of Haiti and Jamaica, both of which are considered 
to be collapsed fisheries. So there is a serious problem here.
    I mean, we are, quite frankly, very excited about the 
possibility of improvements that can be realized through the 
establishment of a marine-protected area. And something that we 
are planning to do during the planning process for the Monument 
is to bring fishermen from other communities that have had 
marine management areas where marine reserves are established, 
so they can share what the positive results of those have been.
    As a matter of fact--and I think Delegate Christensen might 
have seen this video but if not we could certainly make it 
available. But we obtained a video that was taken of fishermen 
on St. Lucia who were--several years ago a marine management 
area was established--and who complained vociferously about it, 
fought it vigorously, and then several years later came back 
and said it was probably the best thing that ever happened to 
the fishery there, that the fish were abundant, they were 
larger, and their traditional life ways were continued as a 
result of the additional protections that were afforded.
    Mr. Radanovich. Mr. King, could you provide the 
Subcommittee with the information that you have of the science 
that would lead to the description, the status of the 
fisheries?
    Mr. King. We'll provide it to you, Mr. Chairman.
    Mr. Radanovich. I'd appreciate that.
    Betty?
    Ms. McCollum. Thank you, Mr. Chairman. I just have a 
question that came to mind.
    We have the British Islands. Are the British--do they have 
parks?
    Do they have a fish protection habitat?
    Because the fish are swimming around, and if they're not 
doing anything to protect the fish, that puts more pressure on 
just us to do it, and I know we have to work with Canada on our 
border lakes about, you know, what catch needs, commercial fish 
nets.
    Are we in dialog with what's going on in the other islands 
or are we going to be taking on the sole responsibility of 
trying to protect the habitat?
    Mr. King. Well, there is a national park system in the 
British Virgin Islands. Now, the degree to which collaboration 
by marine biologists and other scientists has been made between 
the U.S. Virgin Islands and the British Virgin Islands and 
other Caribbean islands, I'm not sure, but we can certainly 
find that out and provide that for the record.
    Mr. Radanovich. Yes, thank you. And just one quick question 
before I move on with Donna.
    But can you tell me, Mr. King, or Fran, the word was 
mentioned that this was a marine-protected area. Officially, I 
don't think it is. Or can--
    Ms. Mainella. I--
    Mr. Radanovich. You want to speak to that?
    Mr. King. No, it's not officially a marine-protected area. 
Right. I guess I used that term in that additional protections 
would be afforded to the fishery, and so it would operate 
essentially as a marine management area, a marine-protected 
area.
    But, it's the thinking of the Coral Reef National Monument, 
there are fishing prohibitions with two exceptions, and those 
two exceptions are bait fishing, and Hurricane Hole, which is 
an area that, by permit, and blue runner or hardnose fishing on 
the South Shore of St. John, also by permit, but other than 
that, that all extractive uses would be eliminated.
    Mr. Radanovich. OK, thank you.
    Donna?
    Mrs. Christensen. Thank you. I have a couple of follow-up 
questions on something the Chairman asked.
    And just for clarification, now, when I asked--when I asked 
my first question, that was assuming that the lands were 
Federal.
    Ms. Mainella. Right.
    Mrs. Christensen. Assuming that the lands are--the opinion 
is--
    Ms. Mainella. Right.
    Mrs. Christensen. --that, as they looked at how the 
determination of ownership was done, it was done incorrectly, 
and--
    Ms. Mainella. Right.
    Mrs. Christensen. --the lands are really the property of 
the people of the Virgin Islands.
    We would not anticipate any contest from the Department on 
that. That would--the whole issue would disappear, correct?
    Ms. Mainella. I would expect, again, that the Secretary 
would review it, but I think you have to have control. If a 
determination is concurred that we don't have control of these 
lands, I don't know how you'd designate something as a 
monument.
    Mrs. Christensen. Right, because if--
    Ms. Mainella. And I mean, I can't speak--it would be a 
Secretarial determination but my recommendation would be that, 
you know, you have to follow the law. And we need to make sure 
that we do.
    Mrs. Christensen. Right. And a follow-up, also, if I could 
ask Mr. King this question.
    You talked about bringing examples where a reserve or a no-
take area worked. Are you aware of some that don't work?
    When we do this, I'd like to have a balanced approach so 
that we can hear pros and cons. Are we going to do that? Are we 
going to take a balanced approach?
    I mean, are you aware of anywhere that no-take zones, for 
example, where this was imposed and it didn't work, and the 
people were still unhappy?
    Mr. King. Not to my knowledge, Ms. Christensen. That could 
very well have happened and I just am not aware of it. But we 
certainly want to take a balanced approach to the planning 
effort, and ensure that all of those who have a valid and 
vested interest in the outcome of this planning opportunity 
have a chance to participate actively and substantively.
    Ms. Mainella. One of the things, if I may follow up, is 
that, one, we will search if there are any things that are in 
those--you know, where we've gone into a no-take, and things 
have not been--it hasn't been helpful.
    I know there's a period of time that takes place for that 
to replenish. But we have just brought on, because of the 
issues of Virgin Islands and a lot of other areas throughout 
this nation, we now are going to have a specialist who's going 
to help us more in the marine side of our efforts, and we 
haven't had that before.
    We've just brought him on, and that will be part, also, 
linked to our natural resource channel, that you'll help us 
with. And so you'll see that.
    And also, again, we'll continue to work with our partners 
who are beyond, you know, both state, Federal, and others who 
work in this area, to make sure that we're not doing this in 
isolation.
    One of the things we do not want the Park Service to do is 
function in isolation. We have to function in partnership.
    Mrs. Christensen. Thank you.
    And two other brief questions. The number of questions--
this is a different subject regarding the ownership of roads in 
the National Park, and you're going to hear about in a little 
while.
    Ms. Mainella. Right.
    Mrs. Christensen. Can you tell me, do you have knowledge of 
other parks that also have, within those parks, roads that are 
not owned by the Park?
    And how does that impact management?
    Does it have an impact on management at all?
    Ms. Mainella. Usually, again, you know, having been on for 
a year now, you know, I know we have some roads that we don't 
own, but we will usually work in partnership. Again, it's 
usually to the best interests of the community or whatever, who 
may or may not have--who may have ownership or whatever, to 
work in conjunction with the Park.
    Because, again, if the Park is not being successful--where 
we used to see a lot of people were injured on those roads and 
things of that nature, because they forgot--they were in a 
Park, or maybe not, you know, in--or people walking across 
streets thinking they're in a Park, and not paying attention to 
the fact that this is a major highway.
    We've worked in conjunction with the local governments, and 
they helped us enforce and make sure that things were done 
appropriately for the well-being of the visitors. Because 
without the well-being of the visitors being taken care of, our 
whole economy suffers, both locally and for the well-being of 
the National Park system as a whole.
    Mrs. Christensen. But if the Park--if the roads do not 
belong to the Park,--
    Ms. Mainella. Uhm-hmm?
    Mrs. Christensen. --can the Park still manage the entire 
Park, including those roads?
    Ms. Mainella. I think it's more challenging if--you know, a 
lot of places, you know, roads have been, you know, given 
through an MOU for us to manage, even if they belong to a 
county or whatever, because it wasn't as effective.
    It's better when we jointly, you know, when things are 
clear, and not get into contradictory positioning.
    But I don't know all of that. I can do more homework for 
you and get you a more detailed answer if you'd like.
    Mrs. Christensen. When some of the people, the panels that 
follow, those issues will be brought up and they can--
    Ms. Mainella. Thank you.
    Mrs. Christensen. --give us some more information on which 
to continue those discussions.
    One last question. What's the Department's position, to 
your knowledge, on access to inholders' property? You're going 
to also hear it, and I'm asking you before the--
    Ms. Mainella. Right.
    Mrs. Christensen. --testimony is actually given. But I'd 
like to at least hear what's the Department's position on it.
    Many of my constituents are complaining that they're being 
denied access to their property by the Park, and as Director of 
all of our Parks, and your experience with the Park, if there 
is a response that you might have at this point to some of 
those concerns?
    Ms. Mainella. Access is a critical issue for everyone, to 
come into a Park and to get to their inholding, and we do work 
with individuals to make sure they are getting access to their 
property.
    Now, going beyond, we try to work in partnership with them 
so that that access is an environmentally friendly access. We 
do get into--we don't normally physically provide the roads, in 
other words, or whatever, but we work with the individuals for 
access. But it has to be done as an individual.
    Where you get into a little more challenge--and I would 
need legal help on this one--is when it gets into a lot of 
development purposes where it's going to bring more than just 
the individual having access.
    And that's something that has to continue to be worked on 
with, beyond my level, which I'm deferring to our legal counsel 
on that.
    Thank you.
    Mrs. Christensen. Thank you.
    And we'll hear from our panel on that issue, and get some 
more information on which we can continue this discussion later 
on.
    Mr. Radanovich. Yes. Thank you, Mrs. Christensen.
    Mrs. Christensen. Thank you.
    Mr. Radanovich. Any other questions?
    Mrs. Christensen. No, Mr. Chair.
    Mr. Radanovich. Any other questions? Did you want another 5 
minutes, Donna?
    Mrs. Christensen. No. I would like to hear from--
    Ms. Mainella. We'll be sitting back here.
    Mrs. Christensen. I get a chance to talk to Fran all the 
time.
    Mr. Radanovich. Thank you, Fran, Mr. Belson, Mr. King. 
Appreciate it.
    Ms. Mainella. Thank you so much.
    Mr. Radanovich. Oh, and, Fran, we do have some other 
questions but we'll be submitting them to you, and would 
request that you respond by writing.
    Ms. Mainella. And thank you for allowing me to be here 
today. I appreciate it.
    Mr. Radanovich. Thank you for being here today.
    Ms. Mainella. Thank you very much.
    Mr. Radanovich. OK, I will now introduce our next panel 
which includes the Honorable Almando ``Rocky'' Liburd. Oh, 
please forgive me if I--
    Mrs. Christensen. Liburd.
    Mr. Radanovich. Liburd. Thank you. My name's Radanovich.
    24th Legislature of the Virgin Islands; the Honorable 
Donald ``Ducks'' Cole, Chairman of the Planning and 
Environmental Protection Committee; and Mr. Myron Jackson, 
Department of Natural Resources.
    Good morning, gentlemen. Welcome to the Committee, and I 
appreciate your testimony that you're about to give, and also 
to make yourselves available for questions.
    We'll begin with the Honorable Almando ``Rocky'' Liburd, 
President of the 24th Legislature. Rocky, welcome to the 
Committee.
    And we are under the 5-minute rule, please. If you can keep 
it up, that would be great but we'll have lots of opportunities 
for you to speak. So please begin.

  STATEMENT OF HON. ALMANDO ``ROCKY'' LIBURD, PRESIDENT, 24TH 
               LEGISLATURE OF THE VIRGIN ISLANDS

    Mr. Liburd. Thank you very much, Mr. Chairman George 
Radanovich; and to Congresswomen Christensen and McCollum; and 
two of my colleagues who are here, my colleague Senator Cole, 
who's the Chair of the Planning and Environmental Protection 
Committee; Mr. Myron Jackson, representing the Commissioner of 
DPNR; to all of the testifiers; fellow St. Johnians; fellow 
Virgin Islanders, welcome.
    Let me just say before I begin my testimony, that you are 
the first--this is the first Committee to sit in this setting. 
You know, we have upgraded our whole entire Senate, and you are 
the first one to Chair a Committee here, and by the way, let me 
also say that you're carried live on radio. We are on radio. We 
are live Territory-wide.
    Mr. Radanovich. We're christening the hearing room.
    Mr. Liburd. Yes, you're christening the hearing room. My 
colleagues certainly will thank you.
    Mr. Radanovich. It's very much an honor.
    Mr. Liburd. Thank you.
    All right. Good morning. My name is Almando ``Rocky'' 
Liburd. I'm the President of the Senate. I'm also the Senator 
at Large, and I'm also an indigenous St. Johnian, born and 
raised here, live here.
    And so I want to thank you, and thank you, Congresswoman 
Christensen, for inviting the Subcommittee here.
    I've submitted a statement on the record but I want to just 
expound on it as we go forward. Let me begin first by saying 
that the National Park, as I've always said, has been a good 
addition to the Island of St. John.
    You know, if it hadn't been for the National Park, as a 
matter of fact, we probably would have seen all of our beaches 
with hotels and resorts, you name it.
    And so I must say that they've done an excellent job in 
maintaining--and right behind you is a picture of one of those 
sites. And it's there as part of this institution. So I say 
that the Park has been good in that respect.
    But you know, like in families, we have some little 
disagreements, and certainly there are a couple of things that 
come to mind.
    As a youngster growing up here in the Park, I recall at the 
inception the Park was to be part of our people. In other 
words, it wasn't supposed to be the Park and then us.
    And such, what happens is that we have seen from time to 
time that separation that has occurred. And how has this 
occurred?
    It has occurred due to the fact that roads that were within 
the Park that were passable, that provide access from one end 
of the island to the other end of the island, have been closed 
off. Case in point. Right here in Cruz Bay there are about two 
or three ways to get to the other end of the island, which is 
Coral Bay, but right now they are blocked off.
    In particular, two of them, one at the--what we call Steven 
Mandahl or Fish Bay area. There is another road over by the 
Leinster Bay area that goes right into Emmaus Moravian Church 
in Coral Bay. We call it Johnny Home. These are names that have 
been given over the years.
    The Legislature, in its wisdom, back in 1962, passed an 
act, Act 806, that transferred the roads to the National Park. 
As a matter of fact the Act indicated--and it is part of the 
submission that I sent--in it it states that the National Park 
Service has informed the Government of the Virgin Islands by a 
letter dated October 26, 1961 that it would improve and 
maintain the following public roads in St. John.
    And we have North Shore Road. We have the Cruz 
Intersection, Centerline, Annaberg, Mirror Point, Kingshill 
Road, Bordeaux, Lameshur, East End, et cetera. All of these 
roads have been outlined in this Act.
    But today many of those roads haven't been maintained 
according to the Act.
    Secondly, there are a number of residents who, upon the 
purchase, or when the property was turned over to the National 
Park, they had properties or inholdings within the Park. They 
were able to access these properties, but once the Park came 
in, their access has been slowly denied. That is wrong. I 
believe that we have a right to access our property.
    I don't believe nowhere in America it should be that 
persons under the American flag are denied access to their own 
property. And I believe that your Committee, and as the Chair 
of the Park here, the Director of the Park can do something 
about that.
    Because, you know, the problem we have is that we're a 
small community. We don't have a lot of resources, but we need 
some friends. And the friends we see here in you, Mr. George, 
Chairman; McCollum; Donna Christensen and your Committee, and 
along with-- I just met the Director. I'm sure she's going to 
work with us, also, that we can bring some relief to some of 
these situations.
    In Coral Bay in particular, if there is a disaster, or, God 
forbid, one of our hurricanes, as we experience them from time 
to time, and there's a section of the road, Centerline Road, 
that's blocked off called Kingshill, there's no exit.
    We have an entire population that are at the mercy, no exit 
for any kind of service at all, and that should not be. For 
years we've been trying to ask for at least an access.
    There are three of them. We are asking for at least one, 
one that can provide that, in the event of something to happen.
    That has not happened. And I don't believe it's too much to 
ask for. I think that we as a people deserve that, and 
certainly the St. Johnians deserve that.
    I know this because I was born and raised in that area. I 
know the area, and many residents in here you will see, as they 
come forward to speak about it, the area.
    The issue about the school. You know, because St. John is 
so small, and the National Park takes up the majority of it, we 
have finite property, and because of that, there is a great 
need for us to work out some--either an exchange or some type 
of a support because I think that the whole concept of the Park 
was to work with the community, not against the community. And 
that issue of the school has been brought about but I must say 
in the Park's defense that letters have been written to them, 
and I think they have not said they are not going to do it.
    So, to some degree I think part of it is the blame of the 
Government. We haven't done as much as we should do, and I'm 
speaking about the executive branch because we put it into law. 
So I just want to make sure because I know the record that is 
there, and we can show that.
    So today's hearing, it is my hope that you can bring some 
relief to a longstanding problem, over 40-plus years, of 
residents coming and going. Many residents have to sell their 
land because they can't afford to get to it, so they certainly 
don't want to pay for it.
    As a matter of fact, the Legislature, we passed an Act that 
said that they should not pay taxes for their property if they 
can't access it. And so that's in the law right now. So they 
don't have to pay any taxes for those properties that are 
within the holding of the Park.
    And I heard the Director spoke a while ago about roads 
through the Park. This is not unique. It's happened throughout 
the world.
    And so I'm saying that just like how it happens other 
places, we are Americans, deserve the same, and I'm saying that 
I don't believe that we want to have some of the most laborious 
or--we don't want to be unfriendly to the environment but I 
believe that we can coexist.
    But remember, we're talking about human beings who live 
here, who have no place else to go, who can't afford to get 
attorneys to fight any cases, so--and so we hope that your 
oversight and the fact that you're here would certainly bring 
some closure to this issue.
    And certainly we want to thank you for this opportunity, 
and I remain available for any questions. Thank you.
    Mr. Radanovich. Thank you very much, Mr. Liburd. Appreciate 
that.
    [The prepared statement of Mr. Liburd follows:]

    Statement of The Honorable Almando ``Rocky'' Liburd, President, 
                 24th Legislature, U.S. Virgin Islands

    Good morning to our Honorable Delegate to Congress Donna Christian-
Christensen, the Honorable Members of the United States House of 
Representatives' Subcommittee on National Parks, Recreation and Public 
Lands and fellow St. Johnians.
    I thank you for the opportunity to address you on behalf of the 
residents of St. John, in the United States Virgin Islands; who for the 
last forty-four years have been denied access to their property within 
the boundaries of the Virgin Islands National Park. I come before you 
today to ask for your assistance through positive actions, to guarantee 
the residents on the island of St. John and the Virgin Islands as a 
whole, that they have the right to own and possess their property like 
every other citizen of the United States.
    Before the United States bought the Virgin Islands from Denmark in 
1917, many families lived within the areas now designated as the 
boundaries of the VI National Park. However, because they were denied 
access to their own properties by the National Park Service, they were 
forced to move to other sections of the island. This is contrary to the 
agreement between the United States and Denmark regarding the private 
property rights and public roads of St. John residents.
    A September 17, 2001 legal opinion, written by VI Attorney General 
Iver A--Stridiron to Department of Public Works Commissioner Wayne 
Callwood, states, ``'All property which may have been acquired by the 
United States from Denmark in the Virgin Islands under the convention 
entered into August 4, 1916, not reserved by the United States for 
public purposes prior to June 22, 1937, is placed under the control of 
the Government of the Virgin Islands.''
    Please find attached ``EXHIBIT I''
    In addition, Act 806 of the Virgin Islands Code, approved January 
24, 1962 clearly states, ``the National Park Service has informed the 
Governor of the Virgin Islands, by letter dated October 26, 1961, that 
it will improve and maintain the following public roads in St. John: 
(1) The North Shore Road from the park boundary at Cruz Bay to the 
intersection of said road with the Center Line Road at King Hill; (2) 
the spur road to Annaberg and Mary Point; (3) the Bordeaux Road; (4) 
the Lamedhur Road from Park boundary to Lameshur, and (5) the East End 
Road from Park boundary at Coral Bay eastward to the East Boundary of 
the Park; and to cooperate fully to the end that all private properties 
have passable road access, wherever necessary, to the aforesaid public 
roads...
    Please find attached ``EXHIBIT II''
    Our residents have suffered for many years due to the National 
Parks refusal to acknowledge these laws. To the contrary, National Park 
rangers started instructing residents on lands still private, that they 
could no longer fish, chop wood, or other needful things for their 
survival. Because the roads are not maintained, exits are blocked in 
times of emergencies such as fires and illness.
    In conclusion, the frustration of landowners and residents would 
increase unless a time frame is in place when all in holdings would 
have ``passable roads.'' 1 wish to recommend that this Subcommittee 
utilize all of its authority to bring a resolution immediately!
    Since all parties involved determined forty (40) years ago that the 
private landowners have a right to access their properties unhindered, 
all that's required is the practical will to do it. We as United States 
citizens, under the United States Constitution, have the right to free 
access to our properties just as any other American citizen. We request 
and demand this right because we are no less citizens than any other 
within any other state, territory or jurisdiction under the control of 
the United States of America.
    Thank you
    [NOTE: Attachments to Mr. Liburd's statement have been retained in 
the Committee's official files.]
                                 ______
                                 
    Mr. Radanovich. So, next is the Honorable Donald ``Ducks'' 
Cole, Chair of the Planning and Environmental Protection 
Committee.
    Mr. Cole, welcome to the Committee, and, again, please 
begin your testimony.

       STATEMENT OF HON. DONALD ``DUCKS'' COLE, SENATOR, 
             24TH LEGISLATURE OF THE VIRGIN ISLANDS

    Mr. Cole. Good morning, the Honorable George Radanovich, 
our own Donna Christian Christensen, and Congress Lady 
McCollum.
    Mr. Chair, I'm happy that you're here in the Territory. I'm 
happy that you're addressing the situation. I must commend 
Delegate Christensen for having you here.
    The issues before us today are clear. In my written 
statement to you we have outlined the legal issues as I believe 
that the Office is going to be looking at.
    We believe that, as it pertains to the Monument, that the 
lands, the submerged lands that were taken were taken 
illegally, based on the law, in the President's forward 
proclamation.
    We believe that these things should be repealed, and it is 
in your power. Once this comes out, I believe that the people 
of the Virgin Islands--if it comes back that we are not the 
owners of those lands, I believe we need to take this as far as 
the Supreme Court because I tend to believe that the people of 
the Virgin Islands are United States citizens.
    The Federal Government oversees us here, should not trample 
on the rights which were given to us. So I believe that should 
be done.
    The issues with the inholdings in the Park I can liken to a 
situation where, Mr. Chair, you were just given the keys to a 
brand new Cadillac, and that Cadillac is brought in and it's 
placed in your garage. You have the keys, and you have the 
ability to move that Cadillac, but because of the restrictions 
that are placed on you, all you can do is go in your garage and 
wash and buff and look at your Cadillac.
    And you want to be able to take that Cadillac out and drive 
it and pick up your wife or your children, and take a tour, and 
that can't happen because guess what--it is so restrictive that 
you can't come out.
    And that is how I see, and the people see, the inholdings 
here in the National Park. They have the land, and some of the 
most expensive land in the Territory, deeded to them by their 
parents.
    And as you know, Mr. Chair, that the Virgin Islands heirs, 
specifically in St. John, the landholders, we came through a 
situation of slavery here in the Territory, and our ancestors--
    Mr. Radanovich. Yes. Can you hold that? Hold that thought 
just 1 second. Because I see people waiting for seats, and I 
want to ask if maybe Mr. King and some folks might want to take 
these seats up here, so that it'll free up some seats for other 
people back there, Ducks, because--I'm sorry for interrupting.
    Mr. Cole. No problem, Mr. Chair.
    Mr. Radanovich. If you could, that'd be great, and--
    Yes, Mr.--there you go.
    OK, Ducks, go for it. And, again, excuse me for 
interrupting.
    Mr. Cole. Mr. Chair, I appreciate it. The fact that they--
and I believe the people want to come and the people want to 
see. It's an historic occasion here in the Territory wherein 
the Subcommittee has come here to hear the concerns of the 
people of the Virgin Islands, specifically this beautiful 
island.
    And I was speaking in terms of landownership and the 
passage of land from individuals who were in servitude. You can 
see how that has become a serious problem here.
    And the fact remains, I believe that the citizens who own 
these lands, if not given access, basically under the U.S. 
Government, you know, we would be able to move to some 
concerns, and we don't really want to go there.
    My colleague Senator Liburd spoke to the fact that he grew 
up here in the Territory, here in St. John, roamed the island 
over there, and that is it.
    So through your powers we are asking you to go back to the 
U.S. Congress, let them know what happened here.
    I hope you will be able to have a tour where these 
inholdings are. And the road situation, as you traverse and you 
go to the East End, one of the most beautiful places on earth, 
you can see the problems that we have here.
    As it pertains to--and, Ladies and Gentlemen, the reason 
I'm not reading from my written statement, it becomes a little 
redundant because a lot of the issues have been pointed out, 
have been clear as to what we're seeking.
    The school right next to where we're seated right now is 
the Julius Sprauve School, located in the heart of industrial--
well, commercial areas. Big trucks and everything go by there.
    And the Legislature had petitioned the Governor asking him 
to sit down and negotiate with the National Park for some 
property within the National Park to place the schools so we 
can remove these children from this area and get them in a more 
conducive environment. And I believe that is supposed to 
happen.
    The fact remains, the Park System, the taxes that should be 
paid as in the national government in Washington, D.C., taxes 
are not paid. And I believe that the Federal Government should, 
on behalf of the National Park, build that school, fund that 
school, furnish that school as a quid pro quo for the taxes 
that are not collected on the lands that are owned by the 
Federal Government.
    That is one of the major concerns that my colleagues and 
myself have as it pertains to the education of our children. 
And I'm asking that something like that be done, and let the 
executive branch sit down and make sure that is done.
    As it pertains to the taxi drivers, and they're going to 
come up, and they'll be able to represent themselves, who make 
a living going throughout the Parks.
    And the access. And the good Congresswoman Christensen 
spoke to that fact, prohibiting them from going through.
    And the roads, as they are, they should be maintained.
    These are the issues that we hope that you will be able to 
clear up and take back because one of the problems I have, 
witnesses far removed from the Territory. We are here. You are 
there.
    A lot of the things that you deliberate on up there, you 
don't have that visual knowledge. And you will be able to take 
it back.
    I must say Congresswoman McCollum, as she mentioned the 
British Virgin Islands, we here are located between Puerto 
Rico, which has almost 4 million people, a vast amount of land, 
and between the British Virgin Islands that is a British 
dependency. The rules and regulations that are so stringently 
enforced against us here are limiting our economic development.
    I have a serious joke as it pertains to the turtles that 
are protected by the Federal Government. The turtles are 
populating now. They're getting so smart because they know 
right next door in the British Virgin Islands they can be taken 
and killed, so what they do, they swim over here and they party 
and laugh at those other turtles and those other people over 
there that are swimming.
    And these turtles and our fishes, they're getting smart 
because they're recognizing that they're being caught over 
there without any restrictions, and once they come over here 
they can cool out.
    And I understand why the Monument was set up, and I am for 
conservation and preservation and for future use, but the fact 
remains, I believe, and I believe that the Court would rule, 
that those lands were taken illegally.
    I see my time is up, and I'd like to thank you for coming 
here. And those issues that are dear to the people of the 
Virgin Islands, we ask you to look upon them, and in your 
deliberative process with the treaties with the Federal 
Government and the British, the British Empire, as it pertains 
to conservation in the British Virgin Islands, yes, they do 
have some laws but the line of demarcation is so small that 
what happens over there affects us over here.
    So if you can utilize your authority and power in those 
treaty processes to make sure that what is done over there 
basically coincides with what we do over here.
    And the question was well taken, Madam McCollum, because 
what happens over there affects us over here.
    I would like to thank you for coming, and I'm available for 
any questions.
    Mr. Radanovich. Thank you very much, Mr. Cole.
    [The prepared statement of Mr. Cole follows:]

          Statement of The Honorable Donald G. Cole, Senator, 
              24th Legislature of the U.S. Virgin Islands

    My name is Senator Donald G. Cole, Liaison to the United States 
Congress, Chairman of the Committee on Planning and Environmental 
Protection and member of the 24th Legislature of the United States 
Virgin Islands. It is an honor to have the opportunity to testify today 
before the Subcommittee on National Parks, Recreation and Public Lands.
    I stand before you today, honoring an invitation to testify from 
George Radanovich, Chairman of the Subcommittee on National Parks, 
Recreation and Public Lands. The said invitation has asked me to 
contribute in this July 20, 2002 Subcommittee oversight hearing on the 
Virgin Islands National Park and the Virgin Islands Coral Reef National 
Monument.
    As important as these two issues are to the people of the Virgin 
Islands today and those who have prepared the path, I will attempt to 
express my sincere concerns as it pertains to these two issues of 
historical importance. I present the following testimony.
National Park
    It has been several years now since my colleagues and I have 
received numerous calls concerning access to properties in and 
surrounding the national park by landowners of that community. The 
debate and questions point back to, ``Who are the owners of the 
roads?''
    According to an analysis done by Attorney General, Iver Stridiron 
on August 4, 1916, all property in the Virgin Islands was ceded to the 
United States Government from Denmark. This property included all the 
Danish Roads. He went on to state that in 1936, the Organic Act Section 
4, 49 Stat 1806, 48 USCA 1405 (a), was enacted which states that: 
Virgin Islands under the convention entered into August 4, 1916, not 
reserved by the United States for public purposes prior to June 22, 
1937, is placed under the control of the Government o the Virgin 
Islands.
    There is still some uncertainty as to who owns these roads. Then 
there is still the debate as to if these roads are ``public'' or 
``private''. One thing is clear, the Federal Government and the 
National Park has control of the access roads as we stand here today. 
In 1962, the Territorial and Federal Government entered into a 
Memorandum of Understanding, which codified by the Legislature of the 
Virgin Islands as Act No. 806. This legislation transferred 
responsibility for, and authorized the National Park Service to 
maintain certain public roads within the National Park. Since the 
Territorial Government gave up the Federal Government the right to 
maintain these roads, any attempt today by the Territorial Government 
to maintain these roads without he consent of the Federal Government 
would violate the Memorandum of Understanding and Act. No. 806.
    Now that it is clear that the Federal Government has control of 
access to these roads within the National Park it has created and still 
is creating a major problem. Property owners within the National Park 
surrounding areas are denied access. For the past 40 years, no progress 
has been made despite all of the entered agreements and laws that are 
on the books. For example, as far back as 1961 in and October 26th 
letter, the National Park agreed that it would cooperate fully to the 
end that all private properties have passable road access, whenever 
necessary, to the major public roads within the National Park.
    Even if roads within the National Park are not a ``public road'', 
individuals with inholdings on Federal lands must be provided access to 
their property. Courts have maintained that landowners with inholdings 
in the National Parks have a legal right to access their property.
    Inholders also may have common law access rights via easements and 
otherwise. These rights exist regardless of any National Park policies 
that would restrict and deny access. It is clear that the landowners 
cannot be prevented from accessing their property.
Such landowners are:
    Timothy Rasmus: Gerda Marsh & Others: Emeleo Jeppesen & Others: 
Ernest Marsh & Others: Everton Lewis: George Beretta & Others: Caines, 
Felicia & Roberts: William Roberts: John Testamark: George Thomas: 
Alphonse Jacob: Dalmida, Walter & Others: Mathias, M & Others: Mary 
Anthony: Samuel, Gloria & Others: Testamark, H.M. & Julius: Mathia, 
Thomas, Petersen: Luke Petrus: Lorentz Bryan: Christian Bryan: Rich, 
Jr. William & Jerome: George Bryan: Mary Donatry: Henry Brown: Thomas, 
Alice & E: Prince, Ralph & Rosalind: Janet S. Waden: and Thomas, 
Susanna & Others.
    In the chronology of events as it relates to the National Park, it 
is clear what the intent of the National Park was not in consideration 
of the many landowners that will be affected in that community. In 1916 
there was a Convention between the United States and Denmark. In 1932 
the United States Government conducted a survey of St. John for Parks. 
Then a major event took place.
    In 1956 Laurence S. Rockefeller donated 5,000 acres of his 
privately owned land to the National Park Service. At this point, it 
was the intent of Mr. Rockefeller to make St John the amusement capital 
of the world. He referred to the park as the new Virgin Islands 
National Park that will serve as a focal point of many opportunities. 
It is bound to bring new attention to the recreational advantages of 
the islands. This vision was developed without consideration of the 
landowners within the National Park.
    In 1958, the National Park Service rangers told landowners that 
they were not permitted to cut wood, fish or other such activities that 
were usual methods for survival and then a standard of living. It was 
apparent that the National Park Service was developing a strategy to 
persuade landowners to sell and give up their land so that the park 
could fulfill the vision of Laurence Rockefeller and all those who had 
no consideration for the people of the Virgin Islands.
    With this plan coming to light, in 1962 the Legislature of the 
Virgin Islands passed Bill No. 1562 to assure that Virgin Islands 
residents would have access to their properties. As a counter that same 
year, the House of Representatives attempted to authorize the National 
Park Service to acquire additional acreage through condemnation. From 
the actions to the date of the Federal Government it is unclear as to 
what definition of the word applied to the people of the Virgin 
Islands. Did they want to appropriate (property) for the public use or 
did they want to acquire the land by declaring it unfit for use?
    It has been 40 years, and the people of the Virgin Islands need 
access to their property. It is unfair for the Federal Government to 
deny access property. It is unfair for the Federal Government to deny 
access by not maintaining and not developing proper passage for the 
people of the Virgin Islands. All of the homeowners within the National 
Park should have an input. They are affected and should be informed 
about any and all developments as it pertains to the National Park. The 
people have been denied. Just put yourself in the same position as the 
people of the Virgin Islands. Please follow along with me. The year is 
1962 and you just bought a Cadillac. You have it fully loaded and the 
keys in hand. You have paid in full. The dealer delivers it to your 
garage and closes the door and locks it. Yu have no way of getting to 
your Cadillac. Can you enjoy and reap the benefits? No! It's the same 
feeling that the landowners have as it relates to the National Park.
National Monument
    Over the past, I have written correspondence to the Honorable Donna 
M. Christian-Christiansen, U.S. Congresswoman, United States Virgin 
Islands; the Honorable Frank Murkowski, Chairman, Committee on Energy 
and Natural Resources and the Honorable Gail A. Norton, secretary of 
Interior, United States Department of Interior asking for introduction 
of the legislation to repeal the monument designation of the Virgin 
Islands Coral Reef Monument.
    This area covers 12,000 acres of water around St. John, and the 
expansion of St. Croix's Buck Island National Reef Monument, which 
covers from 900 acres to approximately 18,000 acres.
    On January 17, 2001, President Clinton signed Proclamation Nos. 
7392and 7399 designating these areas as national Monuments. The former 
is entitled ``Boundary Enlargement and Modifications of the Buck Island 
Reef National Monument'' near St. Croix and 7399, ``Establishment of 
the Virgin Islands coral Reef National Monument'' off St. John.
    The issue here is whether or not the Department of Interior has the 
right and title to the submerged lands over which they have exercised 
this authority under Section 2 of the Act of June 8, 1906 (34 Stat. 
225, 16 U.S.C. 431). The Department of Interior, under the Clinton 
Administration, was overzealous in its efforts to have these sites 
designated as ``National Monument'' and spent very little time 
discussing its plans with the people of the Virgin Islands especially 
the fishermen who will be directly impacted by this Federal action.
    There are two reasons why the above Proclamations should be 
repealed. First, as mentioned, the land designation was NOT Federal 
submerged lands and the Department of Interior has had neither 
ownership nor control over them since midnight February 2, 1975. 
Secondly the impact on local fishing rights will severely impact our 
marine fishing industry and our failing economy.
    The history of ownership is clear. On October 5, 1974, Public Law 
93-435 took affect and transferred all submerged lands in the Virgin 
Islands, Guam, and American Samoa to the respective territorial 
governments. It provided for the retention of certain lands and mineral 
rights by the United States Government and also clearly stated the 
President, by proclamation, would have one hundred and twenty (120) 
days after October 5, 1974, to reserve those submerged lands that he 
proclaims will be exempted from transfer to the territorial 
governments. Title 48, Section 1705 (b) states in pertinent part:
    There are exceptions from the transfer made by subsection (a) 
hereof:
    <bullet> LAll deposits of oil, gas and other minerals, but the term 
``minerals'' should not include coral, sand and grave.
    <bullet> LAll submerged lands designated by the President within 
one hundred and twenty days after October 5, 1972 (These 120 days ended 
on February 2, 1975)
    <bullet> LAll submerged lands designated within the Virgin Islands 
National Park established by sections 398(c) and 398(d) of Title 16: 
and
    <bullet> LAll submerged lands within thee Buck Islands Reed 
National Monument as described in Presidential Proclamation 3448 dated 
December 28, 1961.
    There were only two proclamation issued under this section of PL 
93-435 affecting the Virgin Islands. They are Proclamation NO. 4346, 
which added thirty (30) acres of submerged lands to the Buck Island 
Reed National Monument and Proclamation No. 4347, which reserved 
certain submerged lands off the west coast from St. Croix for use by 
the United States Navy.
    President Gerald Fox signed these proclamations on February 1, 
1975, just one (1) day prior to the expiration of the one hundred and 
twenty day period. There transfers were the only exceptions made to PL 
93-435. Thereafter, all other submerged lands were transferred from the 
Department of Interior to the Government of the Virgin Islands. These 
30,843 acres of submerged lands, which the Department of Interior, 
through presidential proclamation, has declared national monuments, are 
not Federal lands, but the property of the Government of the Virgin 
Islands.
    Of great concern, is the impact on the marine fishing industry that 
is substantial. Numerous individuals from the fishing and boating 
communities have opposed these designations. The amount of acreage 
designated over compensated for the protection needed on the natural 
reefs in and around the existing national monument. Fishing experts 
have stated that the size of the areas will adversely impact the 
traditional use of those areas for alternating their fishing patterns. 
These are essential patterns that allow fishermen to fish in certain 
areas, while fish are breeding in other areas.
    In conclusion, it is clear that we need to consult and get the 
important testimony from the V.I. Department of Natural Resources, 
local researchers and environmentalists of the marine industry on the 
economic impact these designations will have on the Virgin Islands.
    In the past, meetings and hearings were held and many citizens of 
the Virgin Islands opposed these same designations. The Governor and 
Congresswoman publicly opposed the designation. At the meetings, the 
vast majority of the testifiers opposed, but yet the designation was 
still passed.
    It is my wish that the people of the Virgin Island who will 
ultimately be affected be heard. Not only just to be heard, but take 
into consideration the recommendations and concerns of the people of 
the Virgin Islands. God Bless America, God Bless the Virgin Islands and 
God Bless us all.
                                 ______
                                 
    Mr. Radanovich. We will now hear from Mr. Myron Jackson 
from the Department of Natural Resources before we open up the 
panel for questions. Mr. Jackson is speaking for the Honorable 
Dean Plaskett who's the Commissioner of the Department of 
Planning and Natural Resources, who will, as I understand, 
articulate or read Mr. Plaskett's statements, and Mr. Plaskett 
will be asked questions over on St. Croix at Monday morning's 
hearing.

                  STATEMENT OF MYRON JACKSON, 
                DEPARTMENT OF NATURAL RESOURCES

    Mr. Jackson. Thank you very much.
    Mr. Radanovich. Sure, Mr. Jackson.
    Mr. Jackson. Good morning, Honorable Representatives of 
Congress, and to all present or otherwise listening. My name is 
Myron Jackson. I am here on behalf of Commissioner Dean C. 
Plaskett, State Historic Preservation Officer from the 
Department of Planning and Natural Resources.
    I've been invited here today to render testimony on behalf 
of the Government of the Virgin Islands with regard to the 
former President's creation of a national monument here in the 
United States Virgin Islands.
    Pursuant to the Antiquities Act, the President of the 
United States has the authority to designate national monuments 
on land owned or controlled by the Government of the United 
States. However, because the Virgin Islands owns virtually all 
of the submerged lands that President Clinton designated as 
national monument lands, he did not have the authority to make 
such designations under the Antiquities Act.
    Furthermore, President Clinton's proclamation regarding the 
Buck Island Reef National Monument breaches the contract 
between the Virgin Islands and the United States entered into 
in 1961.
    In addition, the Department of Planning and Natural 
Resources, known as DPNR, and the Territory as a whole believe 
that President Clinton's proclamation also violated several 
other Federal statutes and the Constitution.
    Time does not permit me to outline all of the key points as 
entered into the remarks by Commissioner Plaskett. However, I 
would like to bullet some of his key points.
    A) President Clinton acted beyond the authority conferred 
by the Antiquities Act. Since June 8th, 1906 the Antiquities 
Act has authorized the President of the United States to 
declare by public proclamation objects of historic or 
scientific interest that are situated upon the lands owned or 
controlled by the Government of the United States to be 
national monuments.
    Thus, because the U.S. Government did not own the lands 
designated by President Clinton as national monument lands, 
President Clinton did not have the authority to designate such 
lands and such designation.
    In 1974 Congress passed, and the President signed, the 
Territorial Submerged Land Act, TSLA, which provides, subject 
to valid, existing rights, all right, title and interest of the 
United States in lands permanently or periodically covered by 
tidal waters up to, but not above, the line of high tide, and 
seaward to a line three geographical miles distant from the 
coastlines of the territories of Guam, the Virgin Islands, and 
American Samoa are hereby conveyed to the Governments of Guam, 
the Virgin Islands, and American Samoa, as the case may be, to 
be administered in trust for the benefit of the people thereof.
    Commissioner Plaskett also outlines in his paper:
    Item B) President Clinton's expansion of Buck Island Reef 
National Monument breached the contract between the United 
States and the Territory, and constituted takings.
    In 1936, the United States gave the Virgin Islands control, 
but not title, to Buck Island. He makes reference to 28 USCA, 
Subchapter 1405(c).
    In 1961 the Governor of the Virgin Islands, as authorized 
by the Legislature of the Virgin Islands in an Act of December 
5th, 1961, relinquished its control over Buck Island to 
facilitate the establishment and management of the Buck Island 
Reef National Monument.
    In exchange for this relinquishment of control by the 
Virgin Islands, however, the United States agreed not to adopt 
any regulations restricting the existing fishing and 
recreational privileges of Virgin Islands inhabitants in and 
around Buck Island.
    Moreover, when President Clinton designated the Virgin 
Islands Coral Reef National Monument and expanded the Buck 
Island Reef National Monument in January of 2001, he 
effectuated a taking of the fishing and boating rights of the 
residents of the Virgin Islands without just compensation.
    Furthermore, to the extent that the President designated 
territorial, as opposed to Federal, lands as monument lands, 
the Territory views this as takings as well.
    The Commissioner then goes on to outline procedural 
requirements for the Territory.
    And for the foregoing reasons, DPNR and the Territory 
believe that President Clinton's proclamations designating the 
Virgin Islands Coral Reef National Monument and expanding the 
Buck Island Reef National Monument are invalid.
    He then goes on to outline issues relating to the St. Croix 
East End Marine Management Plan and the key points of that and 
the Department's position in reference to the conservation and 
management of those cultural resources.
    Commissioner Plaskett regrets that he was unable to be here 
this morning due to illness, and he hopes that he will have the 
opportunity to interact with you during hearings on St. Croix.
    We thank you for the opportunity to offer these brief 
remarks.
    Mr. Radanovich. Thank you very much, Mr. Jackson. Yes, 
indeed, we'll hear from Mr. Plaskett on Monday morning, and it 
will be in St. Croix.
    Mr. Radanovich. I now, for questioning, turn my time over 
to Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. I will be 
looking forward to asking Commissioner Plaskett some questions.
    I just wanted to say for the record, that as we looked at 
and were briefed on how the determination of this ownership of 
the submerged lands was made by the previous administration, I, 
too, felt, and in consultation with the Congressional Research 
Service that there was adequate question about the ownership of 
those lands, and in my submission, in my request for the 
opinion from GAO--and we have to remember that GAO is not a 
final arbiter. They are looking at the facts, and they're just 
giving their opinion based on their looking at the issue.
    But we also stated that we felt that the case had not been 
made that those were Federal lands in our request for their 
opinion.
    I guess I would turn my first question to Senator Liburd. 
Again, thanks for doing us the honor of allowing us to use this 
facility even before you had a chance to use it. That's a real 
honor, and we appreciate it very much.
    Have any of the inholdings been resolved in any instance?
    Mr. Liburd. To the best of my knowledge, there have been 
some discussions with a couple of them, but you know what 
happens, is that after many years of trying and not getting 
anywhere, some of the folks, some of them pass away. They move 
on from generation to generation, and it became-- ``So wait a 
minute. Well, what's going to happen? I'm not going to get 
anything done anyhow.'' So some people even gave up.
    And that's the unfortunate thing that happened, that we 
have, as a government, as a people, allowed our people to be 
placed in that position.
    And so, you know, what happens now is that some of the 
properties have gone from generation to generation, and their 
heirs, some of them were forced to go away. Some were forced to 
try to sell their property, et cetera, and that's the status of 
where we are.
    But there has been some contact. I don't know exactly how 
far it has been but you know that the beating that they have 
taken over the years really has placed a burden on them.
    And because they feel like we have meetings over and over. 
The Senate has--we don't have the authority to really make 
changes, and those who have the authority haven't done so.
    Mrs. Christensen. Senator Cole, you have a list of 
landowners here. Is that a full list of all of the landowners, 
to the best of your knowledge, or is this just a sample? As I 
count them, there's somewhere in the area of 25 of them.
    Mr. Cole. Madam Congresswoman, yes, those are the ones that 
we were able to research, and the documentation here provides 
that these are the ones who were affected. And a lot of them 
don't have the resources to fight big brother, per se, but 
these are the--
    Mrs. Christensen. So we have to work it out on their 
behalf?
    Mr. Cole. Definitely.
    Mrs. Christensen. Right. My staff was just reminding me 
that in our correspondence and our discussions with the Park 
Service this is one of the issues that we want to work with you 
to resolve as well. We've indicated that to them, and we've 
started some discussions with the Superintendent already.
    Are the closed roads, Senator Liburd, that you refer to, 
are they usable now? Are they in usable condition, if they are 
open?
    Mr. Liburd. They are not. As a matter of fact, let me just 
say, Congresswoman Christensen, that the roads were closed for 
some time now, and recently, because of the storms and 
hurricane, they even got worse. If you go to the list of--the 
area, and that's over by Annaberg, you can't pass there 
anymore.
    But prior to that, the place called Johnny Home which is by 
the Emmaus Moravian Church, there were some boulders placed in 
the middle of the road that no one could pass, and when you ask 
who put them there, well, nobody ever really knew, you know, 
but they just happened to just roll there and stay there for a 
while, you know, and this is the situation that we're facing.
    Mrs. Christensen. So if they had an--have you been in 
discussions with the Park Service--let me just follow up on the 
same question--asked about the sort of a compromise that you 
have suggested, one that you may have suggested, that--
    Mr. Liburd. Well,--
    Mrs. Christensen. --in the case of emergency,--
    Mr. Liburd. --yes.
    Mrs. Christensen. --if those roads would be open, they 
still would not be passable?
    Mr. Liburd. Well, to me, personally, and I want to say 
this, that, you know, we look at the environmental issues. And 
I, personally, I was one as a youngster growing up here, 
knowing that we could go out and fish and go all over the 
place. And I recall my father and I would set fish traps, and 
we would put them out in the morning like 6 o'clock and by 12 
o'clock we can go and bring them back up full of fish.
    You put them out now six o'clock, you probably have to go 
back six o'clock the next day to see if you find something, and 
you may find something.
    I'm saying that that happened then. And so when the 
discussion came about protecting our environment and setting up 
these areas of concern for Fish & Wildlife, I agreed with that. 
I believe it's something that's appropriate that we should do.
    In that vein I looked at our roads, and I said, you know, 
we can't have everything, but at least we need to have at least 
an access that can take us out from the Coral Bay area in the 
event of emergency because, like I said, if you are blocked off 
from over by Kingshill, and that area is blocked off to go to 
the North Shore, you cannot get out.
    The Bordeaux Road which is a road that's very steep-- as a 
matter of fact, Bordeaux Road is one of our worst roads that we 
have here on the island. And that area you can't pass, and so 
my suggestion to the Park, and I've discussed it with Mr. King 
and with other superintendents.
    Mrs. Christensen. Previous superintendents?
    Mr. Liburd. Oh, yeah, hundreds of them, I mean, you know. 
But, you know, I think it's beyond the Superintendent, you 
know, and that's why I see my good friend there shaking her 
head, the Director. We're going to work something out here.
    But I'm saying that I think that what would be appropriate, 
if we can look at one of those roads, whichever one that's 
feasible that's not going to create that much environmental 
harm to the property, and open it up.
    And I look at the Steven Mandahl area going to Fish Bay but 
not only it would open up for access, it would also provide an 
opportunity to see our parks. You know, that's another tour, a 
part of a tour that our taxi drivers can take.
    They can go around the island, come around the other way, 
and so it's another part of an area of our tourism that they 
don't see, and they would not be able to see because they're 
all blocked off. And that's my compromise.
    Mrs. Christensen. I'll come back again but my time--my 
initial time is up.
    Mr. Radanovich. OK. Well, we'll make sure all of the 
questions are asked.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I have a follow-up on 
the roads.
    Interesting point that you bring up, sir, that if we had 
more roads that were accessible, more people could get around 
the Park. Who pays for maintaining the roads?
    To get you to your private property, who pays? You know, 
let's say we get them opened up.
    Mr. Liburd. Yes.
    Ms. McCollum. Who's going to pay for the maintenance?
    Mr. Liburd. Based on the Legislature's Act, it's a joint 
effort between the Government of the Virgin Islands and the 
National Park. While the roads are through the Park, the 
Government of the Virgin Islands will maintain, along with the 
joint agreement with the National Park.
    So, it's not that the person or the private owner has to 
maintain the road.
    The Government maintains those roads but the problem is 
that those were the same roads that were used to access the 
property of these private inholdings, and if they are not open 
they cannot access them.
    Ms. McCollum. OK. Thank you for answering my question.
    So your vision, if these roads are opened up, is that it 
would be the Virgin Islands and the Federal Government who 
would jointly pay for maintaining the roads?
    Mr. Liburd. Exactly.
    Ms. McCollum. It just wouldn't be the Park Service in and 
of itself?
    Mr. Liburd. Right. Just like, right now, Honorable Betty 
McCollum, is that there are roads right through the Park right 
now as we speak, and it's a joint maintenance effort between 
the Park--in some place the Park takes a certain portion, and 
if the local Government works with them, then there's--there 
can be collaboration between us.
    As a matter of fact, I have always said we can get along.
    Ms. McCollum. Oh, I'm certainly feeling that in this room. 
I feel great optimism and hope in this room.
    Mr. Liburd. Very well. Thank you.
    Ms. McCollum. As I'm reading through the testimony that is 
here today from the Commissioner, I'm going to go back and do a 
little more history here. Some of this dispute actually 
happened in 1975 when President Ford did some interpretation.
    I have some letters here which are totally public and a 
copy of the statute about extending the protection of the land 
because it's adjacent to Federal land.
    Do you--and maybe--and if this is an unfair question to you 
because of your length of service, I wish to--I don't--you 
know, I understand.
    In 1975 did the Virgin Islands, when President Ford first 
started talking about his vision of making sure that the 
adjacent land--in fact, it was like, more like a buffer zone 
around some of the Federal lands--did the Virgin Islands at 
that time contact the National Park Service and say, whoa, wait 
a minute; we need to talk about this?
    Has this been going on since 1975? Or has this just been 
brought to attention since President Clinton made his 
proclamation?
    Mr. Jackson. Honorable Betty McCollum, I reserve the right 
to allow those questions to be directed specifically to 
Commissioner Plaskett during the hearing on St. Croix.
    However, I do think that Senate President Rocky Liburd can 
answer that question.
    Ms. McCollum. You're on. Educate me. Mr. Liburd.
    Mr. Liburd. I was just listening to-- Please just repeat 
again.
    Ms. McCollum. In 1975 President Ford wanted to--he told the 
Park Service that they needed to extend out the boundaries, and 
so in 1975 the Federal Government started saying, you know, we 
are responsible out a little farther here because of some of 
the public laws that had been passed in 1994, which said ``All 
submerged lands adjacent to property owned by the U.S. 
Government.''
    And then we have letters from the Department of Interior 
dated 1975 saying the Park Service would continue to have 
administration and responsibility for submerged lands adjacent 
to the Park land.
    My question was--this is my first time in the Virgin 
Islands. I've only been in Congress for a year--
    Have you been--since 1975 has the Virgin Islands been on 
top, being aggressive about this issue, or did it just recently 
come to light when President Clinton went forward?
    Mr. Liburd. Well, let me just say that the Virgin Islands 
over the years--and we have some advocates. One is in the back, 
former Senator Browne, who has been an advocate of submerged 
lands, and he has been in the forefront of this issue.
    But in all honesty, a lot of the attention was brought 
about recently with the enactment of President Clinton.
    But I want to--just to elaborate some more, and someone 
who's done much more extensive study than I have on it, refer 
to the Chairman of the Environmental Committee, Senator Cole.
    Mr. Cole. Yes. Thank you, Mr. President.
    A lot of the research is there, and it's in my written 
presentation to you. And Senator Browne, who has much more 
knowledge and understanding even than I have, will be 
testifying in St. Croix.
    But as it pertains to that, the fact remains, the issue 
that we believe we're going to have to take to the courts, and 
I'm behind it 100 percent, is that every place in the Virgin 
Islands is next to Federal land.
    Every place that's here in St. John, every other property 
is next to the land. So is this how the Federal Government is 
going to be utilizing this tool and its language to come back 
and say we want to protect everything that is next to the 
Federal land, and that is why we are definitely in a position, 
utilizing that logic and that thing in the law that if it's 
next to the land, we can come in and take it.
    These lands were turned over to the Federal--to the local 
Government for operation. The Department of Planning and 
Natural Resources has put in place provisions. The Virgin 
Islands Legislature has passed laws to protect these lands, and 
we believe they were taken illegally.
    And I don't adhere to the fact because they're next to that 
you have the right to do it. Not you, yourself, but the 
President, under the Antiquities Act, has the right to do that.
    We have the authority to do it, and we are able to do it, 
and the whole entire Virgin Islands is next to Federal lands.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Radanovich. Thank you very much.
    I have a brief question. What happens when a hurricane 
hits? Do you go to high ground or do you leave the islands?
    Mr. Cole. We pray.
    Mr. Radanovich. Say what?
    Mr. Cole. We pray.
    Mr. Radanovich. You pray?
    Mr. Cole. And you hide and, you know, it's really a--
    Mr. Radanovich. Do you actually go to high ground? On 
occasion you would have to.
    Mr. Liburd. Well, you--there are a number of shelters. 
There's a number of shelters around, and you try to find 
probably one of the most suitable areas but with a hurricane 
there's really no suitable area. You know, you never know.
    And as Senator Cole just mentioned, you pray, and sometimes 
you go and hide, and, you know, it's a very traumatic 
experience.
    Mr. Radanovich. But at the same time you do need roads to 
get around?
    Mr. Liburd. Oh, definitely. As a matter of fact, that's 
why, Mr. Chairman, I spoke about this road in Coral Bay. 
Because so often whenever there's a storm--well, it doesn't 
even have to be a hurricane. A strong rain, and a whole bunch 
of stuff washes in the road and blocks off the roads, you know, 
because of the terrain it is.
    And so during a hurricane it's even worse than that. And 
like I said, folks over on that end, and it's a fast developing 
area, will be blocked off. You know, there's no if's, and's, or 
but's, and don't talk about going around in boats. You can't 
get around in the water.
    Mr. Radanovich. I guess that doesn't work.
    Mr. Liburd. No, it doesn't work. So that's the concern I 
have, and I believe, Mr. Chairman, that we can come to a 
compromise. It's not a big deal to me if we are serious about 
our people, and if we want to do what is right on their behalf.
    [Senator Lorraine Berry now present.]
    Mr. Liburd. And I ask you, again, on behalf of all of--as a 
matter of fact, let me just welcome you on behalf of all of our 
members of the Legislature, and just Senator Berry, who is one 
of our colleagues who just joined us here, along with Senator 
Cole.
    And I say that, from time to time we want to be able to 
have a much better relationship with your Committee as it 
pertains to these issues.
    And like Congresswoman McCollum said, she's feeling the 
vibes already. I just want the vibes to translate into some 
relief. Then we'd be all right.
    Mr. Radanovich. Well, I think Mrs. Christensen's getting us 
here is a real--
    Mr. Liburd. That's a beginning. It's a good start.
    Mrs. Christensen. A start.
    Mr. Radanovich. Before I turn my time over to Mrs. 
Christensen I want to recognize Senator Lorraine Berry who has 
joined us as well. Welcome, Senator. We're happy to have you 
here.
    Donna?
    Mrs. Christensen. Well, thanks.
    Welcome, Senator Berry.
    Two short questions. The first one I would ask to Senator 
Cole, because you did mention the issue of the taxi drivers, 
and we're going to get to that, again, hopefully in the next 
panel.
    What would you like to see happen with regard to the taxi 
drivers who do business in terms of tours within the Park? I'm 
not talking about the taxi drivers who do pickups and drop-
offs, who have no fee, and for whom some lookout points have 
been offered without a fee.
    But for those who are doing actual business, a concession 
business within the Park, what would you like to see the 
outcome be?
    Mr. Cole. I would basically want to see that the taxi 
drivers, those who make a living doing it, that at a minimum, 
whatever fee is charged has to be minuscule because they have 
other expenses that they have to take care of. They have 
insurance for their vehicles. They have to maintain those 
vehicles, and they're engaging in business.
    Whatever impact is placed upon the Park itself, that 
anything that is minuscule, but not something that is 
overbearing that is going to cut into the revenues that they 
are going to get from this because the people who come in here, 
they come here basically to see the Park. The land tours are 
set up to do that, and I believe that anything minuscule to 
take care of whatever they're going to do in the Park should be 
done, but not overburden them.
    Mrs. Christensen. So you understand that if they're picking 
up and dropping off there's no fee?
    Mr. Cole. Definitely.
    Mrs. Christensen. Not that there is--
    Mr. Cole. There shouldn't be any fee for picking up and 
dropping off.
    Mrs. Christensen. There is none.
    Mr. Cole. Right. And none should be imposed. There 
shouldn't be any fee for them going in, going doing that. None 
should be imposed. They are conducting a business, and the Park 
takes care of that.
    Mrs. Christensen. Right.
    And, Senator Liburd, one last question for you. From your 
knowledge, having grown up here, lived here, and your knowledge 
of where this proposed monument is supposed to be, is that an 
area that is heavily utilized or well utilized by commercial 
fishermen?
    Mr. Liburd. Oh, yes. Let me say this, that that places the 
fishermen in a precarious position. Because what has happened 
is that all of the areas, the majority of the areas where they 
are accustomed to using, are now going to be placed under this 
jurisdiction.
    You have to remember that St. John and the Territory is a 
very small area. The range, the three-mile range is just right 
around--you know, it's just right out there, and it falls 
within a lot of the major stomping grounds for our fishermen.
    And that's one of the concerns that they have, and I don't 
think that was even taken into consideration.
    And so I agree that we ought to look at how we're going to 
develop a plan, and I believe that the fishermen are ready to 
work with that plan but there has to be some give and take. It 
can't be all one way and forget about them, and that's the 
concern that I see has been happening.
    And just to piggyback, Congresswoman, on the taxi 
situation, you know one of the big issues around here that has 
been like a mind-boggling situation for us is that we grew up 
going to Trunk Bay and going to all of the beaches free.
    Mrs. Christensen. Absolutely.
    Mr. Liburd. You could just go there anytime. You didn't 
have to pay a dollar, and so when the changes came forward 
where there was a fee charged for it, it created some kind of 
feeling that you just don't experience until you have lived it. 
You know, and it's difficult.
    As a matter of fact, sometimes a lot of our local folks 
don't even go there, and I personally believe that we shouldn't 
be paying.
    Mrs. Christensen. Right.
    Mr. Liburd. I understand how, with the situation and what 
has happened with the Park. But I believe that you're here, and 
the free beach actually wipes it out as far as I'm concerned 
because of the charging of a fee.
    Mrs. Christensen. Absolutely.
    Mr. Liburd. And I think that maybe you guys need to revisit 
that sometime.
    Mrs. Christensen. That's why I asked the question to 
Director Mainella because we are trying to address it. We've 
been addressing it, and we started with the Superintendent. We 
went to the Regional Director. We're now at her level.
    Mr. Liburd. Good. Because--and if it comes out that--you 
know, I know that everything has a cost to it, but if it comes 
out that we have to pay, then some of that should go back to 
try to help this community develop this infrastructure because 
it's part of here.
    Yes, the Park has some but I believe that there should be 
some compromise where a portion of that should be coming 
directly to this community for some development, infrastructure 
or something here, and so that there wouldn't be that great 
concern about it because at least we're helping out each other.
    And I think that somewhere along the line we're going to 
have to look at that issue in that respect because it's 
difficult to know as a youngster you could just drive to the 
beach, and then tomorrow you go, hey, you got to take out some 
money and pay.
    I mean, you know, hey, that was one of the things that we 
were noted for, our beautiful beaches free.
    And they use it against us to campaign, those in 
advertisement. The Virgin Islands, you got to pay to go to the 
beach. Come to our island. It's free. You know what I'm saying?
    So it's a large repercussion beyond just what we see here.
    Mrs. Christensen. Thank you.
    Mr. Radanovich. Thank you very much. Any further questions?
    Mrs. Christensen. I think that that clarifies a lot for me. 
Yes, it does.
    Mr. Radanovich. OK, great. Thank you very much, Gentlemen.
    Senators Liburd and Cole, please join us. There are chairs 
that are available right here.
    And, again, Mr. Jackson, thank you.
    And we'll move on to our third panel. Mr. James Penn, St. 
John, independent taxi driver; Ms. Lorelei Monsanto, landowner; 
and Ms. Alicia Wells, landowner as well.
    Mrs. Christensen. Does Mr. Randolph Thomas belong to the 
other panel?
    Mr. Radanovich. Is Mr. Randolph Thomas here?
    Mr. Thomas. Yes, I'm here but I'm not going to testify.
    Mrs. Christensen. I would say to you, though, Mr. Chair, 
that even though Ms. Monsanto is going to testify primarily on 
the landowner issue, she's very familiar with the taxi issue, 
and you could probably ask her, if she would be willing to--
    Ms. Monsanto. I would also like to ask that the attorney 
for the Taxi Division, Mr. Vincent Colianni, if he could join 
me at the table.
    Mrs. Christensen. What is the response?
    Mr. Radanovich. If there is room. Is there a Mr. James Penn 
or a Ms. Alicia Wells here today?
    Mrs. Christensen. No.
    Mr. Radanovich. OK. Then I'm going to go ahead and call the 
members of the panel forward as well. Mr. Joe Kessler, 
President of the Friends of Virgin Islands National Park; Ms. 
Carla Joseph, President of St. Thomas-St. John Environmental 
Association; and Mr. Dave Berry, as the fisherman.
    Mrs. Christensen. Mr. Berry is here. He may have stepped 
out for a minute so--
    Mr. Radanovich. OK.
    Mrs. Christensen. --when he comes in we'll bring him up 
here.
    Mr. Radanovich. How about Carla Joseph? Is she here today?
    Mrs. Christensen. No.
    Is there a chair for Mr. Colianni?
    Ms. Monsanto. Yes.
    Mr. Colianni. Thank you.
    Mr. Radanovich. Sure.
    Good morning. Thank you very much for being here.
    Ms. Monsanto, if you would begin, please, we'd appreciate 
it, and, again, everybody is aware that we're in the 5-minute 
rule. We'll hear from every member of the panel, and then open 
it up for questions from members here.
    Welcome to the Committee.

                STATEMENT OF LORELEI MONSANTO, 
                     ST. JOHN TOUR OPERATOR

    Ms. Monsanto. Thank you. Good day. Good day to the 
Congressional Committee, Delegate to Congress, and 
distinguished guests.
    I would like to begin with the acknowledgment that I am pro 
the National Park Service. However, St. John needs to be 
managed by the Park effectively. Through the Regional Office, 
not various outside forces, namely the Friends of the National 
Park.
    Presently the Friends of the National Park appears to be 
the major force behind the Virgin Islands National Park Service 
operations.
    The Friends of the National Park, along with former 
Superintendent Russ Berry, developed a commercial service plan 
as it pertains to the Virgin Islands. The planner, a gentleman 
by the name of Jim Owen, was on the Friends' payroll and on the 
National Park's payroll. This appears to be a conflict of 
interest.
    Does the National Park not have plans of its own?
    The degree of apparent power or control with which the 
Friends of the Park operate, has left the community of St. John 
at a loss. The popular opinion is that the Friends manages the 
National Park System with their own special interests.
    The NPS of the Virgin Islands is unlike any other park 
system under the United States flag. We have an Organic Act 
which grants us certain rights. It would have been 
appreciated--
    Mr. Radanovich. I hate to interrupt you but you have to 
pretend like you're going to eat that thing in order for people 
to hear you up there, unfortunately.
    Ms. Monsanto. It would have been appreciated if the local 
law of the Organic Act was intertwined within the commercial 
service plan. The commercial service plan is premised with the 
terminology of a user fee, not an entrance fee. However, the 
program would support an entrance fee.
    Recently the NPS website has been updated to request that a 
holder of a Golden Age membership card can enter the Virgin 
Islands National Park for half price. Why is a fee of half 
price given if it's not an entrance fee?
    Many Golden Age members were told previously that his or 
her card was not accepted in the Virgin Islands. I am sure that 
several of these members have voiced their outrage to Members 
of Congress.
    Since the inception of this temporary commercial program in 
the Virgin Islands, monies have accumulated from this venture.
    Have any audits been conducted on the appropriation of 
these funds?
    The National Park boasts that it welcomed a million plus 
visitors into our system. So in my calculation of $4 a person, 
that figure should reflect $4 million.
    Please note the current National Park website states that 
approximately 700,000 visitors came into the Park for the Year 
2001. That figure reflects a $2 million-plus intake.
    The current Superintendent states only 750,000 has been 
collected since the program's installation.
    It is my understanding that revenues are collected--that 
monies collected are to be used for maintenance. Are the 
revenues from this program used for maintenance in the Virgin 
Islands or elsewhere?
    These figures reflect a huge profit margin. I have several 
issues as it pertains to the U.S. Virgin Islands and the United 
States--and the National Park Service: Roads, land, employment, 
profitability, culture, quality of life, and the water 
Monument, just to name a few.
    It has been said the pen is mightier than the sword. I 
wrote the Secretary of Interior in November of 2001, expressing 
then, and still expressing, that this pot is filling, till they 
look to the policy they themselves agreed to. It is quite 
apparent that nothing happens in this Territory unless the 
natives get restless.
    I am also an indigenous person to these islands. They are 
the only home I know, and I vow to fight and protect my home.
    To date, the National Park Service of the Virgin Islands 
has commandeered roads, landlocked individuals, and has 
blatantly disrespected residents of the Virgin Islands. The NPS 
has erected gates which keep the residents from fully accessing 
their land.
    They have gone as far as to invoke a so-called user fee on 
public roadways. However, this issue will be addressed in 
Federal court in August.
    In the 40 years since the National Park Service took over 
management, they have failed to train the local populace for 
management positions within the NPS system. It is highly 
inconceivable that no one has the education or promise for 
upward mobility.
    According to the National Park mandate, Title 16, 
Subsection B, the Secretary is authorized and directed, to the 
maximum extent feasible, to employ and train residents of the 
Virgin Islands to develop, maintain, and administer the Virgin 
Islands National Park.
    When will this happen?
    The Department of Interior, as well as the residents of the 
Virgin Islands, has not made the National Park accountable. As 
we all know, there are several concerns and major issues that 
surround us in the National Park system of the V.I.
    However, I would like to offer some solutions to the 
Committee to consider. One, the NPS needs to demonstrate to 
Congress and residents alike where their true boundaries are. 
This would eliminate what has been misconstrued as thievery of 
residents' lands.
    The NPS needs to immediately train their local workforce 
for upward mobility. The constant influx of outside management 
negates the importance of the community surrounding them.
    They also need to promote a friendly environment with 
residents. Currently it is hostile.
    Meetings should be held in strategic locations. Example: 
The Legislature Building that we're currently in, for issues 
that deal about St. John.
    Also, a percentage of local residents' participation should 
be required before change is implemented, ``local'' meaning one 
who is domiciled in the Virgin Islands.
    The National Park needs to itself become part of the 
solution. They isolate themselves from the community, and more 
interaction is needed.
    The Virgin Islands also has to shoulder some of this 
responsibility. We, the people, demand accountability by our 
Delegate to Congress, and Congress, to implement change.
    In conclusion, it may be time for a change of management. 
There might be another agency that could manage this area. In 
the 40 years the National Park system has failed, so let's 
consider other alternatives, or let's work to get the National 
Park system back on track for the betterment of all of us.
    I welcome any of your questions. Thank you.
    Mr. Radanovich. Thank you very much, Ms. Monsanto.
    [The prepared statement of Ms. Monsanto follows:]

               Statement of Lorelei Monsanto, Landowner, 
                          U.S. Virgin Islands

    Good Day to the Congressional Committee, Delegate to Congress and 
distinguished guest. I would like to begin with the acknowledgment than 
I am pro National Park Service however St. John needs to be managed by 
the park effectively through the Regional Office not various outside 
forces, namely the Friends of the National Park. Presently the Friends 
of the National park appear to be the major force behind the Virgin 
Islands National Park Service's operations.
    The Friends of the National Park, along with the former 
Superintendent Russ Berry, developed the Commercial Service plan as it 
pertains to the Virgin Islands. The Planner a gentleman by the name of 
Jim Owen, was on the Friends payroll and not the National Park's 
payroll. This appears to be a conflict of interest. Does the National 
Park not have planners of its own? The degree of apparent power/control 
with which the Friends of the Park operate has left the Community of 
St. John at a lost. The popular opinion is that the Friends Manage the 
NPS with there own special interests.
    The National Park of the Virgin Islands is unlike any other park 
system under the United States Flag. We have an Organic Act, which 
grants us certain rights. It would have been appreciated if local law 
(Organic Act) were intertwined with this new Commercial Service Plan.
    The Commercial Service Plan is premised with a terminology of a 
usage fee not an entrance fee. However the verbiage supports an 
entrance fee. Recently the NPS web site has been updated to reflect 
that a holder of the Golden Age Membership card can enter the Virgin 
Islands National Park for + price. Why is a fee of + price given if it 
is not an entrance fee? Many Golden Age members were told previously 
that his/her card was not accepted in the Virgin Islands. I am sure 
that several on these members have voiced their outrage to member of 
Congress.
    Since the inception of this temporary commercial program in the 
Virgin Islands monies have accumulated from this venture. Has any 
audits been conducted on the appropriation of these funds. The National 
Park boasts they welcome a million plus visitors into our system, so at 
four ($4.00) dollars per person the figures should reflect about Four 
Million Dollars. Please note that the current NPS web page states that 
approximately Seven Hundred thousand visitors came into the park for 
the year 2001. That figure reflects an approximate fee intake of Two 
Million Dollars Plus. The Current Superintendent states only 
$750,000.00 has been collected each year since the program's 
installation. It is my understanding the revenues collected are to be 
used for maintenance. Are the revenues from this program used for 
maintenance in the Virgin Islands or elsewhere? These figures reflect a 
huge profit margin.
    I have several issues as it pertains to the United States Virgin 
Islands and the National Park Service Roads, Lands, Employment, 
Profitability, Culture, Quality of Life, the Water Monument just to 
name a few.
    As had been said, ``the pen is mightier than the sword,'' I wrote 
the Secretary of Interior in November of 2001 expressing then, and 
still expressing that this park is failing to live up to the policy 
they themselves agreed to (exhibit Title 16-Conservation page 220-223). 
It is quite apparent that nothing happens in this territory unless the 
natives get restless. I am an indigenous person to these islands. They 
are the only home I know and I vow to fight and protect my home.
    To date the National Park Service of the Virgin Islands has 
commandeered roads, land locked individuals and has blatantly 
disrespected residents of the Virgin Islands. The NPS has erected gates 
(laesperance exhibit picture), which keeps the residents from freely 
accessing their land. They have gone as far as to evoke a so-called 
user fee on public roadways however this issue will be addressed in the 
Federal Court in August.
    In the forty plus years, since the National Park took over 
management they have failed to the train the local populous for 
management positions within the NPS system. It is highly inconceivable 
that no one has the education or promise for upward mobility. According 
to the National Park's mandate Title 16 subsection b ``The Secretary is 
authorized and directed to the maximum extent feasible to employ and 
train residents of the Virgin Islands to Develop, Maintain and 
Administer the Virgin Islands National Park''. When will this happen? 
The Dept of Interior as well as the residents of the Virgin Islands has 
not made the National Park accountable.
    As we all know there are several concerns and major issues that 
surround us in the National Park System of the Virgin Islands. However, 
I would like to offer some solutions for this Committee to consider.
    1. The NPS needs to demonstrate to Congress and Residents alike 
where their true boundaries are. This would eliminate what has been 
misconstrued as thievery of residents' land.
    2. The NPS needs to immediately train their local work force for 
upward mobility. The constant influx of outside Management negates the 
importance of the community surrounding them.
    3. Promote a friendly environment with the residents. Currently it 
is quite hostile. Meeting should be held in strategic location (e.g. 
Legislature Bldg.), for issues that deal about St. John. Also, a 
percentage of local resident participation should be required before 
change is implemented. (Local mean one who is domiciled in the Virgin 
Islands.)
    4. The NPS needs to sincerely become part of the solution. They 
isolate themselves from the Community and more interaction is needed.
    5. The Virgin Islands also has to shoulder some of the responsibly. 
We the people demand accountability by our Delegate to Congress and 
Congress to implement change.
    In conclusion it maybe time for a change of management. There may 
be another agency that can manage this area. In forty years the NPS has 
failed, so lets consider other alternative or work to get the NPS back 
on track for the betterment of us all.
    I welcome any questions that the Committee may like to address at 
this time.
                                 ______
                                 
    Mr. Radanovich. Next is Mr. Joe Kessler, who's President of 
the Friends of Virgin Islands National Park.
    Joe, welcome to the Committee.
    Mr. Kessler. Thank you very much.
    Mr. Radanovich. Please begin your testimony. And you really 
have to speak into that mike.
    Mr. Kessler. I'll try my best.
    Mr. Radanovich. There you go.

            STATEMENT OF JOSEPH KESSLER, PRESIDENT, 
            FRIENDS OF VIRGIN ISLANDS NATIONAL PARK

    Mr. Kessler. The Friends of Virgin Islands National Park 
welcome the Honorable Members of this Subcommittee--
    Mr. Radanovich. You need to get closer.
    Mr. Kessler. --Subcommittee to St. John. Your visit honors 
our islands and it honors our Park.
    As President of the Friends of Virgin Islands National 
Park, I'm before you representing 3,121 members of this 
organization. About 20 percent of our members are from the 
Virgin Islands, and we are proud to have members hailing from 
all 50 states plus ten foreign countries.
    Members of the Friends are bound together by our love for 
Virgin Islands National Park, our commitment to the 
preservation and protection of the cultural and natural 
resources of the Park, and our appreciation for what the Park 
means to St. John and the Virgin Islands.
    Our appreciation is based on the conviction--
    Mr. Radanovich. Excuse me, Joe, but--can you hear in the 
back?
    Audience. No.
    Mr. Radanovich. You really--Joe, it's almost like you have 
to eat it.
    Mr. Kessler. Is that better?
    Mr. Radanovich. There you go. But you have to stay there.
    Mr. Kessler. Members of the Friends are bound together by 
our love for Virgin Islands National Park, our commitment to 
the preservation and protection of the cultural and natural 
resources of the Park, and our appreciation of what the Park 
means to St. John and the Virgin Islands.
    Our appreciation is based on the conviction that it's 
because of the Virgin Islands National Park that St. John is a 
world-class tourist destination, that St. John is a unique and 
safe place to live, and that St. John enjoys considerable 
prosperity.
    St. John is prosperous in the context of the Virgin Islands 
and prosperous in the context of the Caribbean. St. John has 
one of the highest per capita incomes in the Caribbean, one of 
the highest rates of private homeownership in the Caribbean, 
and just about anyone on St. John who wants a job can find one. 
And we could witness hundreds of people who arrive every 
morning from St. Thomas to work here.
    However, is everything perfect and is everyone happy about 
the Park? We've heard lots of testimony and lots of comments 
that that's clearly not the case.
    There are, using a local euphemism, issues that need to be 
addressed, and you heard about many of them, the issues of 
inholding, commercial services, a new educational complex, 
provisions related to the Coral Reef National Monument, and in 
a more general sense, the Park's relationship with the 
community with which it is so inextricably entwined.
    We see some of these issues date back to when the Park was 
created, and some are of much more recent vintage. The Friends 
strongly commend Virgin Islands National Park leadership for 
their willingness to address these issues and for the 
professionalism and openness with which they have entered into 
discussions and sought to find solutions.
    We believe that instead of our differences that it should 
be the strengths and opportunities of Virgin Islands National 
Park that form the basis for searching for solutions. We urge 
all parties, the Park, the Territorial Government, and the 
groups or individuals with grievances to be creative and 
flexible in finding solutions to these problems.
    The Friends stand ready to assist in any way that we can. 
However, we must all be cognizant of the fact that the National 
Park Service is legally mandated to preserve unimpaired the 
natural and cultural resources and values of the National Park 
system, in this case, the Virgin Islands National Park and 
Virgin Islands Coral Reef National Monument, for the enjoyment, 
education and inspiration of this and future generations.
    This will be, as it rightly should, the foundation upon 
which the Park will stand in discussions.
    The Friends would also like to take this opportunity to 
express our strong support for the immediate implementation of 
the provisions of the Presidential proclamation that 
established Coral Reef National Monument. The monument, as 
we've heard, was proclaimed more than a year and a half ago yet 
its implementation and protection has languished.
    The Friends has been and continues to be an ardent 
supporter of the Monument. We are convinced that the effective 
management of the Monument is the best solution to stop the 
decline in the marine ecosystems around St. John. These are 
precious resources that are deteriorating at alarming rates.
    The need for protection and management is urgent. With the 
marine reserve in place and enforced, the underwater resources 
will be given a chance to restore themselves and then flourish.
    Research in other marine reserves is overwhelmingly 
conclusive, and demonstrating that fish size, diversity, and 
overall population will increase within the protected area, and 
then spread to adjoining waters.
    Virgin Islands residents will reap the substantial long-
term benefits, not the least of which will be economic, of a 
fully functional V.I. Tropical marine system.
    To put the Monument in context, the submerged lands of the 
Monument represent only 2 percent of the entire submerged lands 
in the Virgin Islands. And so it is a very small area.
    And we believe that there should be no further delay by the 
National Park Service. At a minimum, internal regulations 
should be published and implemented as soon as possible.
    We need this Monument protected and managed now to be sure 
that resources will be there for the future. Otherwise, we will 
witness increasingly barren reefs and increasingly empty fish 
pots.
    As noted above, the Friends is a staunch supporter of the 
Monument. However, we do recognize that implementation of no-
anchoring and no-take provisions will create certain hardships 
for traditional users of monument waters.
    In partnership with the Park the Friends is implementing 
several mooring projects that will help mitigate some of these 
hardships. We called on the Federal Government and the 
Territorial Government to recognize what other hardships there 
are and consider measures to alleviate them.
    We believe that the need to implement the fully protected 
marine reserve in the Monument is an issue of national 
importance. In March hundreds of our members and members of the 
St. John business community wrote to Director Mainella, urging 
immediate action.
    I invite the members of this Subcommittee to join our 
members and use your good offices to encourage Secretary Norton 
and Director Mainella to begin the protection and management of 
this unique Monument now.
    I thank you for the opportunity to testify before you 
today. On behalf of the members of the Friends of the Virgin 
Islands National Park, we greatly appreciate your commitment to 
Virgin Islands National Park and the Coral Reef National 
Monument.
    Your visit to the Virgin Islands and holding these hearings 
onsite is a clear demonstration of this commitment, one that is 
shared by all Friends of Virgin Islands National Parks.
    Thank you.
    Mr. Radanovich. Thank you very much, Mr. Kessler.
    [The prepared statement of Mr. Kessler follows:]

                 Statement of Joe Kessler, President, 
                Friends of Virgin Islands National Park

    The Friends of Virgin Islands National Park welcomes the honorable 
members of the United States House of Representatives Subcommittee on 
National Parks, Recreation and Public Lands to St. John. We are greatly 
encouraged by your visit and the importance that these oversight 
hearings convey on Virgin Islands National Park and Virgin Islands 
Coral Reef National Monument.
    As President of the Friends of Virgin Islands National Park I stand 
before you representing the 3,121 members of this organization. About 
20% of our members are from the Virgin Islands and we are also proud to 
have members hailing from all 50 states, as well as ten foreign 
countries. Members of the Friends are bound together by our love for 
Virgin Islands National Park, our commitment to the preservation and 
protection of the natural and cultural resources of the Park and our 
appreciation of what the Park means for St. John and all of the Virgin 
Islands.
    Our appreciation is based on the conviction that it is because of 
VI National Park that St. John is a world class tourist destination, 
that St. John is a unique and safe place to live, and that St. John 
enjoys considerable prosperity. St. John is a prosperous little island. 
Prosperous in the context of the Virgin Islands and prosperous in the 
context of the Caribbean:
    <bullet> LSt. John has one of the highest per capita incomes in the 
Caribbean;
    <bullet> LSt. John has probably the highest rate of private home 
ownership in the Caribbean; and,
    <bullet> LJust about anyone on St. John who wants a job can find 
one particularly in the hospitality industry, with retail businesses or 
in the building trades. Just witness the hundreds of people who arrive 
every morning from St. Thomas to work here.
    We really have the Park to thank for this it is what makes St. John 
so special!
    However, is everything perfect, and is everyone happy about the 
Park? Of course not; there are, to use the local euphemism, ``issues'' 
that need to be addressed. There are issues concerning:
    <bullet> LPrivate in-holdings within Park boundaries
    <bullet> LRegulation of commercial services in the Park
    <bullet> LControl of feral animals and invasive species
    <bullet> LPublic nudity on Park beaches
    <bullet> LA site for a new education complex
    <bullet> LThe no-anchoring and no-take provisions within the Coral 
Reef National Monument
    <bullet> LAnd, in a more general sense, the Park's relationship 
with the community with which it is so inextricably entwined
    Some of these ``issues'' date back to when the Park was created and 
some are of more recent vintage.
    The Friends strongly commend VI National Park leadership for their 
willingness to address these issues and for the professionalism and 
openness with which they have entered into discussions and sought to 
find solutions.
    We believe that instead of our differences, that it should be the 
strengths and opportunities of VI National Park that form the basis for 
searching for solutions. We urge all parties: the Park, the Territorial 
Government, and the groups or individuals with grievances to be 
creative and flexible in finding solutions to these issues. The Friends 
stand ready to assist in any way that we can.
    However, we all must all be cognizant of the fact that that the NPS 
is legally mandated to: ``preserve unimpaired the natural and cultural 
resources and values of the national park system [in this case, Virgin 
Islands National Park and Virgin Islands Coral Reef National Monument] 
for the enjoyment, education and inspiration of this and future 
generations''. This will be, as it rightly should, the foundation upon 
which the Park will stand in discussions.
    The Friends would also like to take this opportunity to express our 
strong support for the immediate implementation of the provisions of 
the Presidential Proclamation that established the Virgin Islands Coral 
Reef National Monument. The Monument was proclaimed more than a year 
and a half ago, yet its implementation and protection has languished.
    The Friends has been, and continues to be, an ardent supporter of 
the Monument. We are convinced that the effective management of the 
Monument is the best solution to stop the decline of the marine 
ecosystems around St. John. We have tropical marine ecosystems that are 
some of the most diverse and biologically complex on earth. These 
precious resources are deteriorating at alarming rates the need for 
protection and management is urgent.
    With a marine reserve in place and enforced, the underwater 
resources will be given a chance to restore themselves and then 
flourish. Research in other marine reserves is overwhelmingly 
conclusive in demonstrating that fish size, diversity and overall 
population will increase within the protected area and then spread to 
adjoining waters. Virgin Islands residents will reap the substantial 
long-term benefits, not the least of which will be economic, of a fully 
functional VI tropical marine ecosystem.
    We believe that there should be no further delay by the National 
Park Service. At a minimum, interim regulations should be published and 
implemented as soon as possible. We need this Monument protected and 
managed now to be sure the resources will be here for the future. 
Otherwise we will witness increasingly barren reefs and increasingly 
empty fish pots.
    As noted above, the Friends is a staunch supporter of the Monument. 
However, we do recognize that the implementation of the no-anchoring 
and no-take provisions will create certain hardships for traditional 
users of the Monument's waters. In partnership with the Park, the 
Friends is implementing several mooring projects that will help 
mitigate some of these hardships. Specifically we will be installing a 
storm mooring system in Hurricane Hole that will allow the continued 
use of these bays as a storm refuge while respecting these provisions. 
In addition we will be installing moorings to facilitate fishing for 
blue runner and moorings at popular dive sites. Again, these will allow 
traditional uses to continue while respecting the provisions of the 
monument. We call on the Federal Government and the territorial 
government to recognize the other hardships and consider measures to 
alleviate them.
    We believe that the need to implement the fully protected marine 
reserves in the Monument is an issue of national importance. In March, 
hundreds of our members and members of the St. John business community 
wrote to Director Mainella urging immediate action. I invite the 
members of this Subcommittee to join with our members and use your good 
offices to encourage Secretary Norton and Director Mainella to begin 
the protection and management of this unique Monument NOW.
    Lastly, the Friends of Virgin Islands National Park has joined a 
coalition of more than a hundred other environmental, community, 
business and trade organizations representing millions of Americans, 
called Americans for National Parks. This coalition is working to 
encourage Congress and the Administration to address the full needs of 
the National Park System. I am sure that you are well aware of this 
campaign and I trust that you are strong supporters.
    The impact of the significant shortfall in funding of operations 
for VI National Park is representative of the threat to national parks 
nationwide. Based on data from the business plan developed for VI 
National Park last year, the Park has a 31% budget shortfall in basic 
operations. This is the overall shortage and the situation for certain 
critical areas is much worse. For example, ``Resource Protection'' has 
a shortfall of 46%, and ``Visitor Experience and Enjoyment'' has a 
shortfall of 37%.
    I encourage you to take the opportunity of your visit to discuss 
this issue with VI National Park staff to fully understand the 
implications of this shortfall for the Park and for the million plus 
Americans that visit this Park annually. Hopefully this on-the-ground 
experience will further strengthen your support of this campaign and 
provide you with first-hand knowledge and examples to help you convince 
your colleagues to provide VI National Park, and all national parks, 
with the funding they desperately need.
    I thank you for the opportunity to testify before you today. On 
behalf of the members of the Friends we greatly appreciate your 
commitment to Virgin Islands National Park and Virgin Islands Coral 
Reef National Monument. Your visit to the Virgin Islands and holding 
these oversight hearings on-site is a clear demonstration of this 
commitment one that is shared by all Friends of Virgin Islands National 
Park.
                                 ______
                                 
    Mr. Radanovich. Mr. Dave Berry, welcome to the Committee, 
and, again, I really need you to keep--stay close to that mike, 
because--and, again, if somebody can't hear in the back, if you 
just raise your hand I'll make sure that you do. That way we'll 
make sure that you'll be able to hear everything that goes on.
    So, Mr. Berry, welcome. I may interrupt you to tell you to 
speak louder or more directly into the mike but other than 
that, the time is all yours.

              STATEMENT OF DAVID BERRY, FISHERMAN

    Mr. Berry. Thank you very much, Representatives, Committee 
on Resources, the Congress Lady, Senators, and the general 
public.
    I have one little correction to make in my paper. In the 
section where it says ``charter boat'' it was supposed to be 
saying ``longline fishing boats.'' My apologies for the 
mistake.
    Good morning. The closure of the Coral Reef Monument and 
the Buck Island Monument was not only sudden, but it did not 
take into consideration the impact closing would have on the 
people who use the area. I feel that the decision to take--
excuse me--
    Mr. Radanovich. Dave, would you rather just speak because 
you don't have to read--you don't have to do your--you know, 
that's already part of the record, so if you just want to tell 
us your story, and don't worry about that, you're welcome to do 
that but it's your choice.
    Mr. Berry. OK. Please. I have a bad eye problem especially 
with--
    Mr. Radanovich. Sure.
    Mr. Berry. Anyhow, by coming and just closing the area 
suddenly, it has a drastic effect on us.
    It happened before in the British Virgin Islands where they 
draft up a treaty between longliners and the United States and 
Great Britain, and when they closed it we find ourselves in the 
British Virgin Islands water, fishing, and end up being taken 
to prison.
    It wasn't a good feeling to find yourself in jail caught 
between a treaty between two countries and no negotiation 
between our islands, which is the British Virgin Islands and 
the Virgin Islands share very close ties.
    It took us a year and a half to get out of that system in 
the British Virgin Islands. We ended up pleading guilty and 
setting a precedent for the treaty against us, the fishermen in 
the Virgin Islands.
    So when the National Park comes here and--came here and 
decided not--the Presidential Coral Reef Monument came here and 
decided they're closing off X amount of waters, it drastically 
has an impact on us socially, physically, mentally, everything. 
Because we end up being thrown aside again.
    The area, this is a fishery.
    The biggest problem in the fishery in all of the 
regulations is that they're using juvenile fish as the breeding 
stock. And I'm going to give you a good example. There is no 
livestock farmers worldwide using juvenile animals as a 
breeding stock.
    So here it is we use all juvenile fish as a breeding stock, 
depleting the fishery. And going around and saying the 
fishermen deplete the fishery. They are right they deplete the 
fishery but we follow regulations, and the regulations call for 
leaving juveniles as a breeding stock.
    And if you have to go to the wild, to the Great Plains of 
Africa and the tundra in Canada, you will see the big herds of 
animals really is a big herd of adults, not juveniles.
    Just think about what would happen if it was all juveniles 
in those big herds going to livestock farmers. All those big 
herds are all adults, not juveniles.
    So here we are managing a fishery with all juveniles, and 
I'm seeing a lot of national fisheries groups coming out 
against fishing, and closing and banning and everything, and 
the problem is not fishing and fishery. It's the regulations, 
the regulation calling for juvenile fish to be the breeding 
stock.
    If the National Park really want to cooperate with the 
Virgin Islands fishermen, they would have called meetings with 
the fishermen and cooperate.
    What I mean by cooperating, they'd have asked us to be part 
of the system of restocking the closed areas. What restocking 
closed areas would have do, automatically it would not take 50 
years or 70 years to build back a stock. It wouldn't have 
take--it would have take within 3 years, and then they would 
have had the fishermen feeling proud that we know there's a 
stock of groupers, snappers, lobsters out there that's building 
up, and eventually will be coming out in the area that we fish.
    The main point is that there is like five other agencies 
trying to close out areas in St. Thomas. There's Planning and 
Natural Resources, Caribbean Fishery, Fish & Wildlife--there's 
a number of agencies, and all of them are closing, and using 
the term depletion of fisheries, and they throw the fishermen 
out.
    The world ban prohibits the use for commercial fishing all 
around. Example: As in St. Croix they're going to close off the 
whole eastern end of St. Croix but they're not telling you the 
tip that--they're not showing a reef further outside the three 
miles is already closed by Caribbean Fishery.
    Would it be too hard to cooperate with the fishermen to 
restock areas out there with fish, and say within 5 years' time 
the areas we're fishing now would be functional and more fish 
to harvest?
    Food is one of the most important weapons or strength of a 
country. We already have a severe problem with agriculture and 
fishing here that we don't provide any type of infrastructure 
to support fishing or farming.
    Example about fishing. For us to anchor a fishing boat in a 
marina for 20 years--most fishermen own the boats--it would 
cost approximately a hundred thousand dollars, or $30,000 to 
fish. If you have 20 boats anchored at the marina, just figure 
how many fish you have to catch just to pay the marina bill. 
There's no support for infrastructure.
    Right now in the Caribbean the Japanese are dominating five 
main Caribbean islands, securing the harvesting of fish 
worldwide.
    Not to be mean, but the United States also allowed the 
Japanese to train off the coast of Hawaii, the U.S. Hawaiian 
Islands. There was an accident with a submarine and the large 
training vessels.
    The Japanese right now have power to harvest whales using 
Caribbean boats against sanctuary for whales and everything 
dealing with the whales. And they're setting up an 
infrastructure in all of the Caribbean islands.
    And here we sit under the United States, and we have no 
infrastructure. And I think we need super support for the 
industry called farming and fishing in the Virgin Islands 
because there's a budget. And money is being spent directly to 
these agencies and departments involved in farming and fishing.
    And that's all I do for a living. I have a wife and four 
kids. I'm a descendant of four generations from the Virgin 
Islands and the Caribbean, and I believe in supplying my 
country with food.
    Thank you.
    Mr. Radanovich. Thank you very much, Mr. Berry.
    [The prepared statement of Mr. Berry follows:]

                  Statement of David Berry, Fisherman

    The closing of the Coral Reef Monument and the Buck Island Reef 
Monument was not only sudden, but it did not take into consideration 
the impact the closing would have on the people who use these areas. I 
feel that when a decision like this is made, the people who are most 
affected should be made well aware of what is to take place, given 
adequate time to prepare for that change, and even compensated for 
their losses. This is a perfect example of what happens when people 
make decisions about things they know little about.
    I was a victim of this kind of policy making before. I grew up 
fishing around these islands, including Little Tobago, Big Tobago, and 
Jose Van Dyke. The B.V.I. fishermen used to sell their fish on our 
waterfront. We found out that there was a treaty only allowing charter 
fishing boats, not local fishermen, in the B.V.I. waters. We learned 
about this treaty while we were in the B.V.I. prison. If we had been 
aware of such a treaty, we would not have been fishing in the B.V.I. 
waters. In this case you can see where not only the people most 
affected were not aware of the policy, they were never even represented 
when the treaty was being written. We were never helped by any U.S. 
representatives either.
    The closing of these monuments without sufficient warning to the 
parties most effected puts the National Park at odds with those 
parties. I feel that these two parties should be working together for 
the betterment of both sides. There are also a number of other 
government agencies that are closing some areas around these islands. 
Fishing and farming are extremely important industries for a nations 
independence. Especially here in these islands, where we are so far 
away from the mainland, food production should be promoted and 
supported by the government. In my experience, the government has been 
unsupportive and at times hostile. There are many laws and regulations, 
but no incentives or even support.
    At the present time, our fishing and farming industries are 
suffering from extreme mismanagement. There is a Bill 3330 that was 
suppose to establish shipping lanes as well as fishing lanes, but it 
was never put into effect. The present regulations of restocking the 
fishery using juvenile fish as the breeding stock is only going to 
destroy the fisheries. Again we have people who are in charge who have 
limited knowledge of what they are doing.
                                 ______
                                 
    Mr. Radanovich. And thank you all for your statements.
    I now turn my time over to Mrs. Christensen.
    Mrs. Christensen. A lot of questions. Maybe I'll just start 
with Mr. Berry since he was the last.
    Thanks for your testimony, and I just wanted to reiterate 
that both your written statement and your oral statement are 
both in the record.
    You've been fishing a long time. How many years? All of 
your life?
    Mr. Berry. All my life. Yes.
    Mrs. Christensen. Do you see any difference yourself in the 
size of the fish, the amount of fish?
    Do you see from your own personal experience that there is 
a depletion of the fish stock?
    Mr. Berry. I would have to say yes, and one of the reasons 
why is because when you put regulations on seasons, you create 
hyper fishing, and that means everybody runs out to fish as 
fast as you can, as quick as you can, and running the size 
limit to the max.
    And I'll give you an example. If you have a herd of sheep, 
and you have only lambs out there, what kind of stress is the 
harvest level on the lambs?
    And the same thing goes to chicken farms. If you are 
running out of chickens are you going to close down the farms? 
I don't think so. You need to develop the stocks. And that's 
the same thing happening to the fishery right now.
    Mrs. Christensen. There are different ways to manage and to 
conserve the fisheries. Two other ways might be to have a fixed 
number of licenses for commercial fishermen or one might be 
rolling closures.
    What would you think about those as possible management 
tools?
    Mr. Berry. I won't get into the licensing too much because 
if you limit the man to what his intent, it hurts a lot because 
you're the one who is supposed to eat.
    I would say this. Eight years ago I went to a non source 
point pollution meeting, Caribbean Fishery meeting, proposing 
four closed areas in St. Thomas, St. Croix and St. John, 
approximately three square miles in each, including National 
Park waters, to form closed areas and restocking areas, to 
eventually form a developing stock of fish to supply us, and 
nothing ever came through with that. And I felt like I waste a 
lot of time.
    Mrs. Christensen. You think we should look at what came out 
of that meeting again?
    Mr. Berry. I think we need to get all of the parties 
involved in closing areas and developing fisheries to get 
together with the intention of developing a fishery to sustain 
and feed the country.
    Mrs. Christensen. There were two exclusions that 
Superintendent King talked about. He talked about two kinds of 
fish, hardnose and some other kind of fish that I don't 
remember what it was--
    Mr. Berry. Bait fish.
    Mrs. Christensen. --that could be fished. Does that help at 
all, or is that just a negligible, of negligible worth to you?
    Mr. Berry. It's good because the hardnose and the bait fish 
are migratory fish, and exactly the hardnose fishing grounds 
that we know, as example, is one of the main fishing grounds 
for hardnose right here in the southeast of St. John or south 
of St. John.
    But we have over 60 different species of fish, and I'm in 
favor of closing areas but I think they should be smaller, and 
we should be part of restocking because, example, for whelks, 
conch, lobster, if we only develop a stock of each of those, 
the eggs would automatically--not using juveniles. We're 
talking of using adults. Automatically going from first year 
on, the eggs get in the water column and start going up and 
down the water column into all the other islands and stuff, and 
automatically we have new stocks coming all over.
    Mrs. Christensen. I have a question for Mr. Kessler 
before--and this would be my last question in this round.
    Well, I was not aware that the Friends of the Park had such 
a large membership or that your members were from other states 
and even other countries, and your membership almost equals the 
population of St. John?
    Mr. Kessler. Yes, it does.
    Mrs. Christensen. Does everybody in that organization vote 
on positions that the Friends take?
    Mr. Kessler. No, they don't. It's the Board of Directors 
that would vote on positions.
    Mrs. Christensen. Are they all residents of St. John?
    Mr. Kessler. They're all residents of St. John at least for 
the majority of the year.
    Mr. Radanovich. Joe, let me ask you a question.
    Mrs. Christensen. You could see why there's a problem with 
maybe some of the residents of St. John and the Friends, then, 
because they're people who don't live here who would be making 
the decisions that would impact the people who live here.
    Mr. Kessler. Allow me to clarify that. There are 13 board 
members. Only one of them--one of them resides here about 8 
months out of the year and is gone for about 4 months. All of 
the others reside here virtually year round.
    Mrs. Christensen. I'll probably come back to that later.
    Mr. Radanovich. Thank you.
    Ms. McCollum.
    Ms. McCollum. I want to thank you for the testimony, and 
it's wonderful to hear the diversity of opinion, and I really 
appreciate it but I'm going to take my limited time and ask Mr. 
Berry some questions.
    But I thank you all for your testimony. I'm just learning 
how international waters work.
    I served and do a lot of work with fisheries in Minnesota 
where you're restocking a lake and you're dealing with DNR and 
maybe with tribal councils, and it's pretty easy to get a grip 
and a handle on it because it's defined.
    Who currently is stocking the juveniles? Is it--because I 
kind of did a real quick question up here, and it is--to the 
best of our knowledge, it is not the National Marine Fisheries 
that's doing it.
    Is it--who is doing the current stocking?
    Mr. Berry. Well, the stocking is actually done by the 
fishermen. They're releasing the small fish and not catching 
them because the regulations call for certain size fish not to 
be caught.
    Ms. McCollum. So you're doing your own stocking on this? 
And--
    Mr. Berry. Excuse me. We're actually following the 
regulations.
    Ms. McCollum. Well, I wouldn't think that you would do 
anything otherwise from your testimony, seriously.
    Do the fishermen from--you talked about how there's a 
Caribbean zone, the British Islands zone, and the Virgin 
Islands zone.
    Is there a council where the different protected zones that 
impact fishermen such as yourself, where they get together and 
do any kind of round tabling and talk about how these 
patchworks are overlaying one another?
    Mr. Berry. Well, that's one of the main problems we have 
right now. There are so many different groups having meetings, 
it's hard for even the fishermen to follow because we actually 
keep going to meeting after meeting and repeating ourselves, 
and that becomes frustrating after a while because we're going 
to a new group of people all the time.
    And that's why I mentioned before that we need all of the 
parties involved in closing areas to come together with the 
fishermen and let us know their point, and we could have a plan 
to let them know what we need to help develop the stocks, and I 
myself have been going to an endless amount of Caribbean 
Fishery meetings, and it's extremely frustrating.
    Ms. McCollum. Well, Mr. Chair, what Mr. Berry has brought 
up is a significant problem, not only for the Virgin Islands, 
not only for the Atlantic States, Pacific States, but for the 
world in general.
    As more and more sophistication comes forward small family 
fishermen like Mr. Berry find themselves competing with huge 
corporations from around the world with sophisticated boats, 
with crews that travel and go out to sea for weeks on end, go 
wherever they can go, sometimes skirting around the law to 
catch what they want to catch.
    And the pressures that we're putting on our fisheries is 
just huge, and, in fact, this isn't the--this doesn't directly 
relate to the Virgin Islands, but I think it paints a picture 
in Somalia where people are starving to death. There are fisher 
people who can only take their boats in Somalia and get out so 
far to get the fish to feed their families.
    And they watch international vessels scoop the fish in 
international waters right away from them as they watch their 
families starve.
    So, thank you very much for sharing what is a worldwide 
situation, and I know that from the discussions that we've had 
in one Committee meeting that I was in last week it is 
something that Congress is taking very, very seriously, sir.
    And I thank you so much for coming and representing not 
only the fishermen and women of the Virgin Islands but of the 
United States.
    Thank you.
    Mr. Berry. Thank you.
    Mr. Radanovich. Mr. Kessler, I want to ask you a question 
about the--some of the comments that you made about the 
declining fish populations within the fisheries around these 
islands.
    Do you have scientific data that you can provide this 
Committee that would evidence that? Can you make that available 
to this Committee?
    Mr. Kessler. Yes. The Friends doesn't have that data 
themselves but the Park certainly has that data, and USGS which 
developed most of the plans for the monument would certainly 
have that data readily at hand.
    Mr. Radanovich. So your comments are relying on what the 
Park Service, the data that they have?
    Mr. Kessler. And reports and data that I read from other 
sources, correct.
    Mr. Radanovich. OK. Because we have asked the Park Service 
to provide that information, and, again, what we want is as 
much scientific data as possible. So if you can think of any 
other sources of information outside the Park Service to 
determine this or to show this, then if you would submit it to 
the Committee, I'd sure appreciate it.
    Mr. Kessler. I'll be very happy to.
    Mr. Radanovich. OK.
    Mrs. Christensen?
    Mrs. Christensen. Thank you.
    Ms. Monsanto, we didn't forget about you. Coming back to 
you, I wanted to ask you if you would elaborate on maybe two 
areas, maybe starting with the St. John Taxi Association issue 
with the Park?
    What is the position of the Taxi Association?
    Ms. Monsanto. The National Park started a commercial 
service plan on the Island of St. John wherein they wanted to 
apply a user fee for transporting--
    Mr. Radanovich. Excuse me, Lorelei. Because I have hands in 
the back.
    Ms. Monsanto. Eat it. Eat it.
    Mr. Radanovich. I'm sorry. What is it?
    Ms. Monsanto. Eat it.
    Mr. Radanovich. Eat it?
    Ms. Monsanto. You said we should eat it.
    Mr. Radanovich. Oh, eat it. Yeah, eat it.
    Ms. Monsanto. The National Park developed a commercial 
service plan that stated that effective the beginning of the 
year they would charge a user fee to drive from Cruz Bay into 
the Park, going as far as Annaberg. The fee started out at 800-
plus dollars. We met with them several times, and they dropped 
the fee in reference to so-called negotiations.
    We took the position that the roads are public roads, and 
we didn't feel it was fair that we were picking up customers to 
take to their beaches for them to collect all this revenue, and 
we get nothing. We get wear and tear on our vehicles. We get 
wear and tear on the land. We get--we just get wear and tear.
    So after much ado we have filed suit, and that is supposed 
to be heard in August.
    Mrs. Christensen. Now, to pick up and drop at the beach, 
there should not be a fee.
    Ms. Monsanto. There was and there still is. I guess they 
were trying to determine that, the Park's definition--
    Mrs. Christensen. Of what's a tour?
    Ms. Monsanto. --of a tour, correct.
    Mrs. Christensen. So that has not been clearly defined as 
to what a tour is?
    Ms. Monsanto. Not by the National Park. The local 
Government mandates what a tour is. The National Park has a 
different description.
    Mrs. Christensen. Is it your understanding that it's a user 
fee or a concession fee for doing business within the Park?
    Ms. Monsanto. It is a so-called user fee.
    Mrs. Christensen. I thought it was a concession.
    And you are also listed as a landowner?
    Ms. Monsanto. Correct. We have several people who are 
indigenous to St. John who have lands within the National Park. 
As you heard from prior testimony, there are several issues as 
it pertains to accessing your property.
    And in the order of time and being redundant, there are 
clear concerns. You have heard them.
    Mrs. Christensen. Could you give us a little bit of an 
example of what, either from your own experience or from 
another family's experience, so we get a little more personal--
    Ms. Monsanto. I submitted an additional testimony onto my 
testimony that I hope that you all have read in reference to a 
cousin, family of mine, who owns property at Maho Bay.
    I don't know if you've had the pleasure of driving around 
St. John since you've been here. Maho Bay is located on the 
North Shore of the island.
    They have had several issues with the National Park in 
reference to their estates. My great, great grandfather's son 
owns that estate, and there are several problems.
    They're in litigation right now. The Park has an interest 
in Maho Bay that has not been decided upon, which actually 
belongs to them.
    As a result, the remaining family members can't develop 
their lands, and do what they need to do in order to grow and 
pay their taxes, what have you.
    I did hear Ms. Mainella mention that there should be a 
degree of--they want to control. My interpretation when she 
said that was, control what I wanted to build or develop on my 
property. And I don't think the Park has the right to tell me 
what I can build, what I can grow, what I can do there, if it's 
legal.
    So, I do ask you to read that testimony because it's very 
in detail, and it's too much to read at this point.
    But the hardships that the Park--we all want to be friends 
with the Park. The Park has done good for St. John, as said 
before, but we need to learn to respect each other and discuss 
things with each other before we just say, OK, I'm big brother. 
I own this island. You're going to do as I say.
    It has been said to us before.
    Mr. Radanovich. Ms. McCollum?
    Ms. McCollum. No. Thank you, Mr. Chair.
    Mr. Radanovich. OK.
    Mrs. Christensen. If we could just--does everyone feel that 
they had a chance to cover the main points in the last panel? 
This is the last chance.
    Mr. Radanovich. Donna, you have to speak louder.
    Mrs. Christensen. This is the last panel because, as I 
understand it, several of the people who were to testify are 
not here.
    Did you feel that you were able to bring your major points 
forward?
    Ms. Monsanto. If you have concerns in reference to more 
issues in reference to the lands, if you don't mind, if it 
would be permissible, if I could have the--Mr. Kean, whose 
testimony I submitted with mine, if he can give you more 
pertinent information, more so than myself, in reference to the 
land.
    Mrs. Christensen. But it's submitted, isn't it?
    Ms. Monsanto. And it's in the record. Yes, it is.
    Mrs. Christensen. Then we'll accept it--
    Ms. Monsanto. OK.
    Mrs. Christensen. --for the record.
    [The prepared statement of Mr. Kean follows:]

  Statement of James Kean, Representing the Natural Heirs of H.M. and 
  Grace Marsh, Owners of Maho Bay Estate: Alva Marsh, Jewel Moolenaar 
 Marsh, Warren Marsh, Ernest O. Kean Jr., James Kew, Patricia Looney, 
Joseph Adler*, and the Heirs of Douglas Nelson, Deceased, Valentino and 
     Nelinda Nelson (*Joseph Adler is missing, and may be deceased)

    1. The Park is wrongfully preventing the owners of 8/11ths of Maho 
Bay estate from using their property by obstructing a partition from 
the 3/11ths held by the Park, and is trying to acquire their property 
by an indecent and unacceptable strategy.
    2. The Park's strategy to acquire Maho Bay and its actions to 
frustrate the heirs' request for partition are improper, abusive, 
shameful, indefensible and find no basis in its legislative mandate. 
The Park will not openly admit that such is its strategy but this 
Committee has only to examine the Park's actions over the past four 
years to discover the truth.
    3. This strategy is simply to do any thing it can to obstruct and 
delay partition, discourage, wear down, and exhaust the heirs 
financially while waiting for the local government to seize and sell 
the heirs' interest for non payment of taxes, at which point the Park 
will be sure at last to have found a willing seller.
    4. Congress mandated the Park to preserve what it could acquire 
through purchase, not to immobilize what it cannot acquire by 
obstructing an owner's right to enjoy his property, not to take actions 
aimed at denying owners the possibility of paying property taxes so as 
to be able to buy their property at a tax sale.
    5. We, heirs of H.M. Marsh have an indisputable legal and moral 
right to partition from the Park. We have a right not to sell to the 
Park We will not allow this property to be seized for taxes, we will 
not sell it on the Park's terms or under pressure by the Park. We will 
not have the Park dictate to us what we may or may not do with it after 
partition.
    6. The National Park needs to understand that though it may have 
acquired some of Maho Bay by deceit, it will not acquire all of Maho 
Bay where the heirs' parents were all born, lived, and worked.
    7. It also needs to abandon the attitude that its objectives, that 
in its arrogance it somehow imagines more ``noble'' than those it 
imputes to the heirs, justify its wrongful opposition to the exercise 
of the rights of landowners in St. John.
Request made to the Committee
    We ask the Committee to pose the following questions to Park 
Management.
    1. Is the Park opposed to a partition of Maho Bay Estate as 
requested by the heirs, if so, why, and on what principle or basis?
    2. Has the Park taken any actions or refused to take any action the 
purpose or the effect of which has been to delay or prevent partition? 
If so what are they, and why?
    3. Given the Park's knowledge of the tax situation, what are the 
foreseeable consequences for the owners if partition is delayed?
    4. Explain and justify the Park's actions, and explain how its 
actions in this matter are consistent with its legislative mandate.
    We also ask the Committee to bring the facts stated below to the 
attention of senior officials in the Interior Department so that local 
Park management can be directed to abandon its present strategy of 
obstruction and to enter into good faith discussions with the heirs 
leading to partition.
Background
    W.H. Marsh and Lucretia Marsh nee Titley, acquired and operated a 
number of estates in St. John following economic decline and estate 
bankruptcies in the late 1800's. Their children, who inherited their 
properties, were among the last to carry out significant agricultural 
activity in St. John, in Estates Reef Bay, Carolina, and Maho Bay.
    W.H. Marsh acquired Maho Bay in 1900, comprising some 350 + acres 
deeding it to his youngest son H.M. Marsh (1870-1970) who continued 
agricultural production there (Cattle, sugar cane, fruit orchards, 
honey). His eight children two of whom survive, were born in Maho Bay 
between 1904 and 1920.
    All areas of Maho Bay usable for agriculture under techniques then 
available had been under cultivation and habitation for 150 years 
before 1900; in no sense therefore, is Maho Bay Estate, untouched or 
pristine land.
    In 1957 at age 87 H.M. Marsh deeded Maho Bay Estate to his eleven 
grandchildren, with a life interest to himself, his wife, and their 
children.
    When or shortly after the VI National Park was created, the Park 
planners for reasons best known to themselves, designated Maho Bay as a 
property to be acquired by the Park. The owners, H.M. Marsh's 
grandchildren, were not consulted in this designation.
    In 1969 or 1970, a land buyer for the National Park Foundation 
approached a number of H.M. Marsh's grandchildren, including three of 
them born and having lived exclusively in the mainland U.S. and offered 
to buy their remainder interest in Maho Bay, an interest that the three 
had never seen, and were even unaware of. He represented falsely to 
them that the National Park could in any event acquire the land by 
condemnation at a lower price than he was offering, and that by a sale 
they could avoid inheritance taxes due upon the death of their 
grandfather, that they would have no means to pay.
    Agreeing to the sale before getting a good understanding of the 
facts, they found the legal costs of extracting themselves from their 
agreement to be too high when they later tried to cancel the sale, and 
finally sold their remainder interest, 3/11ths of the total to the 
National Park Foundation.
Problem facing the heirs of H.M. Marsh
    The other heirs, composed of the life tenants and the grandchildren 
were thus thrown into joint ownership of undivided land with the 
National Park. The undivided joint ownership has since effectively 
prevented the heirs from engaging in any business activity in Maho Bay, 
more particularly activity capable of providing funds to pay real 
estate taxes assessed on their 8/11ths interest.
    The National Park has perpetual existence; it has a legal mandate 
not to disturb nature as it finds it; it pays no taxes. The heirs are 
mortal; what they own in Maho Bay is subject to property taxes; they 
would naturally not like to lose their property for non payment of 
taxes, and would like to be able to use, enjoy, or dispose of what they 
own as they see fit without interference from the Park. They have 
objectives, irreconcilable with those of the Park.
    It is clear that the existence of joint ownership of undivided 
property with the National Park places the heirs in an untenable 
position.
    For a long time the expected cost and of a suit and partition and 
other complexities tied to deed granted by H.M. Marsh prevented the 
grandchildren from taking action to separate their property from that 
of the Park. Most lived on the Mainland, all had families to 
support.all or had other demands on their attention.
Suit for Partition from the Park
    In 1998, however, the heirs, now aged for the most part in their 
60's and 70's, faced with an unendurable situation and an ominous 
property tax bill sued the National Park for partition of the property. 
This matter is now in 2002 still before the District Court of the 
Virgin Islands.
    In the 29 years elapsing between the purchase of 3/11ths interest, 
and the filing of the suit, the National Park (or anyone acting for the 
National Park) at no time offered to buy any of the remaining eight 1/
11ths shares, or to partition the property, or to pay taxes on the 8/
11ths owned by the heirs or in any way to mitigate the problems caused 
the heirs by the Park's ownership of an undivided interest. These 
problems did not escape the Park's notice. On the contrary, the Park 
expressed satisfaction that the purchase of 3/11ths ``tie up'' the 
entire property. i.e. make it impossible for the heirs to exercise any 
right of ownership.
    In answer to this suit for partition the Park has over the past 
four years: (listed not necessarily in chronological order):
    <bullet> Lmade an offer to buy the heirs' interest (rejected by the 
heirs who would buy back the 3/11ths sold in 1970 at the price per 
interest offered)
    <bullet> Lsuggested that the heirs could donate their property to 
the Park raised legal objections to the partition request,
    <bullet> Lclaimed uncertainty as to the boundaries of the property 
to be partitioned,
    <bullet> Largued that the Park Superintendent had retired and no 
action could be taken until his successor arrived. (no action was taken 
after his successor arrived)
    <bullet> Lmade partition ``proposals'' unsupported by any 
rationale, the last of which would confer upon the Park a number of non 
contiguous parcels totaling far more than 3/11ths of the value and of 
the acreage of the property
    <bullet> Ldemanded to know as a pre-condition to discussion of 
partition, what the heirs proposed to do with the property after 
partition
    <bullet> Lrefused to enter a dialogue on partition, even on the 
principles to be used as a basis for partition
    <bullet> Lcontinued and continues to this day to oppose partition 
and to engage in dilatory tactics in Court ( continuances, motions, 
appeals) to obstruct and delay and frustrate partition.
    The Park's strategy is simply to do any and everything to delay 
partition and wear down the heirs while waiting for the local 
government to seize and sell the heirs' interest for non payment of 
taxes, at which point the Park will be sure at last to have found a 
willing seller.
    In the meantime, the Park exercises negative control over the 8/
11ths that it does not own.
    We do not know at what level in the Park this shameful strategy has 
been devised. We do know that it is being carried out at the local 
level by the present Park Superintendent and assistant U.S. attorneys 
in the U.S. attorney's office.
                                 ______
                                 
    Mrs. Christensen. And I would apologize because I stopped 
at your--the testimony that you read, and that there were some 
documents at the back but I did not look beyond those.
    Mr. Radanovich. All right. Any other questions of the 
panel? This being our last panel, I want to thank you very, 
very much for taking the time to be here.
    I hope that it's helpful in resolving some of the issues 
that the Park has with the National Park Service and with the 
community.
    So, again, I want to thank Mrs. Christensen for inviting us 
into the area and for setting up this hearing.
    I want to thank the community of this island for making 
this hearing room available, the Senators, and I think that 
this will go a long ways in beginning to address some of the 
problems in the area.
    So I want to thank you very much. And with that, this 
hearing is ended. That's it.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]
    [A letter submitted for the record by The Honorable Donna 
M. Christensen from Craig Barshinger, St. John, U.S. Virgin 
Islands, follows:]
[GRAPHIC] [TIFF OMITTED] T0850.011


OVERSIGHT HEARING ON CHRISTIANSTED NATIONAL HISTORIC SITE, BUCK ISLAND 
 REEF NATIONAL MONUMENT, AND THE SALT RIVER BAY NATIONAL HISTORIC PARK 
                        AND ECOLOGICAL PRESERVE

                              ----------                              


                         Monday, July 22, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                Frederiksted, St. Croix, Virgin Islands

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., at the 
United States District Court, St. Croix, U.S. Virgin Islands, 
Hon. George Radanovich [Chairman of the Subcommittee] 
presiding.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning. Thank you for waiting. We 
needed to wait till 10 o'clock straight up to begin our 
hearing. We didn't want to start ahead of anybody coming in the 
door. So I want to welcome you again, and again, to let you 
know, my name is George Radanovich and I represent the 19th 
District of California, which includes Yosemite National Park 
and Kings and Sequoia National Parks in California.
    I'm also Chairman of the Subcommittee on National Parks, 
Recreation and Public Lands. And like St. John, St. Croix is a 
gorgeous island, and it--and it gives me very great pleasure to 
be here.
    Again, I want to thank Delegate Donna Christensen for 
inviting me down in order to conduct this hearing. And I wanted 
to thank Judge Raymond Finch for allowing us the use of the 
courtroom. It's just beautiful, and I understand the building 
is named after a pretty incredible man who's related 
(laughter), and it's a gorgeous, wonderful setting. So I 
appreciate the use of this courtroom, Judge. Thank you.
    Similar to the issue at St. John is--the most important 
issue for today's hearing is the legality of the former 
President Clinton's national monument designation of the Buck 
Island Reef National Monument. According to the Antiquities Act 
of 1906, all monument designations must be made on lands 
``owned or controlled by the Government of the United States.'' 
Furthermore, all the designations must be ``confined to the 
smallest area compatible with the proper care and management of 
objects to be protected.'' With the Buck Island expansion, 
Clinton seemingly violated both provisions of these laws. Of 
great importance is the question of who actually owns the 
submerged lands because the ownership of the lands were 
transferred to the Government of the Virgin Islands pursuant to 
the Territorial Submerged Lands Act of 1974. Because the 
submerged lands were claimed by the Federal Government per the 
Clinton Administration, we need to ask what is actually 
transferred to the Virgin Islands.
    Another issue particular to Buck Island concerns the 
legality of a sitting president making modifications to an 
earlier Presidential monument proclamation. It is unclear at 
this time whether any sitting president has the authority under 
the Antiquities Act to make these modifications. Such a 
situation developed specifically for the Buck Island Reef 
National Monument expansion when former President Clinton 
abolished the fishing rights that were granted to these 
residents of the Virgin Islands in the original proclamation 
made by President Kennedy. In fact, the original Buck Island 
destination was conditional on the continuation of the fishing 
rights, as the Government of the Virgin Islands relinquished 
this area to the Federal Government on the understanding that 
fishing rights would be retained. Former President Clinton, in 
his proclamation, simply superseded this conditional right. The 
legality of this is highly questionable, especially by the 
local resident fishermen who depended on these fishing grounds 
for their livelihoods.
    I want to thank the witnesses for being here; Director Fran 
Mainella, who is very, very much welcome. We also have with 
Fran is Mr. Joel Tutein, who's the Buck Island National Park's 
superintendent. Joel, welcome. And also Regional Director Jerry 
Belson here with us with his Deputy Director Sandy Hooks. Thank 
you very much for being here part of this hearing.
    And for the sake of the audience, if I can explain the way 
a hearing operates, generally members of the panel hear from 
witnesses. They're usually given about 5 minutes, although I'm 
not real super strict about it. If you go a minute beyond that 
we'll kind of tap, you know, we'll tap you on the head. But the 
purpose is to get the information into the record verbally, as 
well as written testimony that's submitted. And when this is 
done, then the panel will be opened up for questions from us up 
here.
    We like to make sure that the composition of those that 
give testimony represent all sides of the hearing or the issue, 
and I think that you'll find that with this slate of panelists 
we have before us.
    I also want to also recognize Betty McCollum, who will be 
here a little bit later and had to make a visit to the doctor 
this morning with an ear problem that seems to be affecting 
more than one of the people on this trip. So Betty is from 
Minnesota and will be joining us shortly.
    So with that, thank you again for being here, and Mrs. 
Christensen, thank you so much for the invitation to come to 
your beautiful islands, and I'm turning my time over to you.
    [The prepared statement of Mr. Radanovich follows:]

      Statement of The Honorable George P. Radanovich, Chairman, 
      Subcommittee on National Parks, Recreation, and Public Lands

    Good morning everyone. At the risk of repeating myself from the 
hearing on St. John and for those who don't know, my name is George 
Radanovich, and I represent the 19th District of California. I am also 
the Chairman of the Subcommittee on National Parks, Recreation, and 
Public Lands. Like St. John, St. Croix is a beautiful island and it 
gives me great pleasure to be here. Again, I want to thank Delegate 
Donna Christensen for inviting me down in order to conduct this field 
hearing.
    Similar to the issue at St. John, the most important issue for 
today's hearing is the legality of former President Clinton's nation 
monument designation of the Buck Island Reef National Monument. 
According to the Antiquities Act of 1906 all monument designations must 
be made on lands ``owned or controlled by the Government of the United 
States''.
    Furthermore, all the designations must be ``confined to the 
smallest area compatible with the proper care and management of the 
objects to be protected''. With the Buck Island expansion, Clinton 
seemingly violated both these provisions of law. Of great importance is 
the question of who actually owns the submerged lands because ownership 
of these lands were transferred to the Government of the Virgin Islands 
pursuant to the Territorial Submerged Lands Act of 1974. Because the 
submerged lands were claimed by the Federal Government per the Clinton 
Administration, we need to ask what was actually transferred to the 
Virgin Islands.
    Another issue particular to Buck Island concerns the legality of a 
sitting President making modifications to an earlier Presidential 
monument proclamation. It is unclear at this time whether any sitting 
President has the authority under the Antiquities Act to make these 
modifications. Such a situation developed specifically for the Buck 
Island Reef National Monument expansion, when former President Clinton 
abolished the fishing rights that were granted to residents of the 
Virgin Islands in the original proclamation made by President Kennedy. 
In fact, the original Buck Island designation was conditional on the 
continuation of the fishing rights, as the Government of the Virgin 
Islands relinquished this area to the Federal Government on the 
understanding that the fishing rights would be retained. Former 
President Clinton, in his proclamation, simply superceded this 
conditional right. The legality of this is highly questionable, 
especially by the local resident fisherman who depended on these 
fishing grounds.
    I want to thank our witnesses for being here today to testify and 
will now turn the time over to Mrs. Christensen.
                                 ______
                                 

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I think we all 
had a very good hearing--and good morning to everyone. I think 
we had a very good hearing on St. John and I'm very happy and 
honored to welcome you to St. Croix, my home, and the larger of 
the three major islands of the Virgin Islands.
    As was the case in St. John, and I'm sure you've all 
experienced that already, you'll find that we Crucians, as well 
as all of the people of the Virgin Islands, are among the most 
hospitable people in the world. So I know you're enjoying 
yourselves.
    Let me again also express my appreciation to you, Mr. 
Chairman, for your willingness to come to the Virgin Islands to 
conduct 2 days of public hearings, and our colleague, 
Congresswoman McCollum, who will be joining us shortly. My 
constituents do not generally have the wherewithal to travel to 
Washington to make their views known to the Members of the 
Congress who make decisions about issues that affect their 
lives.
    And I also recognize that if you were not here you would be 
in your own respective districts tending to the needs of your 
own constituents, so we really are grateful to both of you for 
being here instead to listen to mine as it relates to the 
national park units and our own community. And I also want to 
thank the staff that's with us for the hard work in putting 
this trip together.
    Let me also welcome and thank all of the witnesses who are 
here to offer testimony this morning. I express my thanks to 
the Director of the National Park Service, Fran Mainella, for 
her willingness to join Chairman Radanovich and I at these 
hearings on St. John, but I want to repeat that again today.
    As someone in our government who has the responsibility 
over more land than many Governors of some of the fifty states, 
it's not often that our Subcommittee has the pleasure of having 
the Director appear before us either in Washington or here, and 
of course here. Not only are we grateful for the testimony 
we'll receive from you again today, Director Mainella, but also 
for your willingness to sit and listen to the testimony of all 
of the witnesses that will speak after you. You often won't 
have that privilege either, because in many instances the 
representatives of the Administration come, give their 
testimony, and leave. So we're very fortunate.
    And I want to thank and welcome our Regional Director 
Belson, the Deputy Regional Director Hooks, and of course our 
own Superintendent Joel Tutein. We look forward to working with 
you and your staff to see if we can bring to closure some of 
the issues that we have been wrestling with here on St. Croix.
    I want to now welcome our local witnesses as well. Please 
to welcome a panel of local government witnesses. I'm not sure 
if Senator Roosevelt David will be joining us, but Dean 
Plaskett, our Commissioner of Planning and Natural Resources, 
who was unable to be with us in St. John is here. I'm also 
pleased to welcome Mr. Bill Turner of the St. Croix 
Environmental Association and Attorney Max McIntosh of the Salt 
River National Historical Park Commission.
    And finally, and I'm not sure--oh, yes, they've arrived--
let me welcome witnesses from our third panel, former Senator 
Virdin Brown, the Chair of the Caribbean Fisheries Council; Mr. 
Robert McAuliffe of the St. Croix Fishermen's Cooperative; 
Michelle Pugh, the owner of Dive Experience, a concessionaire 
within the Buck Island National Monument.
    Mr. Chairman, today's hearing will focus on the issues 
addressed in H.R. 5097 adjusting the boundaries of the Salt 
River Bay National Historic Park, as well as issues around the 
monument. And that's a park that Ms. McCollum's predecessor, 
Bruce Vento, had a lot to do with making sure that it happened. 
And we'll also, of course, talk around issues on the proposed 
expanded Buck Island Reef National Monument.
    I truly hoped that we would have had the legal opinion on 
the ownership of the submerged lands from the General 
Accounting Office for use in advance of this hearing. And to 
recap briefly, after my attempts to stop or amend the monument 
declaration, we wrote to the General Accounting Office stating 
our disagreement with the determination that the submerged 
lands in question were Federally owned, and also recounting 
that the enabling legislation specifically stated that fishing 
rights were not to be denied the people of the Virgin Islands.
    I did receive a promise from Director Mainella on Saturday 
that, should the opinion support that of the Clinton 
Administration, that there wouldn't be an immediate closure, 
but that a period of consultation on management would be the 
course to be taken.
    So let me again pledge today to my constituents that when 
the opinion is completed and released, I will come back, 
present it to you, and we can discuss then how we should 
proceed from there.
    And although it's not specifically before us, Mr. Chairman, 
I also want to remind you of H.R. 5096, which would authorize a 
study to determine the suitability of St. Croix for a National 
Heritage Area. I'm sure that as you travel around the island, 
you will become convinced that there is much here of national 
as well as local significance.
    In closing, as best as my staff and I could determine, this 
is the very first time that the Subcommittee with direct 
authority over our national parks has held public hearings in 
our Territory. So I once again thank you, Chairman Radanovich, 
for agreeing to hold these here, and I want to say thank you 
once again to everyone, to Congresswoman McCollum who will be 
joining us, to Director Mainella and her staff, to our 
testifiers, and those in the audience, as well, for taking the 
time to come out and be here this morning. Thanks.
    Mr. Radanovich. Thank you very much, Donna.
    We'll go ahead then and introduce our first panel, which is 
Ms. Fran Mainella, Director of the National Park Service. 
Again, welcome, Fran. Good morning to you.

STATEMENT OF FRAN P. MAINELLA, DIRECTOR, NATIONAL PARK SERVICE, 
                U.S. DEPARTMENT OF THE INTERIOR

    Ms. Mainella. Good morning, Mr. Chairman, and good morning 
members of the Committee. I just want to say thank you for the 
opportunity to be here, and Delegate Christensen, thank you for 
opening up the arms of the Virgin Islands to us and making us 
feel so welcome. It's really an opportunity to better be able 
to understand the issues and meet so many wonderful people. 
I've had a chance to do so, and I think that gives us a much 
better opportunity than when we're sitting in Washington and 
always trying to understand those issues from afar. So thank 
you for this opportunity, and for the hospitality you've 
provided to all of us.
    I am here again appearing before you not only dealing with 
our monument issues, but dealing with we have three units here 
that are in St. Croix that are part of the national park 
system. You have the Christiansted National Historic Site, 
which I had a chance to visit yesterday, and what a wonderful 
site that is. If you've ever gone--yeah, I think some you had a 
chance also to hear Bill, our historic--our interpreter from 
the site, give us such a great story about the fort, and it's 
the original park in the Virgin Islands, as well as the new 
post office, or the old post office that has now been renovated 
and are being worked on, and the great opportunities that 
provides. And the story tells about black history, and it's 
such a great, great area.
    Also Buck Island Reef National Monument, which is probably 
a lot of the focus of comments that may come today, and again, 
having a chance to actually see some of the coral out there and 
some of the issues certainly was a great advantage for us in 
understanding, and seeing the brown pelicans flying, and all 
the issues that are of concern certainly is a great experience.
    Also we had a chance yesterday to visit Salt River Bay 
National Historic Park and Ecological Preserve. Again, that is 
a partnership park, and again hopefully one of the messages 
that I want to bring in my attendance here, the importance for 
all of us to work together in partnership. Doesn't mean that--
in fact, I saw Rocky, the Senator, excuse me, I don't know if 
he's still back there--you know, it doesn't mean we can't--
sometimes we may not always exactly agree, but we always need 
to be talking with each other and communicating. And that's the 
message I've heard loud and clear from all the folks I've met 
here, and I do think that is the message that Joel and others 
want to send, and through me, hopefully, we'll continue that 
message going forth.
    I do want to recognize, I have Daniel Smith with me, he's 
my congressional affairs person from Washington, and thank you, 
Dan, for being here with us today.
    Again, as we look at these different sites, and in 
particular the monument, which I know has been of probably most 
discussion, it is something, as Congressman Radanovich 
indicated, the monument was established by President Clinton's 
proclamation in January 17th, 2001--or at least the expanded, I 
know the monument has been here, Buck Island has been here, but 
has been expanded through this proclamation.
    One of the things that, since that designation, I think 
it's real clear, and I think all of us know that there is 
concerns that have been expressed, and I want to make sure that 
everyone in this room knows we are aware of those concerns, and 
that also the Virgin Islands Government has issued many 
questions about, and in fact passed a resolution, 1609, 
expressing concern over the lack of adequate public 
participation in the expansion of the monument, ownership of 
the submerged lands, the size of the monument, and potential 
impacts on fishing and marine industries.
    While we share concerns about the way in which this 
monument was created, our job though is to insure the 
development of management plans in an open, inclusive and 
comprehensive way. And again, this goes back to the partnership 
approach, and I think those of you who know Joel know that he 
has used that approach and will continue to further enhance 
that in his leadership here, as has the region under Jerry's 
leadership.
    But as Secretary Norton, our Secretary of the Interior, has 
said on many occasions, the planning that she expects us to 
follow in anything that we do should involve what she calls the 
Four Cs. And that's Consultation, Cooperation, Communications, 
and all in the service, though, of Conservation. The Department 
of the Interior is committed to management and protection of 
monuments consistent with the four Cs, and the purposes 
established in those proclamations.
    In response to these commitments, she has already published 
some notice to, through the Federal Register, to some of the 
monuments that are in the west. She will look to this more 
aggressively, as Delegate Christensen has indicated, if it is 
determined through the GAO and others that this is--the legal 
aspects of the submerged lands, and we're going forth with the 
monument, then that will be a time where we will again need 
more input. But these hearings help us in that endeavor, and 
we'll be looking for that input as we go forth to make sure 
that we do consider all factors as we go forth. Again, I think 
the GAO report, when that comes out, will give us more guidance 
and we will move forward from that area.
    With regard to the impact on fishing and marine industries, 
although there is a loss of fishing territory and it could have 
an impact on the industry, we are really going to be 
aggressively working to try to work with regeneration of stock 
of fish, and that we will hopefully enhance the fishing 
nurseries that makes possible the fishing industry at a better 
level than has been in the past, and what we'll be looking at 
is what we call ``fishing forever,'' in hopes to further 
enhance that industry in a way that will benefit everyone.
    Tourism I think we all know is a mainstay, and I know my 
light is on so I'll quickly come to a summary--
    Mr. Radanovich. Fran, go ahead, take a few minutes. You've 
got three separate issues to talk about. I'm giving you some 
more--
    Ms. Mainella. Thank you so much. I appreciate it.
    Tourism is a mainstay of the economy here, and it is 
something that we want to continue to move forward with. In 
fact I spoke with the commissioner on tourism last night and 
asked her involvement to make sure that not only here, in St. 
Croix, but also in St. John, that we all do more to work 
together in the tourism role. And we will be looking at the 
economic impact that our parks provide to this area as we do 
our management planning, and we do that management planning any 
time that we do parks, and of course we will be stressing 
public involvement in all that we do there. So I just want to 
make sure you know we will be moving forward in that area as 
best as we can.
    And again, we talked about Salt River Bay and National Park 
and Preserve, and again I want to just continue to reach out to 
the Territory and ask for our help, all our help to move 
forward. I mentioned I spoke to Dean this morning, and I asked 
that somehow we continue to further enhance our working 
relationships so that it is--because what we make clear is if 
the part doesn't succeed, then it's not a good success measure 
for the Virgin Islands. And if Virgin Islands doesn't succeed, 
it's certainly not a good reflection on the park. We must be 
together, working well together in order for these things to go 
forward.
    I think I know, again, I'm near the close of my comments, 
but again I appreciate the leadership that this Committee 
provides in looking at all our national parks, and the fact 
that we are an important part of the economy, and I know in 
most places everyone rushes to have a national park in their 
backyard because of the economic impacts, as well as the 
environmental benefits that come forth.
    But I do want to make sure everyone knows we are very 
aware, and we truly are here to listen and understand, so that 
we can better make determinations. And I know this is the 
process that the Secretary and our park staff wish to move 
forward with.
    Again, we also, I mentioned to you, Delegate Christensen, 
we also plan to have a video that might be able to help in 
different areas, and maybe we can do more. Again, back to the 
tourism and that aspect, I think the heritage area also is 
something, in our experience with heritage areas, that has been 
very positive to communities. It connects things together and I 
think has a real positive, both a tourism and economic impact.
    I'd like to close at this point, but I do want to be 
available for questions. And I do have a great staff around me, 
and I do want to recognize our staff in the back. I don't 
always get the chance to say, but it's wonderful cultural and 
natural resources that we have in our parks, but nothing more 
important than our staff, they being a resource, and all of our 
partners sitting in this room. Thank you.
    [The prepared statement of Ms. Mainella follows:]

    Statement of Fran P. Mainella, Director, National Park Service, 
                    U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before your 
Subcommittee at this oversight field hearing on Christiansted National 
Historic Site, Buck Island Reef National Monument, and Salt River Bay 
National Historical Park and Ecological Preserve. I am accompanied by 
Joel A. Tutein, superintendent of these three units.
    We appreciate having the opportunity to learn more about the 
national park units here and to discuss the various issues associated 
with the St. Croix national park units, as we did two days ago with the 
St. John national park units. My statement will focus on the expansion 
of Buck Island Reef National Monument that occurred in 2001, the 
potential expansion of Salt River Bay National Historical Park and 
Ecological Preserve, and an update on the planning process that will 
set forth future management goals.
    Buck Island Reef National Monument was established by Presidential 
proclamation in 1961 to preserve one of the finest marine gardens in 
the Caribbean Sea. Located one and a half miles off of St. Croix, it 
has become the number one destination for visitors to St. Croix. The 
176-acre island and surrounding coral reef ecosystem support a large 
variety of native flora and fauna, and provide haven to several 
endangered and threatened species, including the hawksbill sea turtle 
and the brown pelican.
    Buck Island Reef National Monument was significantly expanded on 
January 17, 2001, by proclamation of President Clinton under the 
Antiquities Act. The proclamation added 18,135 acres of submerged lands 
to the monument, bringing the total acreage to just over 19,000 acres, 
all of which consist of submerged lands except for the 176-acre Buck 
Island. It eliminated all extractive uses, prohibited boat anchoring 
except by permit, and directed commencement of the planning process 
that will set forth the future management and use of the monument.
    Since the designation of the expanded Buck Island Reef National 
Monument last year representatives of the Virgin Islands government 
have raised numerous questions and concerns. In fact, on April 9, 2001, 
the Legislature of the Virgin Islands passed a resolution (No. 1609), 
expressing concern over the lack of adequate public participation in 
expansion of the monument, ownership of the submerged lands, the size 
of the monument, and potential impacts on the fishing and marine 
industries. I would like to briefly address those concerns.
    While we share concerns about the way in which these monuments were 
created, our job now is to ensure that we develop management plans in 
an open, inclusive, and comprehensive way. As stated by Secretary 
Norton on numerous occasions, the planning for the future management of 
these monuments will be a model of what we call the four C's: 
Consultation, Cooperation, and Communication, all in the service of 
Conservation. The Department of the Interior is committed to management 
and protection of the monuments consistent with the four C's and the 
purposes established in the proclamations. In response to this 
commitment, we published a notice in the Federal Register on April 24, 
2002, initiating a formal scoping period seeking public comment to 
identify issues to consider and analyze regarding management at the 
monument designations in the western states. The Department is 
currently reviewing the public comments. After reviewing all the 
comments on each monument, I believe most of the issues can be 
addressed through the management planning process, which will also 
include comprehensive public input. With regard to the monuments we are 
discussing today, we anticipate a similar public review process as soon 
as the issue of submerged lands ownership is resolved.
    We agree that Federal ownership or control of the l1and is 
necessary for an area to be designated as a national monument under the 
Antiquities Act. The General Accounting Office (GAO), at the request of 
Delegate Christian-Christensen, has reviewed the question of Federal 
ownership or control of the submerged lands in the expansion of Buck 
Island Reef National Monument. We understand that GAO will issue its 
opinion shortly.
    As to the size of Buck Island Reef National Monument, the Clinton 
Administration determined that an additional 18,135 acres was the 
smallest area needed to ensure the proper care and management of the 
resources to be protected and their long-term sustainability. The 
expansion area is large enough to provide a fish nursery that, in 
theory, should help assure that fishing will remain viable as an 
industry and a recreational activity here.
    With regard to the impact to the fishing and marine industries, 
although the loss of fishing territory could have an impact on the 
industry, we believe that it should be offset by the regeneration of 
stocks of fish that occur from the enhancement of the fish nurseries 
made possible by the expansion.
    The expanded Buck Island Reef National Monument should help provide 
for a recovery of coral reefs and associated habitats, facilitate an 
increase in the abundance of reef fish, sustain commercial and 
recreational fishing outside the monument, and enhance snorkeling and 
diving opportunities, which should contribute to economic growth from 
tourism. As with the Virgin Islands Coral Reef National Monument, the 
biological communities of the Buck Island Reef National Monument 
comprise a fragile, interdependent environment consisting of such 
habitats as coral reefs, sea grass beds, sand communities, algal plains 
and mangroves that are essential for sustaining and enhancing the 
tropical marine ecosystem.
    Just as the marine ecosystem around St. John is under chronic 
stress, so too is the ecosystem around Buck Island. Damage has been 
caused over the years from a variety of both natural forces and human 
activities. The ecosystem has been affected by hurricanes, diseases of 
various kinds, and coral predators. Years of coral diseases such as the 
White Band and Black Band disease, coral bleaching, and other coral 
predators have adversely affected the reef. Activities that contribute 
to the degradation of these marine resources include improper fishing, 
boating, and diving practices.
    Research over a long period of time has provided evidence that fish 
are not only smaller than in the past, but also that there has been a 
serial depletion of certain species, including the commercial 
extinction of the Red and Mutton Snappers, Nassau Grouper, Triggerfish 
(oldwife), and Rainbow and Midnight Parrotfish.
    Tourism is the mainstay of the economy here, and the national park 
units on both St. Croix and St. John contribute significantly to the 
tourism revenues generated on those islands. By implementing a 
collaborative approach to long-term management and protection for the 
spectacular resources managed by the National Park Service which lures 
tourists to the Virgin Islands, the monument designations provide an 
important way to help improve and sustain the Virgin Islands' economy. 
As stated earlier, the National Park Service has been preparing to 
undertake the planning process that will set forth the future 
management and use of the expanded monument, and we look forward to 
working collaboratively with the territorial government, our gateway 
communities, and other interested stakeholders in this endeavor.
    Mr. Chairman, I would now like to discuss Salt River Bay National 
Historical Park and Ecological Preserve. The park was established by 
Congress in 1992 to preserve and protect Salt River Bay's outstanding 
cultural and natural resources, to interpret the significance and value 
of those resources to the public, and to encourage scientific research. 
Consisting of 946 acres, the park contains some of the most important 
archaeological sites in the Virgin Islands, and has been designated a 
National Historic Landmark and National Natural Landmark.
    Since as early as 1880, Salt River Bay has been the focus of major 
archaeological investigations. The area was inhabited by the three 
major pre-Columbian pottery-making cultures in the Virgin Islands: the 
Igneri (AD 50-650), Taino (AD 650-1425), and Kalima or Carib (AD 1425-
1590). During his second voyage to the New World, Columbus sent 
soldiers ashore at Salt River Bay to search for fresh water and to make 
contact with natives. Beginning in the mid-1600's, there were 
successive attempts to colonize the island by the Dutch, English, 
French, French chapter of the Knights of Malta, and Danes. The site 
includes Fort Sale, an earthwork fortification from the Dutch period of 
occupation.
    The enabling legislation calls for Salt River Bay to be managed 
jointly by the National Park Service and the Government of the Virgin 
Islands. Management Objectives (1994) and a Land Protection Plan (1995) 
were approved by both the Governor of the Virgin Islands and the 
National Park Service. Land purchases in the last three years have 
brought the total proportion of the area within the park boundary that 
is under government ownership to about 87 percent. However, despite 
success in acquiring property for the park, neither the Federal 
Government nor the territorial government has established an 
operational presence at Salt River Bay because we have not yet 
identified a suitable site for that purpose.
    The Land Protection Plan identifies the waterfront as the most 
suitable area for establishing visitor services and most of the park's 
operations. However, there is no waterfront property available for that 
purpose at this time. Because we believe it is essential for us to 
establish a presence at the park, we have begun looking at sites that 
would serve as an initial base of operations. Recently, we have become 
aware of a willing seller of a parcel that includes a house large 
enough to serve as an interim administrative facility for the park. 
However, the property is partially outside the boundary of the park. 
Its acquisition would require boundary adjustment legislation and, of 
course, the appropriation of sufficient funds to acquire it. We 
appreciate the efforts Delegate Christian-Christensen has made toward 
that end, and we look forward to working with her on this matter.
    Finally, I would like to say a few words about Christiansted 
National Historic Site, the third national park unit on St. Croix. This 
site, which was established in 1952, was the first unit of the National 
Park System in the Virgin Islands. Christiansted was the capital of the 
Danish West Indies during the 18th and 19th Centuries, the height of 
the sugar industry on St. Croix. The seven-acre site consists of the 
wharf area and related historic buildings as examples of the town's 
economy and way of life in Danish times. It contains the oldest and 
largest former slave-trading complex under the U.S. flag. The wharf and 
its connection with international trade provided the practical 
education of the young Alexander Hamilton. This unit is an important 
draw for tourists to the Virgin Islands, not only for its history but 
also because it is a centerpiece for historic preservation in the 
territory.
    Mr. Chairman, this concludes my remarks. Superintendent Tutein and 
I will be happy to answer any questions you or your colleagues may 
have.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Fran.
    I guess there's a number of issues, and I again, I think 
that the main one is regarding the legality of the designation 
of the monument. And we had an incredible opportunity yesterday 
to go out scuba diving, seeing the reef, and enjoying it 
firsthand and recognize obviously the need to preserve and 
protect a beautiful national treasure.
    However, one of the things I've experienced personally in 
my district with these monument designations, it seems that 
some of them have been made too large or there were other 
agendas that were involved in the defining of the lines of the 
monument, and I'm wondering if that might not be the case in 
this one. As I understand here, the monument designation goes 
beyond--if you, to me, the picture on the left is a--I looked 
at that and I thought, well, you know, everything that is 
bright and shiny around that island ought to be protected. But 
when I looked to the actual designation it goes far beyond that 
into some pretty deep water.
    And I, after seeing the resource and seeing the 
information, I do believe that the monument lines should be 
adjusted. I have some concern about why does it go out so far? 
What's the intent there? And the example that I would use would 
be in the Sequoia monument that--this was in my district in 
California--was designated to protect about sixteen thousand 
acres of Sequoia trees that were included in the Sequoia 
National Park when it was originally designed, and so they took 
340,000 acres to protect the 16,000 acres of growth.
    Well, even in that case, if you even counted the watershed, 
if you were going to look for the minimum number of area that 
it would take to preserve it, that would be 120,000 acres. And 
many people feel that the reason that it was 340,000 acres was 
to exclude multiple use basically out of the entire Sequoia 
National Forest and use it as a tool to do that, beyond what 
was necessary to protect the monument, but rather had the 
agenda of doing other things.
    And I'm wondering if that's the case and the design of this 
monument here, and I know that we had a GAO study going on. I 
know in the Virgin Islands there's a possibility of lawsuits 
that follow that, depending on how the Park Service responds to 
the GAO's report, depending on what it says.
    I'd like to get your feelings on that, Fran, and maybe with 
your staff as well as--I can justify going beyond the--I don't 
know--
    Ms. Mainella. The current boundaries? The current monument 
size? Maybe just--
    Mr. Radanovich. The current, yeah. Once it drops off in 
deep water, I think it takes a little--it's a little more 
difficult to justify. And I'd like to get your response.
    Ms. Mainella. Well, as you know, I was not present during 
the time of this proclamation coming forth, and I have also 
asked that question of staff of why did it go quite as far? And 
again, we had some involvement. A lot of that was done, though, 
as you heard my testimony, I don't know that everyone had the 
full knowledge of all the rationale behind it. But there is 
some--definitely some, certainly beyond the boundaries that we 
currently have--
    Could you show, Joel, our current boundaries are right in 
that area--OK. Right there.
    And as you said, where you look into where that shelf is 
at--
    Mr. Radanovich. Which is the gray boundary.
    Ms. Mainella. Gray area, which is beyond which goes, I 
don't know the distance beyond there, but that certainly is a 
very, as we saw yesterday, a very sensitive area for 
protection, and the need of the great coral that we saw and 
everything of that nature.
    I'm going to ask Joel, the larger area that goes all the 
way out almost a 3-mile area I believe, and I'm not sure if 
that's a 3-mile--
    Mr. Tutein. Yes.
    Ms. Mainella. Because we didn't get into those waters, and 
most of those waters are quite deep as I understand it, but 
there is some--there is some issues there as well that probably 
were taken into consideration.
    And I ask Joel, would you please speak to that as best as 
you know. But again, I know that you were not--you know, that 
was--a lot of that happened in Washington.

 STATEMENT OF JOEL A. TUTEIN, SUPERINTENDENT FOR CHRISTIANSTED 
NATIONAL HISTORIC SITE, BUCK ISLAND REEF NATIONAL MONUMENT AND 
   THE SALT RIVER BAY NATIONAL HISTORIC PARK AND ECOLOGICAL 
                            PRESERVE

    Mr. Tutein. Good morning.
    Mr. Radanovich. Joel, state your name for the record.
    Mr. Tutein. Good morning. My name is Joel A. Tutein. I am 
the superintendent for Christiansted National Historic Site, 
Buck Island Reef National Monument and Salt River Bay 
Ecological Park.
    For the record, the question was asked, Why go out to the 
3-mile limit? I was part of the planning team that worked with 
the Department of Interior, and we felt at the time that's the 
smallest area to protect the migratory whales, migratory sea 
turtle that travel back and forth in that area. We know that 
there are pelagics that frequent that area because there are 
some fish-attracting device that's in there that has enhanced 
the pelagics coming to that area. There is no place on St. 
Croix currently where these animals are protected from taking. 
So it was the consensus that this area should be an area that 
was off limit to fishing to protect these migratory species 
from being caught.
    Mr. Radanovich. OK. Thank you, Joel.
    Ms. Mainella. So it's not the coral issue out there. It 
is--
    Mr. Tutein. Other species.
    Ms. Mainella. Other species.
    Mr. Radanovich. Other species.
    Mr. Tutein. Yes.
    Mr. Radanovich. And mainly the turtle I guess is what the--
is it other than the turtle?
    Ms. Mainella. The whale I think is the big issue, as I 
understand it. Migratory whales.
    Mr. Radanovich. Migratory whale as well? OK, thank you.
    With that, Donna, I think I'm going to turn it over to you 
for questions. We'll go round and round.
    Mrs. Christensen. OK, thank you. Thank you, Mr. Chairman, 
and that was actually my first question.
    The monument is to protect shoals, rocks undersea coral 
reef formations. So this actually goes beyond the actual 
proclamation.
    Fish-attracting device, could that be moved out of that 
area?
    Mr. Tutein. Again, as Director Mainella said, we would have 
to utilize the four Cs. Once the GAO report is out, we will 
then formulate a committee. It will take some time, but we will 
come to consensus as to what is done with those devices.
    Mrs. Christensen. I have a question that is more related to 
the Salt River area, because as I looked over some of the 
testimony of some of the other people who will be testifying, I 
saw that at least one person, in referring to the Salt River 
Historical Park and Ecological Reserve, said that little or no 
attention was being given to the concept of helping the Virgin 
Islands Government--and I'm reading it here--establish its 
Territorial park system administrative management and 
enforcement apparatus in a meaningful way in terms of training 
and so forth.
    And I wondered how you would respond to that.
    Mr. Tutein. Well, thank you.
    Mrs. Christensen. Because it's supposed to be a cooperative 
agreement. There are supposed to be cooperation and support.
    Mr. Tutein. Absolutely.
    Mrs. Christensen. And I'd like you to add to that while you 
have the mike.
    Mr. Tutein. The legislation back in 1992 that created Salt 
River spoke of joint management. As a matter of fact, the 
National Park Service is supposed to pay for 50 percent of the 
training. The Park Service has been very involved in Salt 
River. We've been very active in our land purchasing. We 
purchased approximately 87 percent of the acreage that needs to 
be purchased. We had a commission that expired I believe 
February 24th of this year. The commission had a life of 10 
years.
    We have written four separate Cooperative Agreements that 
we have submitted to the Government of the Virgin Islands in 
hope that this Cooperative Agreement would be the vehicle in 
which the Territory would identify the personnel that they want 
to train so that the National Park Service could then go ahead 
and enter into a partnership of training.
    The congressional legislation only talks about that the 
Park Service is responsible for 50 percent of the training. The 
Cooperative Agreement would be the vehicle that we would use to 
funnel the money to the Territory once the employees are 
identified for training.
    Mrs. Christensen. So you're saying that you've attempted to 
make that kind of training and support available, but it's 
depending on that signing of that MOU?
    Mr. Tutein. The signing of the Cooperative Agreement would 
be very beneficial because it's not the Park Service's 
responsibility to identify the employees in the Territorial 
Government for training. It is their responsibility to come to 
us and say, These are the employees that we want trained. And 
then it's our responsibility to fund 50 percent of that 
training.
    Mrs. Christensen. And the Commission is made up of--because 
now you have to have new nominees to the Commission--
    Mr. Tutein. I believe that the director and the secretary 
would have to take that under advisement since the Commission 
has expired, and an evaluation will probably be done. But if 
that was to be implemented again, what would happen is the 
Government would appoint four members and the Secretary of the 
Interior would appoint four.
    Mrs. Christensen. Thank you. Let me go on to another 
question, back to Buck Island again. How, in your view, would 
the Buck Island Monument impact fishing and the fishermen on 
St. Croix? How would you respond to the fishermen who say--many 
of whom are in your family--
    [Laughter.]
    Ms. Mainella. He's a fisherman himself.
    Mrs. Christensen. --who say it would harm their way of 
life, or kill their way of life?
    Mr. Tutein. Well, my father's here today, and my brother, 
sitting in the audience behind me, and I hope by the time I am 
finished with this response I will still be part of the family.
    [Laughter.]
    Mr. Tutein. You know, I'm 51 years old. I've been a part of 
the marine scene all my life, and my father has supported his 
family through fishing and through marine resources, and also 
through the Government of the Virgin Islands as a coxswain of 
the Virgin Islands Port Authority. We have seen the decline in 
fishing over the years; size of fish, species of fish. We need 
to have an area that would allow fish stock to regenerate. 
Currently in St. Croix there is no area to support a nursery 
for regeneration of fishing.
    It will impact the fishermen, yes, absolutely. But the 
long-term benefits I think will outweigh the short-term losses. 
And at some point, and I think we've reached to the point, 
where we have to bite the bullet. We cannot allow continued 
serial depletion of our fish stocks.
    Mrs. Christensen. Are there--just as follow-up--are there 
fishermen that only use that particular area? How many 
fishermen are affected, and do they fish solely in that area?
    Mr. Tutein. Based on my 25 years of experience with the 
National Park Service, I've patrolled for 19 years, I got to 
know firsthand the fishing community at Buck Island, and I can 
only speak to the 880 acres monument that still exists, and I 
would say perhaps about twelve families fish in that area. The 
expanded area, I couldn't answer that. I really don't know. But 
I can tell you that when the monument designation first came 
out, a lot of fishermen were upset because they thought that we 
were going out to Scotch Bank, which is to the east of--
    Ms. Mainella. I'll point. You showed me. I'll be your 
assistant today.
    Mr. Tutein. Right in there.
    The fishing community believed that we were going to take 
over Scotch Bank, which is the upper long bank, which is a very 
popular fishing area. But I think that once they found out that 
it was just this area--and you know, that area might look big, 
but it's only really 5 percent of the total fishable shelf in 
St. Croix. Five percent that we want to protect. And that 5 
percent will regenerate, we think, the fish stock for the 
entire St. Croix shelf.
    Mr. Radanovich. OK. It seems to make--the thing that 
concerns me is that, at least by my observation of what the 
Antiquities Act is supposed to be used for, is that it's 
supposed to be used to protect historic and scientific objects 
in the monument. Now, I can justify expanding the monument to 
protect the reefs. I mean that makes sense to me. But I'm not 
sure it's within the jurisdiction of a monument to be 
protecting species, unless somebody can further illuminate this 
for me.
    And then that does bring the issue about the Territorial 
Government of the Virgin Islands being responsible for the 
fishing off their own waters. Has there been what you would 
then conclude, is it that there's been a failure of the 
Territorial Government to protect the fish off its waters, and 
that's why it's necessary for the park to come in and do the 
job that they failed to do? Is that--
    Ms. Mainella. At this point I could not answer any of that 
aspect, you know, as far as even the legal determination on 
what can be in a monument as far as the purpose, and we can 
take that back to our legal--
    Mr. Radanovich. If you can give me an answer.
    Ms. Mainella. I will be glad.
    Danny, if you'll help me? Thank you so much.
    Again, we want to continue to work in wonderful partnership 
with the Virgin Islands to further enhance that partnership, 
and I don't know how all the fishing relationships worked in 
that regard.
    Mr. Radanovich. Right.
    Ms. Mainella. So again, that would be something I hope that 
we can all look into in the future.
    Mrs. Christensen. If the Chairman--
    Mr. Radanovich. Sure.
    Mrs. Christensen. You know, we're a relatively resource-
poor government, so any failure would not be for lack of trying 
or applying the resources that we have. But we're very resource 
limited.
    Mr. Radanovich. Uh-huh.
    Mrs. Christensen. And probably the Commissioner will speak 
to that.
    Mr. Radanovich. OK. And I'm not casting blame on anybody. 
I'm just trying to understand this thing.
    Again, it's been my experience on monument designations is 
that sometimes they far overreach the idea of the monument that 
they're designed to protect. And I think perhaps, on 
maintaining fisheries, if there can be a relationship that the 
Park Service, I know, seeks in communities that are involved in 
every monument across the country, that perhaps what can be 
done on that--again, I don't understand fishing communities 
that well because I represent a land-locked district, but--and 
I understand that there's more than just the Territorial 
Government of the Virgin Islands fishing in these waters, so 
it's probably a little more complex than I know. But it seems 
to me that there ought to be perhaps a more--I hate applying 
the law in areas where it shouldn't be applied for other 
purposes, and that may be what's happening here.
    Ms. Mainella. Again, I think the best thing, one of the 
things that this trip is such a great opportunity, that we get 
to know people here, those of us in Washington in particular, 
and be able to go back and communicate and of course further 
enhance all our understanding of what everyone's role should be 
and can be, and how we can work better together.
    Mr. Radanovich. Very good. If I may, I'm going to ask one 
more question. I know--this is on Salt River, on the Salt River 
project, which we visited yesterday, and again a very beautiful 
site and a historic site.
    Is the purpose of the Salt River--what do you call it, the 
project or the monument?
    Ms. Mainella. Preserve.
    Mr. Radanovich. Historical--
    Mrs. Christensen. We are expanding the boundaries of that.
    Mr. Radanovich. Is it a monument or preserve?
    Ms. Mainella. It's a historical park and ecological 
preserve.
    Mr. Radanovich. OK. OK. Now, the historical part, of 
course, Christopher Columbus landed there in his second voyage 
to this part of the world, and that's the historic element. And 
the settlements that were there, was it the Carib Indians.
    Mr. Tutein. Carib.
    Ms. Mainella. All the different Indians, archeological 
history.
    Mrs. Christensen. If the Chairman would yield, I believe 
that just about every nation that came here had a settlement in 
that area.
    Mr. Radanovich. Oh, is that right? OK, so it's, in addition 
to Columbus, many more.
    What is the nature of the wildlife protection element of 
this project? Are there reefs that need to be protected out 
there as well, or is it--
    Ms. Mainella. My understanding, there's reefs and 
everything, but I want to turn it to Joel to--but I know that 
again, Bill that was here with us gave us some interpretation 
on the archeological aspects going back to 50 A.D., and I know 
that's a big impact. And I'll turn it to Joel on more than 
that.
    Mr. Tutein. Thank you, sir.
    The protection, we have one of the deepest reef formation 
right off the Salt River Bay. You can see it here on your map 
on the photograph that--
    Ms. Mainella. That one I can't point well to.
    Mr. Radanovich. That will be coral reef formation?
    Mr. Tutein. Yes, it's also coral reef formation. It's one 
of the oldest studied areas along with Buck Island for marine 
research. NOAA had a submarine canyon based where aquanauts 
performed experiments until 1989 when Hurricane Hugo came and 
destroyed the facility.
    So the natural resources are plentiful. You also have 
nesting of brown pelican. You have sea turtle nesting, as well, 
that takes place on the beach on both side, on the Judith's 
Fancy which is on the left side, and on the Salt River Bay 
side, which is on the right side.
    Mr. Radanovich. And the issue there really is not any land 
acquisition other than a bill regarding the building there that 
we visited yesterday.
    Mrs. Christensen. Yeah, it would expand the boundaries to 
provide the visitors center and management offices.
    Mr. Radanovich. Correct. And that building would be used as 
a visitors center, not just a residence? Because if it's going 
to be used as a residence, I want it to be my residence.
    [Laughter.]
    Ms. Mainella. We would, if that is able to move forward, 
with the help of the delegate and all of you, with boundary 
expansion so that could possibly be included, because it's just 
outside of our boundary right now, I believe, it would allow us 
to make that as an interpretive center, and also have a chance 
to--but again, we want input from the community before we make 
a final determination, but our goal was to help us better 
interpret an area, and that would be what we would be seeking. 
I don't think it's--
    Joel, it's not your home, is it? No. OK, I just wanted to 
check.
    Thank you.
    Mr. Radanovich. OK. Thank you very much. Any other 
questions?
    All right. Thank you very much. I think we're done, and 
we're going to move on to the next panel.
    [Recess.]
    Mr. Radanovich. OK. Good morning. I want to welcome Mr. 
Maxwell McIntosh, the Salt River National Historic Park 
Commission; the Honorable Dean Plaskett, who's the Commissioner 
of the Department of Planning and Natural Resources.
    Mr. Plaskett, welcome. We appreciated your written 
testimony submitted the other day at St. John, and we're glad 
to have you here for questions. I understand that you need to 
be out of here by 11 o'clock, so I'm going to adjust the way we 
do things a little bit by allowing you to give your oral 
testimony now, and then we will question you and then move on 
to Mr. McIntosh, and that will give you the opportunity to 
leave when you need to.

 STATEMENT OF DEAN PLASKETT, COMMISSIONER OF THE DEPARTMENT OF 
                 PLANNING AND NATURAL RESOURCES

    Mr. Plaskett. Thank you very much, Mr. Chair. Good morning, 
honorable representatives to Congress and to all present or 
otherwise listening. My name is Dean Plaskett and I--
    Mr. Radanovich. Dean--
    Can people hear? And I need help with the audience. Raise 
your hand if you can't hear.
    Dean, if you'd speak more directly into that mike it would 
help.
    Mr. Plaskett. I'm sorry. I am Dean Plaskett, Commissioner 
of the Department of Planning and Natural Resources.
    I have been invited here today to render testimony on 
behalf of the Government of the Virgin Islands with regard to 
former President Clinton's creation of national monuments here 
in the United States Virgin Islands.
    Pursuant to the Antiquities Act, the President of the 
United States has the authority to designate national monuments 
on land ``owned or controlled by the Government of the United 
States.'' This is found in 16 U.S.C.A. Section 431. However, 
because the Virgin Islands owns virtually all of the submerged 
lands that President Clinton designated as national monument 
lands, he did not have the authority to make such designations 
under the Antiquities Act. Furthermore, President Clinton's 
proclamation regarding the Buck Island Reef National Monument 
breaches a contract between the Virgin Islands and the United 
States entered into in 1961. In addition, the Department of 
Planning and Natural Resources and the Territory as a whole 
believe that President Clinton's proclamation also violated 
several other Federal statutes and the Constitution.
    We feel President Clinton acted beyond the authority 
conferred by the Antiquities Act. Since June 8th, 1906 the 
Antiquities Act has authorized the President of the United 
States to declare by public proclamation ``objects of historic 
or scientific interest that are situated upon the lands owned 
or controlled by the Government of the United States to be 
national monuments.'' Thus because the U.S. Government did not 
own the land designated by President Clinton as national 
monument lands, President Clinton did not have the authority to 
designate such lands, and such designations should be void ab 
initio. As authority we refer to the United States v. 
California, 436 U.S. 32, page 35n.7, which holds that, 
``because tidelands within the monument were not owned or 
controlled by the United States in 1938 or in 1949, Presidents 
Roosevelt and Truman could not have reserved them by simply 
issuing proclamations pursuant to the Antiquities Act.
    Of course this was another instance where national 
monuments had been created.
    In 1974 Congress passed, and the President signed the 
Territorial Submerged Lands Act which provides in part: 
``Subject to valid existing rights, all right, title and 
interest of the United States and land permanently or 
periodically covered by tidal waters up to but not above the 
line of mean high tide and seaward to a line of three 
geographical miles distant from the coastlines of the 
territories of Guam, the Virgin Islands and American Samoa, are 
hereby conveyed to the governments of Guam, the Virgin Islands, 
and American Samoa, as the case may be, to be administered in 
trust for the benefit of the people thereof.''
    That is found at 48 U.S.C.A. Section 1705(a). Thus, 
pursuant to the Territorial Submerged Lands Act, the United 
States transferred certain submerged lands to the Virgin 
Islands. However, the Territory acknowledges that such transfer 
had its limitations:
    ``There are excepted from the transfer made by subsection 
(a) hereof: All submerged lands adjacent to property owned by 
the United States above the line of mean high tide; All 
submerged lands designated by the President within 120 days 
after October 5th, 1974; All submerged lands within the Virgin 
Islands National Park established by Section 398 to 398(b) of 
Title 16, including lands described in Sections 398(c) and 
398(b) of Title 16. All submerged lands within the Buck Island 
Reef National Monument as described in Presidential 
Proclamation 3448 dated December 28th, 1961.''
    This dispute over ownership of the submerged lands 
underlying the Virgin Islands Coral Reef National Monument and 
expanded Buck Island Reef National Monument rests in these 
exceptions.
    Specifically, the U.S. Government believes that it owns the 
newly designated submerged lands based upon the exception 
contained in 48 U.S.C.A. 1705(b)(ii). In a September 6th, 2000 
memo from the Department of Interior senior counsel Karen 
Kovacs to Secretary Babbitt, Ms. Kovacs wrote that, ``in 1974 
the Department of the Interior reserved 37,000 acres of 
submerged lands pursuant to the exception regarding adjacency 
of Federally owned upland.'' However, in our opinion, such 
reasoning is substantially flawed.
    On February 1st, 1975, President Ford signed Proclamation 
4346 which withheld from transfer to the Virgin Islands 30 
acres of submerged lands contiguous to the Buck Island Reef 
National Monument, thereby expanding the monument pursuant to 
the exception contained in 48 U.S.C.A. Section 1705(b)(vii). As 
set forth above, this exception allowed the President to 
withhold additional submerged lands from being transferred to 
the Virgin Islands if the President designated such lands 
within 120 days of October 5th, 1974. If submerged lands were 
excepted from transfer under one of the other paragraphs of 
Section 1705(b), there would be no need for President Ford to 
act pursuant to Section 1705(b)(vii) to withhold such lands.
    Mr. Radanovich. Mr. Plaskett, could I remind you that the 
red light is on. If you could sum up briefly. I don't know how 
many more pages you have there.
    Mr. Plaskett. Certainly. The concern that I have, Mr. 
Chairman, I respect your position here, but the legal case the 
Government has made has never been presented to the people of 
the Virgin Islands. This is the first opportunity that we're 
having to state on the record our full concern with regards to 
this particular issue. We have heard a number of issues being 
raised with regards to the position of the Government, and I 
thought that it would be important for us to detail 
specifically what our position is in this regard. However, I 
respect your position on this and we will--
    Mr. Radanovich. And your written testimony does, but I'm 
getting lost in all the bill title numbers.
    Mr. Plaskett. I understand. And again, you know, I think 
we're doing this for posterity. The record must reflect what 
our position is clearly. And, you know, I understand your 
position that you have my testimony in writing.
    The only thing I will add, because I think that the legal 
argument needs to be made in this regard, and the people need 
to understand what our position is. Our position is not one of 
emotion, or one just saying the land belongs to the people of 
the Virgin Islands, and that's that. We have done substantial 
research with regards to this, and we think that our position 
ought to get the airing that it deserves.
    With regards to our resources, I understand that there have 
been discussion with regards to the size of the monument, and I 
would only like to add that the Virgin Islands Government has 
made some substantial steps with regards to preserving our 
resources, the most important of which in my opinion is our 
creation of the Territorial Marine Park System, which in fact 
will provide for some of the protections that I heard you 
asking the Park Service about. And in fact--
    Mr. Radanovich. Territorial park system?
    Mr. Plaskett. Territorial Marine Park System. That's part 
of the presentation that we made. We've started out with the 
east end of St. Croix, and we have received some significant 
funding. As a matter of fact, we had some startup funding of 
close to $200,000, $225,000 from President Clinton's Coral Reef 
Task Force for the creation of this Territorial Marine Park 
System. And we are--our Coastal Zone Management Commission has 
just last week approved the plans that we have put in place for 
the Territorial Marine Park System.
    You also talked about management of our fisheries. I'm sure 
that some of the other speakers will be able to enlighten you 
more with regards to the efforts that the Territory has 
undertaken over many years with regards to the protection of 
our fisheries and our fish resources. And so there has been a 
significant local effort in that regard, and so I think that 
those issues ought to be considered.
    I'd like to thank you for coming to the Virgin Islands and 
taking the time out of your busy schedules to listen to our 
concerns. I hope that we would have the opportunity to present 
our entire case at some other point maybe. I think that, again, 
while there may be a lot of quotations on here, this matter 
transpired back in the late sixties. I think, if I recall 
correctly, the proclamation signed by President Ford was in 
1975. I'll admit at that time I was 10 years old, so, you know, 
the only way that we can put a face on what actually transpired 
is by going through this thing meticulously and explaining what 
we've been able to find.
    Mr. Radanovich. Can I ask you a question? I know you 
don't--you officially represent the Territory of the Virgin 
Islands, but there's more people involved in that as well, but 
if this doesn't work out and this boundary line holds, do you 
think that it would be the--do you think the Territory's going 
to sue the Federal Government over it?
    Mr. Plaskett. We would have to take a look at the opinion 
that is rendered by the GAO and consult with the Governor and 
all of the state codes to make a determination as to what our 
next step would be.
    I think that, you know, I feel personally that we have 
presented a very strong argument, and I think that that is one 
of the reasons that the GAO has now taken over a year to review 
this matter. If it was a clear-cut matter, it would have been--
the decision would have been rendered some time ago. But the 
fact is this is a complicated matter. It goes over decades, and 
we had to do research in President Ford's library to come up 
with some of these things. We've got quotations and citations 
to letters from Antonin Scalia, who was the--I think he was 
solicitor at the time, or Assistant Attorney General or 
something at the time, regarding this very same matter.
    Mr. Radanovich. Is it your--do you object to any expansion 
of the monument whatsoever, or do you think that there's--you 
just don't think it should be as big as it is or--
    Mr. Plaskett. There's a baseline issue. If the land belongs 
to the government, the people of the Virgin Islands, then I 
object to any formation of a national monument. But if it's 
Federal lands, we would just ask that consideration be given to 
local fishermen and to the concerns that we have raised, 
particularly with the Territorial Marine Park System. We have 
prepared the park system, prepared both alternatives. That is, 
if it is determined that the land belongs to the people of the 
Virgin Islands, there is plans to include that as part of the 
Territorial Marine Park System. If not, we have come up with a 
mechanism to entertain the park with regards to what they're 
trying to accomplish and what we're trying to accomplish.
    Mr. Radanovich. Donna?
    Mrs. Christensen. Thank you.
    Just a few questions, because the Chairman did ask some of 
the questions that I had also wanted to ask you. But shortly 
after assuming office, Secretary Norton did write to all of the 
Governors of the states where monuments had been declared 
asking for their recommendations regarding those monuments, and 
Governor Turnbull did respond. I'm assuming that your office 
had some role in preparing that response. Were all of the 
issues that you raised here today also included in that letter?
    Mr. Plaskett. I--
    Mrs. Christensen. Maybe it does?
    Mr. Plaskett. As a matter of fact, no. I think these issues 
were raised in a letter that we sent to the GAO--
    Mrs. Christensen. OK.
    Mr. Plaskett. --in defense of our position.
    Mrs. Christensen. That was my next question. You were able 
to submit these same arguments to the GAO--
    Mr. Plaskett. Yes, we were.
    Mrs. Christensen. --in preparation for their response.
    Going back to the Section 1705(b)(ii) of the Territorial 
Submerged Lands Act, what, in your view, what was the purpose 
of that exception, and do you think it has no effect, or is it 
just poorly drafted language? What--how do you see that?
    Mr. Plaskett. That section particularly concerns us, 
because as we argue in our brief, the term the ``line of mean 
high tide'' appears to have been neglected in the consideration 
of the government, the Federal Government, in the creation of 
these monuments. Because particularly in the situation with 
Buck Island, there's no line of mean high tide anywhere close 
to that creation. The only adjacent lands around the Buck 
Island expansion are submerged lands. And the actions of the 
Clinton Administration rendered that particular requirement 
superfluous, because again, they talk about the line of mean 
high tide. But except for certain--except for the instances of 
Chocolate Hole and some other situations in St. John, there is 
no line of mean high tide adjacent to these monuments that have 
been created.
    Mrs. Christensen. Assume for a moment that it was 
determined at some point, either just by through the 
collaboration or through a court decision, that the lands were 
determined to be Federal. How does the restricting, the 
prohibition against restricting existing fishing and 
recreational privileges of the Virgin Islands inhabitants in 
and around Buck Island, how does that then affect the 
management of that?
    Mr. Plaskett. Well, we also refer to in our brief a 1936, 
we consider it to be contract, that prohibited any further 
implementation of restrictive rules and regulations surrounding 
Buck Island. It has been my experience, and I've been able to 
learn since this issue has come to the fore, that there are a 
significant number of fishermen who utilize that area.
    We have registered, as I think Mr. Tutein was correct, that 
there's only a certain number of families who do this on a 
regular basis, and this is their traditional fishing grounds. 
However, there is indication in our Fish and Wildlife Division 
that a number of other fishermen utilize that area.
    So if there is going to be the sort of no-take restrictions 
that have been proposed, you know, I agree with the Park 
Service that we're along way from a management plan on this. 
And so I would--I would caution people not to overreact to the 
possibility of there being a no-take. But if in fact there was 
a no-take, I think this would be a significant no-take area.
    And we have, as part--for example, as part of our creation 
of the Territorial Marine Park System, we have addressed and 
spoken with a number of fishermen and they have participated in 
the meetings and so forth that led to the creation of the 
Territorial Marine Park Plan, and they indicated to us that 
this area is an important part of their fishing grounds.
    Mrs. Christensen. Thank you. I would just--I realize we're 
time limited, our time is limited here. There may be some 
further questions that we would want to submit to the 
Commissioner in writing.
    And I wanted to assure you, again, that everything, even 
though you were not able to orally give your full testimony, 
it's all included in the official record.
    Mr. Plaskett. Again, you know, I think that the concern 
that we--that I have is that we have not had the opportunity 
to--at least the Administration has not had the opportunity to 
fully air our position with regards to this. A number of the 
people that you heard speak about this issue are not 
necessarily government officials per se, and are only reporting 
what they may have heard. I wanted an opportunity to completely 
state what the Government of the Virgin Islands' position is 
with regards to this issue, because I think that it is a 
complex situation. It's not as simple as, you know, some would 
have us believe.
    Mrs. Christensen. Are you saying that this is the full 
position of the Government, or that there remains still further 
issues that you want to raise?
    Mr. Plaskett. Well, I think at this time this is the full 
position of the Government of the Virgin Islands. However, 
again, it depends on what the GAO response would be.
    Mr. Radanovich. Right.
    Mr. Plaskett. If they raise issues that we think are 
incorrect, or that needs to have additional light shed upon, we 
would like the opportunity to at least--and then I guess that 
will be part of our consideration as to what our next step 
would be because, you know, dependent upon what their opinion 
is.
    [The prepared statement of Mr. Plaskett follows:]

         Statement of Dean C. Plaskett, Esquire, Commissioner, 
              Department of Planning and Natural Resources

    Good afternoon Honorable Representatives to Congress and to all 
present or otherwise listening. My name is Dean C. Plaskett, Esquire, 
Commissioner of the Department of Planning and Natural Resources.
    I have been invited here today to render testimony on behalf of the 
Government of the Virgin Islands with regard to the former President's 
creation of National Monuments here in the United States Virgin 
Islands.
    Pursuant to the Antiquities Act, the President of the United States 
has the authority to designate national monuments on land ``owned or 
controlled by the Government of the United States.'' 16 U.S.C.A. 
Sec. 431. However, because the Virgin Islands owns virtually all of the 
submerged lands that President Clinton designated as national monument 
lands, he did not have the authority to make such designations under 
the Antiquities Act. Furthermore, President Clinton's proclamation 
regarding the Buck Island Reef National Monument breaches a contract 
between the Virgin Islands and the United States, entered into in 1961. 
In addition, the Department of Planning and Natural Resources 
(``DPNR'') and the Territory as a whole, believe that President 
Clinton's Proclamations also violated several other Federal statutes 
and the Constitution.
A. President Clinton Acted Beyond The Authority Conferred by the 
        Antiquities Act
    Since June 8, 1906, the Antiquities Act has authorized the 
President of the United States to declare by public proclamation 
``objects of historic or scientific interest that are situated upon the 
lands owned or controlled by the Government of the United States to be 
national monuments.'' Id. (emphasis added). Thus, because the United 
States Government did not own the lands designated by President Clinton 
as national monument lands, President Clinton did not have the 
authority to designate such lands and such designation should be void 
ab initio. See United States v. California, 436 U.S. 32, 35n.7 
(1978)(``[b]ecause tidelands within the Monument were not 'owned or 
controlled' by the United States in 1938 or in 1949, Presidents 
Roosevelt and Truman could not have reserved them by simply issuing 
proclamations pursuant to the Antiquities Act'').
    In 1974, Congress passed and the President signed the Territorial 
Submerged Lands Act (``TSLA''), which provides:
        Subject to valid existing rights, all right, title, and 
        interest of the United States in lands permanently or 
        periodically covered by tidal waters up to but not above the 
        line of mean high tide and seaward to a line three geographical 
        miles distant from the coastlines of the territories of Guam, 
        the Virgin Islands, and American Samoa are hereby conveyed to 
        the governments of Guam, the Virgin Islands, and American 
        Samoa, as the case may be, to be administered in trust for the 
        benefit of the people thereof.
    48 U.S.C.A. Sec. 1705(a). Thus, pursuant to the TSLA, the United 
States transferred certain submerged lands to the Virgin Islands. 
However, the Territory acknowledges that such transfer had its 
limitations:
        There are excepted from the transfer made by subsection (a) 
        hereof-
        (ii) all submerged lands adjacent to property owned by the 
        United States above the line of mean high tide;

                                 * * *

        (vii) all submerged lands designated by the President within 
        one hundred and twenty days after October 5, 1974;

                                 * * *

        (x) all submerged lands within the Virgin Islands National Park 
        established by section 398 to 398b of title 16, including lands 
        described in sections 398c and 398d of title 16; and
        (xi) all submerged lands within the Buck Island Reef National 
        Monument as described in Presidential Proclamation 3448 dated 
        December 28, 1961.
    48 U.S.C.A. Sec. 1705(b). The dispute over ownership of the 
submerged lands underlying the Virgin Islands Coral Reef National 
Monument and expanded Buck Island Reef National Monument rest in these 
exceptions.
    Specifically, the United States Government believes that it owns 
the newly designated submerged lands based upon the exception contained 
in 48 U.S.C.A. Sec. 1705(b)(ii). In a September 6, 2000 memo from DOI 
senior counsel Karen Kovacs to Secretary Babbitt (``Kovacs 
Memorandum''), Ms. Kovacs wrote that ``'[i]n 1974, DOI reserved 
approximately 37,000 acres of submerged lands pursuant to the exception 
regarding adjacency of Federally owned upland.''' Chris Larson, Sen. 
Cole Plans Hearings on Ownership of Monument Land, The Daily News, Feb. 
20, 2001, at 4 (quoting Kovacs Memorandum). However, in our opinion, 
such reasoning is substantially flawed.
    On February 1, 1975, President Ford signed Proclamation 4346, which 
withheld from transfer to the Virgin Islands thirty acres of submerged 
lands contiguous to the Buck Island Reef National Monument, thereby 
expanding the Monument pursuant to the exception contained in 48 
U.S.C.A. Sec. 1705(b)(vii). As set forth above, this exception allowed 
the President to withhold additional submerged lands from being 
transferred to the Virgin Islands if the President designated such 
lands within one hundred twenty days of October 5, 1974. If submerged 
lands were excepted from transfer under one of the other paragraphs of 
Section 1705(b), there would be no need for President Ford to act 
pursuant to Section 1705(b)(vii) to withhold such lands. It is clear 
that President Ford believed that the submerged lands contiguous to 
Buck Island Monument were not excepted from transfer under any other 
provision of Section 1705(b):
        [t]hese thirty acres of submerged lands are presently owned in 
        fee by the United States. They will be conveyed to the 
        Government of the Virgin Islands on February 3, 1975, pursuant 
        to [48 U.S.C.A. Sec. 1705(a)], unless the President, under 
        Section [48 U.S.C.A. Sec. 1705(b)(vii)] of that Act, designates 
        otherwise.

                                 * * *

        The aforementioned thirty acres of submerged lands are 
        contiguous to the site of the Buck Island Reef National 
        Monument.
    Proclamation No. 4346, 40 Fed. Reg. 5,127 (Feb. 4, 1975). Moreover, 
this view also was shared by others in his Administration, including 
Assistant Attorney General Antonin Scalia:
        Unless the proclamation is issued by Sunday, February 2, 1975, 
        the lands to be added to the National Monument will 
        automatically be transferred to the Government of the Virgin 
        Islands pursuant to Section 1(a) of Public Law 93-435 (88 Stat. 
        1210).
    Letter from Antonin Scalia, Assistant Attorney General, Office of 
Legal Counsel, to President Ford, dated Jan. 31, 1975; see also Letter 
from William M. Nichols, Acting General Counsel, Office of Management 
and Budget, to Attorney General, dated Jan. 29, 1975; Letter from 
Rogers Morton, Secretary of Interior, to President Ford, dated Jan. 22, 
1975 (``It is essential that title to these lands be reserved. Under 
the provisions of P.L. 93-435 (October 5, 1974), these lands will 
automatically be transferred to the government of the Virgin 
Islands.''). These very submerged lands that President Ford and his 
Administration expressly interpreted as being subject to transfer to 
the Virgin Islands without the President's intervention do not differ 
in character from the vast majority of lands the Clinton Administration 
claimed were never transferred to the Virgin Islands in 1975. Thus, 
there appears to be a direct contradiction between the Ford and Clinton 
Administrations with regard to how the exceptions to the TSLA should be 
interpreted. However, it is President Ford who signed the TSLA on 
October 5, 1974, not the DOI employees in the Clinton Administration 
who are apparently now trying to rewrite history. ``The President, 
after all, has a part in the legislative process except as to bills 
passed over his veto, and his intent must be considered relevant to 
determining the meaning of a law in close cases.'' United States v. 
Tharp, 892 F.2d 691,695 (8th Cir. 1990). This is not simply a matter of 
Presidential interpretation of a Federal law. It is a matter of 
Presidential interpretation where Congress explicitly delegated to a 
particular President, for a one hundred twenty day period, the 
authority to interpret the TSLA and to except from transfer additional 
submerged lands pursuant to Section 1705(b)(vii). President Ford's 
interpretation is unambiguous. He believed that lands similar to those 
he withheld in 1975, now claimed to be Federal lands by the Clinton 
Administration, were transferred to the Virgin Islands in 1975 when he 
decided not to except them from transfer.
    Perhaps even more significant than the Ford Administration's 
interpretation of the TSLA is the weakness of the Clinton 
Administration's rationale for Federal ownership of the submerged 
lands. According to the Kovacs Memorandum, DOI believed that the 
submerged lands around the Buck Island Reef National Monument and the 
National Park around St. John were withheld from the Virgin Islands 
pursuant to the TSLA provision that excepts from transfer ``all 
submerged lands adjacent to property owned by the United States above 
the line of mean high tide,'' 48 U.S.C.A. Sec. 1705(b)(ii). The problem 
with this theory is that almost all of the lands designated by 
President Clinton are not adjacent to uplands owned by the United 
States. In fact, all of the submerged lands designated to enlarge the 
Buck Island Reef National Monument are adjacent to other submerged 
lands, not uplands. With the exception of certain designated submerged 
lands in Hurricane Hole, Coral Bay, and Round Bay, none of the 
submerged lands designated as the Virgin Islands Coral Reef National 
Monument are adjacent to uplands owned by the United States. These 
submerged lands all border other submerged lands within the Virgin 
Islands National Park. The flaw in Ms. Kovacs' analysis is that it 
would render superfluous the ``above the line of mean high tide'' 
language contained in Sec. 1705(b)(ii). As you know, the Federal courts 
follow the ``well-established maxim of statutory construction that 
courts should avoid interpretations that render a statutory provision 
superfluous.'' Davis County Solid Waste Management v. EPA, 101F.3d 
1395, 1404 (D.C. Cir. 1996)(citing Pennsylvania Dept. of Pub. Welfare 
v. Davenport, 495 U.S. 552,562,110 S.Ct. 2126, 2132,109 L.Ed.2d 588 
(1990); Alabama Power Co. v. EPA, 40 F.3d 450,455 (D.C. Cir. 1994)); 
see Appalachian Power Co. v. EPA, 135 F.3d 791,819 (D.C. Cir. 1998); 
Asiana Airlines v. FAA, 134 F.3d 393,398 (D.C. Cir.1998)(cardinal 
principle of interpretation requires us to construe statute 'so that no 
provision is rendered inoperative of superfluous, void or 
significant''')(citations omitted).
    President Clinton violated another requirement of the Antiquities 
Act as well. The President is required to confine the designation to 
the smallest area compatible with the proper care and management of the 
objects to be protected.'' 16 U.S.C.A. Sec. 431. Much of the area 
designated by President Clinton has no relationship with the proper 
care, management and protection of the reef resources. In fact, 
President Clinton simply included within his designations all lands the 
United States claimed it owned and controlled in the vicinity. Thus, it 
does not appear that the Clinton Administration even considered the 
size of the area.
B. President Clinton's Expansion of the Buck Island Reef National 
        Monument Breached a Contract Between the United States and 
        Territory and Constituted Takings
    In 1936, the United States gave the Virgin Islands control, but not 
title, to Buck Island. See 28 U.S.C.A. Sec. 1405c. In 1961, the 
Governor of the Virgin Islands, as authorized by the legislature of the 
Virgin Islands in an Act of December 5, 1961, relinquished its control 
over Buck Island to facilitate the establishment and management of the 
Buck Island Reef National Monument. In exchange for this relinquishment 
of control by the Virgin Islands, however, the United States agreed not 
to adopt any regulation restricting the existing fishing and 
recreational privileges of Virgin Islands inhabitants in and around 
Buck Island. See Presidential Proclamation No. 3443 (1961). In January 
2001, President Clinton reneged on this promise by restricting 
extractive uses within the Buck Island Reef National Monument. 
Accordingly, the Territory is entitled to damages for the United 
States' breach of contract.
    Moreover, when President Clinton designated the Virgin Islands 
Coral Reef National Monument and expanded the Buck Island Reef National 
Monument in January 2001, he effectuated a taking of the fishing and 
boating rights of the residents of the Virgin Islands without just 
compensation. Furthermore, to the extent that the President designated 
territorial, as opposed to Federal lands, as monument lands, the 
Territory view this as a takings as well.
C. Procedural Requirements
    We believe that the Territory also may be able to pursue arguments 
challenging the procedures followed by the Clinton Administration in 
designating and expanding the monuments. In this regard, the National 
Environmental Policy Act (``NEPA'') and the Coastal Zone Management Act 
(``CZMA'') would apply. For example, the procedural requirements of 
NEPA and the CZMA apply to the actions of agencies and departments who 
advised President Clinton. See e.g., State of Alaska v. Carter, 462 F. 
Supp. 1155,1160 (D. Alaska 1978)(NEPA); 16 U.S.C.A. Sec. 1456(c) (the 
CZMA requires each ``Federal agency activity to be carried out in a 
manner which is consistent to the maximum extent practicable with the 
enforceable policies of approved State management programs''). Thus, to 
the extent DOI failed to follow required procedures, the Proclamations 
are invalid.
    For the foregoing reasons, DPNR and the Territory believe that 
President Clinton's Proclamations designating the Virgin Islands Coral 
Reef National Monument and expanding the Buck Island Reef National 
Monument are invalid.
    If there is any concern, whatsoever with the manner in which we 
have protected our resources, in particular our marine resources, we 
feel that our creation of the Territorial Marine Park System addresses 
any such concern.
St. Croix East End Marine Park Management Plan--Key Points
    The East End of St. Croix has long been recognized for its unique 
marine resources and biodiversity. In 1960 it was recommended that the 
East End of St. Croix be designated as a Nature Preserve. During 1979 
and 1980 it was designated as an Area of Particular Concern, an Area 
for Preservation and Restoration and nominated as a significant Natural 
Area.
    The process that led to the development of the St. Croix East End 
Marine Park Management Plan grew out of the U.S. Coral Reef Task Force 
recommendations to protect coral reef ecosystems and the lifestyles and 
economies that are dependent on them. The primary recommendation is 
that states and territories with significant coral reefs place 5% of 
them under protection by 2002, 10% of them under protection by 2005, 
and 20% of them under protection by 2010. Of these figures, it is 
recommended that 20% be ``no-take'' areas.
    At the Third Coral Reef Task Force Meeting held on St. Croix, 
Governor Turnbull announced that it is his desire to establish and 
underwater park that can be enjoyed by residents and visitors alike, 
while protecting the unique resources and biodiversity of the park.
    The Department of Planning and Natural Resources/Division of 
Coastal Zone Management (DPNR/CZM) applied for and received a $225,000 
grant for its Marine Park Project. A Virgin Islands Marine Park 
Committee was formed with members composed of personnel from DPNR (CZM, 
Division of Environmental Enforcement, Division of Environmental 
Protection, and the Division of Fish and Wildlife), the University of 
the Virgin Islands, nonprofit organizations, for profit organizations, 
fishermen, dive shop operators, and Federal Government agencies to 
facilitate development of this Plan.
    Four documents have been prepared under this grant:
    1. LThe St. Croix East End Marine Park Management Plan;
    2. LA Resource Description Report;
    3. LA Management Framework for a System of Marine Protected Areas 
for the U.S. Virgin Islands; and
    4. LA Socio-Economic Assessment of Marine Resource Utilization in 
the U.S. Virgin Islands.
    To develop the St. Croix East End Marine Park Management Plan, the 
Nature Conservancy Virgin Islands Program facilitated a series of 
scoping meetings in September and October 2001 and public meetings in 
January and February 2002. This plan was reviewed by DPNR during March 
and April 2002, and is currently being put forth by the Coastal Zone 
Management Commission for comments and input.
    The Plan outlines the purpose and manner in which the area is to be 
used. It sets the management objectives, policies, and strategies to 
achieve the stated objectives. It also addresses the administrative 
structure, resource use, zoning boundaries, financial support, staff 
needs and monitoring plans. The management plan is a working document 
that would be updated periodically, and should be used to actively and 
appropriately manage the park.
    Upon legislative adoption of the Marine Park, rules and regulations 
will be developed, with public input, to effectively implement the 
park's plan.
    Key points of the plan include:
    1. LThe Marine Park surrounds the entire East End of the island. On 
the north shore the boundary begins at the western border of Chenay Bay 
and extends out to the 3-nautical mile territorial boundary. The Park 
extends around the eastern tip of St. Croix, with the southern boundary 
extending to the western border of Great Pond Bay.
    2. LThe landward side of the boundary is the high-tide line.
    3. LThe Marine Park is composed of 4 zones: No-Take Areas, a Turtle 
Wildlife Preserve Area, Recreational Areas, and Open Fishing Areas.
    4. LNo-Take Areas are designed to encompass large, contiguous 
diverse habitats. They are intended to provide natural spawning, 
nursery, and permanent residence areas for the replenishment and 
genetic protection of marine life, and to protect and preserve all 
habitats and species; particularly those not protected by fisheries 
management regulations. Commercial and recreational fishing activities 
will not be permitted within these areas. Other uses, such as swimming, 
diving, and boating will be permitted. However, anchoring and jet 
skiing will not be permitted within the No-Take Area.
    5. LThe Turtle Wildlife Preserve Area will be established to 
minimize disturbance to sensitive wildlife populations and their 
habitats and to ensure protection and preservation of wildlife 
resources in the Park. In particular, this designation will be applied 
to the primary turtle nesting beaches and near shore resting areas. 
Regulations governing access will be designed to protect the endangered 
turtles and their habitat, while providing opportunities for public 
use.
    6. LRecreational Areas are designed to provide areas for 
snorkeling, diving, and boating while prohibiting any activities that 
would compromise the recreational values for which the area may be 
designated. Catch and release fishing and baitfish collection will be 
permitted in recreational areas. Commercial fishing of any sort will 
not be permitted in recreational areas. Mooring of boats will be 
permitted in recreational areas, but only with the use of mooring 
buoys. General shipping will be restricted.
    7. LOpen Fishing Areas are areas in which there are no restrictions 
on fishing, boating, and diving activities. These areas are governed by 
all the rules and regulations pertaining to commercial and recreational 
fishing in the Virgin Islands Code. These areas will be used as a 
control to monitor and evaluate the effects of resource zoning in the 
Park. Trawling and general shipping are prohibited, as well as those 
activities inconsistent with the Park's long-term conservation (e.g., 
mining and oil drilling).
    In Fiscal Year 2001, DPNR secured an additional $390,000 from the 
National Oceanic and Atmospheric Administration (NOAA) to hire staff, 
purchase equipment and begin implementation of non-enforceable 
management measures for the proposed Marine Park. DPNR is in the 
process of executing this work-plan and has already hired new staff, 
purchased a vehicle and is nearing completion of the procurement 
process for the acquisition of a marine vessel. A comprehensive 
education and outreach program is also included in this budget and DPNR 
is on schedule to complete the required tasks.
    For Fiscal Year 2002, DPNR has requested $400,000 in Federal 
funding from NOAA to proceed with implementation of the Marine Park 
Plan. NOAA has indicated to DPNR that approval of this additional 
funding is contingent upon legislative approval of the East End Marine 
Park. DPNR plans to utilize these funds to refurbish the building at 
Cramer's Park and put the relevant boundary markers in place.
    It is expected that as this Marine Park matures, it will not only 
provide a protected area for the ecosystems and the marine life they 
support, but it will also become a nursery for depleted fish stocks. 
Other benefits are the continued preservation of traditional uses for 
Virgin Islanders, the increase of St. Croix's tourism products through 
the restoration of the Visitor's Center, and possibly, the creation of 
alternative or expanded tourism products (i.e. guided fishing, scuba/
snorkeling tours, daily sailing, etc.). A final benefit that is well-
established throughout the United States is that lands abutting 
protected or preserved areas generally command a higher resale value 
relative to lands that do not. This extra value could allow the Virgin 
Islands Government to receive increased revenues from higher stamp 
taxes, increased property taxes and more income and business taxes from 
realtors, surveyors, and others involved in the real estate industry.
    I would like to take this opportunity to thank the Subcommittee for 
bringing this hearing to the United States Virgin Islands, and we offer 
sincere welcome to all.
                                 ______
                                 
    Mr. Radanovich. And your written material certainly does do 
that, and I thank you very much for your testimony here.
    The Committee is pleased to have with us, again, Ms. Betty 
McCollum representing the District and the State of Minnesota.
    Betty, welcome back. Do you have any questions?
    OK. Very good.
    Mr. Plaskett, thank you very much for being here.
    Mr. Plaskett. Thank you.
    Mr. Radanovich. And you're free to leave at any time, as 
Mr. McIntosh is not, though, because he's got to begin his 
testimony.
    So Mr. McIntosh, welcome to the Committee. And again, if 
you'd like to begin your testimony, please keep the clock--red 
means--or green means go, yellow means speed up, and red means 
stop, just like a traffic light.

 STATEMENT OF MAXWELL McINTOSH, SALT RIVER NATIONAL HISTORICAL 
                        PARK COMMISSION

    Mr. McIntosh. Good morning, Chairman Radanovich, Delegate 
Christensen, Delegate McCollum. My name is Maxwell McIntosh. 
I'm an attorney in the private practice of law here in the 
Virgin Islands. I also served on the Advisory Commission of the 
Salt River Bay National Historic Park and Ecological Preserve.
    I'd like to thank you for inviting me today to testify 
before the Subcommittee on National Parks, Recreation and 
Public Lands of the U.S. House of Representatives Committee on 
Resources.
    The Salt River Bay Commission was established on February 
24th, 1992 by then President George Bush, and the Commission 
expired 10 years after the establishment of that law. I 
unfortunately was only able to serve on the Commission for 1 
year, because I was appointed in January of 2001 to the Salt 
River Bay Commission. The other individuals who also served on 
the Commission with me are Roy Adams, Jessica Thompson, 
Gerville Larsen, Commissioner Dean Plaskett who was just here, 
Commissioner Pamela Richards of the Virgin Islands Department 
of Tourism, District School Superintendent Terrence Joseph of 
the St. Croix District, and Senator Vargrave Richards.
    There were other individuals who have served on the 
Commission prior to the new Commission that was installed in 
January of 2001, and those individuals have provided 
significant service to the Virgin Islands.
    The National Park Service performs important and vital 
functions in the United States Virgin Islands. Among other 
things, the National Park Service provides protection of our 
natural resources, preservation and restoration of our historic 
structures, and interpretation of historical and cultural 
resources. In the Virgin Islands we are fortunate to live in 
one of the most beautiful areas in the world. Unfortunately, 
often through our actions and inactions, we damage and destroy 
the natural beauty of our environment.
    The National Park Service helps to protect our natural 
environment so that future generations can also enjoy the 
beauty of these islands. The National Park Service also helps 
to preserve and restore our historical structures. If this 
preservation and restoration did not take place, we would lose 
these structures to weather and time, or they would be in very 
poor condition.
    Finally, the National Park Service provides interpretation 
of our historical and cultural resources. Through 
interpretation, both residents and visitors gain a better 
understanding of what they see before them and what may have 
occurred in the past in that location.
    As I indicated, I'm proud to have served on the Salt River 
Bay National Historic Park and Ecological Preserve Advisory 
Commission. Salt River Bay is truly a unique area that contains 
nationally significant resources. Salt River Bay is a rich area 
because of both its natural and ecological resources, and also 
because of historical and cultural resources. The mangroves at 
Salt River, which is the largest remaining mangrove within the 
Virgin Islands, serve as the nursery for scores of marine 
plants and animals. The area also serves as a rookery for many 
birds, and other birds either populate the area or utilize the 
area as an important resting stop for their period of 
migration. Many endangered and threatened species also inhabit 
Salt River Bay, and numerous plant species can also be found 
within Salt River.
    As to the historical and cultural resources, the history of 
this area encompasses thousands of years of human history on 
St. Croix. As was mentioned earlier, just about every group of 
people that came to St. Croix attempted to establish a 
settlement at Salt River. Salt River is the site of the only 
ceremonial ball court that has been located in the Lesser 
Antilles. It also contains one of the few earthwork 
fortifications in the world. The Spanish, French, English, 
Dutch and Danish all attempted settlements at Salt River.
    Unfortunately, many residents and visitors to the island do 
not know of the rich natural, historical and cultural resources 
at Salt River Bay. The education and interpretation of the area 
is greatly lacking, and signage of the area will go a long way 
in enlightening individuals regarding these resources. 
Unfortunately, the earthwork fort is used as a jumping ramp for 
all-terrain vehicles, and that has further deteriorated this 
earthwork fortification. And unfortunately some of these 
individuals don't even know what they're destroying. They don't 
even know that the fort is there, the ball court, and all the 
other rich historical and cultural resources.
    Salt River Bay is a park that is to be jointly managed 
between the Virgin Islands Government and the National Park 
Service. I'd like to thank the House of Representatives and the 
U.S. Senate for its financial support for the continuing 
acquisition of property within the park boundaries of Salt 
River Bay, and I also know the discussion is to extend the 
boundaries to include an additional acquisition, and I'd be in 
full support of doing so.
    Finally, congratulations are in order for Superintendent 
Joel Tutein for his hard work, dedication and vision in moving 
St. Croix forward.
    I'd like to thank you for this invitation today, and I'm 
available for any questions.
    [The prepared statement of Mr. Mcintosh follows:]

 Statement of Maxwell D. McIntosh, Esq., Attorney, Advisory Commission 
 Member, Salt River Bay National Historic Park and Ecological Preserve

    Good Morning. Chairman Radanovich, the Honorable Donna Christensen 
and the Honorable Betty McCollum. Thank you for inviting me to testify 
today before the Subcommittee on National Parks, Recreation and Public 
Lands of the U.S. House of Representatives' Committee on Resources. My 
name is Maxwell D. McIntosh and I am an attorney in the private 
practice of law in the United States Virgin Islands. I also served on 
the Advisory Commission for the Salt River Bay National Historic Park 
and Ecological Preserve.
    The National Park Service performs important and vital functions in 
the United States Virgin Islands. Among other things, the National Park 
Service provides protection of our natural resources, preservation and 
restoration of our historic structures and interpretation of our 
historical and cultural resources. In the Virgin Islands, we are 
fortunate to live in one of the most beautiful areas in the world. 
Unfortunately, through our actions and inactions, we damage and destroy 
the natural beauty of our environment. The National Park Service helps 
to protect our natural environment so that future generations can also 
enjoy the beauty of these islands. The National Park Service also helps 
to preserve and restore our historical structures. If this preservation 
and restoration did not take place, we would lose these structures to 
weather and time or they would be in very poor condition. Finally, the 
National Park Service provides interpretation of our historical and 
cultural resources. Through interpretation, both residents and visitors 
gain a better understanding of what they see before them and what may 
have occurred in the past.
    I am proud to have served from January of 2001 as a member of the 
Advisory Commission of the Salt River Bay National Historic Park and 
Ecological Preserve. Other members who served on this Advisory 
Commission with me are Roy Adams, Jessica Thompson, Gervile Larsen, 
Commissioner Dean Plaskett, Commissioner Pamela Richards, District 
School Superintendent Terrence Joseph and Senator Vargrare Richards. 
Salt River Bay is truly a unique area that contains nationally 
significant resources. Salt River Bay is a rich area because of both 
its natural and ecological resources and because of its historical and 
cultural resources. The mangroves serve as the nursery for scores of 
marine plants and animals. The area also serves as a rookery for many 
birds and other bids either populate the area or the area serves as an 
important stopping point for many migratory birds. And many species of 
animals also inhabit the area and many plant species can also be found 
within Salt River Bay.
    As to the historical and cultural resources, the history of this 
area encompasses more than 4000 years of human history on St. Croix. 
Some of the earliest inhabitants on St. Croix settled at Salt River 
Bay. Salt River Bay is the site of the only ceremonial ball court that 
has been located in the Lesser Antilles. It also contains one of the 
few earthwork fortifications in the world. Unfortunately, many 
residents and visitors to the island do not know of the rich natural, 
historical and cultural resources at Salt River Bay. The education and 
interpretation of the area is greatly lacking and signage of the area 
will go a long way in enlightening individuals regarding these 
resources.
    Through joint management with the Virgin Islands Government and the 
National Park Service, Salt River Bay National Historic Park and 
Ecological Preserve will become a gem of a park. I would like to thank 
the House of Representatives and the United States Senate for its 
financial support for continuing acquisitions within the park 
boundaries. These acquisitions will go a long way in making an 
excellent park at Salt River Bay. Finally, congratulations are in order 
to Superintendent Joel Tutein for his hard-work, dedication and vision 
on St. Croix.
    Thank you for you for this invitation and your expected continued 
support of the National Park Services' efforts at Salt River Bay.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. McIntosh.
    Donna, do you want to start off?
    Mrs. Christensen. Well, just a couple of questions. You 
kind of answered the first question I was preparing to ask you 
about losing some of the historical and cultural resources.
    Do you see the acquisition of the property as helping to 
control that loss, and prevent some of the loss? Is it 
important to preserving the structures?
    Mr. McIntosh. Yes, I think it would be a significant step 
toward that process, and for the very reason that it would have 
a presence, a permanent presence of individuals who will be 
there to look at the activities that are going on. Also give an 
interpretation, because a big part of the problem is people 
don't even know, individuals don't know that the earthwork fort 
is there. They don't know that the walls they're jumping off 
of, they just think it's a high mound of dirt, unfortunately. 
So they don't know.
    But through that interpretation, knowledge to the school 
children, I think the loss and deterioration will come to--at 
least it will slow it down.
    Mrs. Christensen. I'm not sure in your 1 year if you are 
able to answer this question, but apparently there have been 
four versions of a Cooperative Agreement submitted. Do you know 
what the issues are that have precluded us signing that 
Cooperative Agreement?
    I guess I should have asked Mr. Tutein but--
    Mr. McIntosh. No, I don't know. I think that would be a 
question for Superintendent Tutein to answer.
    Mrs. Christensen. And one last question for you, Attorney 
McIntosh. Do you have concerns that the local government is not 
getting the kind of support from the Federal Government that 
they should be getting in this joint management situation?
    Mr. McIntosh. I would actually say that the issue is the 
opposite; that the local government hasn't sought the support 
of the Federal Government, and I think that's where some of the 
issues have come up. Even as to the establishment of the 
Commission, there had to be a waiting period for the local 
government to designate the individuals who would serve on the 
commission, and that actually created--it was necessary to wait 
for the local individuals to join the Commission in order for 
it to fully function. So it may be an issue more that the local 
government is not utilizing the resources that are available to 
them from the Federal Government.
    Mrs. Christensen. St. Croix is, of the three islands, St. 
Croix is the most economically depressed, and do you think that 
being able to fully interpret and protect that and really make 
Salt River a show piece would enhance our economic conditions 
here? Would it help tourism? Do you think that it would be a 
boon to our economy here if we were able to really put that 
plan, management plan in place and make Salt River the 
showplace that it has the potential to be?
    Mr. McIntosh. It would definitely do so. I think it would 
attract individuals to St. Croix to come and learn. And even as 
far as the educational component, I know that there is some 
discussions in having both the scientific study of Salt River, 
as well as the archeological, historical and cultural study of 
Salt River. And more and more individuals are actually 
traveling to learn more about the history. It's no longer a 
travel just to sit on the beach and to relax, but actually to 
have a sense of the place.
    And so Salt River would certainly be the location that 
would attract individuals to come, learn, and right now it's 
not occurring because people don't know. You drive down to even 
where the ball court is located, and you don't see signs or 
anything telling you what is there. You know, you have 
different areas within there where Columbus' landing party came 
aground, but there's no indication to someone who goes there 
what is exactly there. So they may go, but they have no sense 
of really what they're seeing.
    Mrs. Christensen. And do you feel that it's an educational 
tool as well for our children and for our enhancement of our 
own self-image and well being?
    Mr. McIntosh. Oh, definitely. And I think that's what the 
even greater part of it is for the individuals of the Virgin 
Islands to know of what is at Salt River. It would actually 
enhance them, and once they gain that knowledge, because even 
some of the natural, the cultural historical artifacts and 
items that are present at Salt River are so unique to anywhere 
in the world, that it would actually enhance the educational 
system of the Virgin Islands.
    Mrs. Christensen. Thank you.
    Mr. Radanovich. Thank you, Donna.
    I have a question--first of all, let me state that I 
applaud the efforts of you and the Federal Government in this 
area of the Salt River Project. I think it's very interesting, 
I think, and applaudable.
    Let me ask you, though, once there becomes Federal land 
ownership in the area, and let me know if this is not your area 
of expertise, but I do consider, I would be concerned about the 
continuous claiming of 3 miles off the shore and us getting 
into fishing issues as a result of more Federal land ownership 
that's bounded by the edge of the island and the water.
    Is that a likely possibility in something like this or--
    Mr. Plaskett. It is, quite honestly, Mr. Chairman, not my 
area of expertise. I don't think that it is likely to create a 
problem at Salt River just because of there being the joint 
management of the park there, so that even on the water side of 
it, I think that will also, because of that joint management 
between the Virgin Islands Government and Federal Government, I 
don't think it would be as much of an issue there.
    Mr. Radanovich. If I--I may submit that to--
    Mrs. Christensen. If the Chairman would yield, I believe 
that as written it applied to Federal land that existed and was 
owned as Federal land in '74. I would like to get the opinion 
on that as well. I believe--
    Mr. Radanovich. Yeah, because I--
    Mrs. Christensen. I believe it cannot apply to something 
was not Federal land at the time that the law was enacted.
    Mr. Radanovich. I see.
    Mrs. Christensen. I'd like to see that as well.
    Mr. Radanovich. OK, that's fine.
    Ms. McCollum, any questions? All right.
    I think I have no further questions either, Mr. McIntosh. 
Thank you very much.
    Mr. Plaskett. Thank you, and thanks for coming.
    Mr. Radanovich. With that we'll call for our third panel 
which consists of Mr. Bill Turner, who's the Executive Director 
of the St. Croix Environmental Association; Mr. Virdin Brown, 
the Chairman of the Caribbean Fisheries Council; Mr. Robert 
McAuliffe, a fisherman; Ms. Michelle Pugh, owner of Dive 
Experience.
    [Recess.]
    Mr. Radanovich. Ladies and gentlemen, welcome to the 
Committee. I appreciate you taking your time from your busy 
morning to come testify. As you know, the rules are we'll go 
through each person to deliver a 5-minute testimony. I will 
keep you as close as I can to the 5-minute rule, but please 
know that your written testimony is already a part of the 
record. And if you can, what we're more concerned about is your 
verbal presentation of those written information. If there's 
something that you didn't cover, there'll be a lot of questions 
and answers afterwards. So we'll make sure that we get all your 
full views in on the record before we're done.
    So Ms. Pugh, welcome to the Committee. If you'd like to 
begin, we'll work from left to right from me up here and get 
all of your verbal testimony in the record.

       STATEMENT OF MICHELLE PUGH, OWNER, DIVE EXPERIENCE

    Ms. Pugh. All right. Thank you. Good morning. My name is 
Michelle Pugh.
    Mr. Radanovich. Michelle, you already need to bring that 
mike closer to you. I'm sorry, it's--
    Ms. Pugh. I'm sorry. Good morning. Can you hear me?
    Mr. Radanovich. OK. That's better. Yeah, I see no hands.
    Ms. Pugh. My name is Michelle Pugh. I'm the owner of Dive 
Experience, Incorporated in Christiansted. I'm also a member of 
the Fishery Advisory Committee since 1989 on St. Croix, and 
also on the Board of Directors of the Island Conservation 
Effort.
    Basically my testimony is the--the change I've seen over 
the years with the fish life and marine life on St. Croix. I 
came here in 1997--excuse me--1977, 24 years ago, and we had a 
lot of fish life, beautiful coral reefs, and it has changed 
over the years. We have very small fish, and very sickly type 
fish. I'm not a scientist, but I can just tell by looking at 
the animals they're not very healthy. We have a lot of problems 
on St. Croix. We have a lot of pollution from businesses, but 
also basically from sewage. We have over fishing. We have great 
laws here, but they're not enforced. So this is causing animal 
life to change here.
    That's basically it.
    [The prepared statement of Ms. Pugh follows:]

            Statement of Michelle Pugh, Resident, St. Croix

    I, Michelle Pugh, have been a resident of St. Croix USVI since 
October 1977. 1 have been employed as a PADI open water SCUBA 
instructor and I have logged over 10,000 dives in the waters of St. 
Croix. I am also on the St. Croix Fisheries Advisory Committee 
representing sport diving.
    Over the past 24 years I have noticed a very large change in both 
the coral reefs and fish populations as well as size of the fish. Most 
of our reefs close to shore are covered in algae and are barely alive. 
Many fish in these areas are covered in strange growths and are sickly 
in appearance. I am not a scientist but I would guess that these areas 
have been destroyed by over fishing, sewage spillage, land bulldozing 
and some very strong hurricanes. On the deeper areas the coral life is 
much better, but large fish are rare.
    My first years of diving on St. Croix, I recall seeing large 
groupers, sharks and lots of reef fish. The coral and sponge life was 
very healthy. I do not know if we have gone beyond the point of no 
return.
    I have dived many other Caribbean islands; some have great coral 
and marine life. These islands have marine parks and many ``no dives'' 
or ``no take'' areas, which are rotated and protected. Other islands do 
not have such protection and you can tell by the coral damage and lack 
of marine life. It is very obvious that if an island has protected ``no 
take'' areas, the marine life could return.
    St. Croix has many, many laws regarding the fisheries; 
unfortunately there is no enforcement to speak of. Our local government 
has failed. The Federal Government will take a more serious stand on 
laws and perhaps bring life back to our waters surrounding the island 
of St. Croix.
                                 ______
                                 
    Mr. Radanovich. OK. All right. Thank you very much. Again, 
we'll ask questions when we get everybody's testimony.
    Mr. McAuliffe, welcome to the Committee, and again, you 
have 5 minutes.

  STATEMENT OF ROBERT McAULIFFE, PRESIDENT OF THE FISHERMEN'S 
                  UNITED SERVICES COOPERATIVE

    Mr. McAuliffe. Good morning, Mr. Chairman. I've listened to 
you tell everybody else to eat this thing.
    Mr. Radanovich. Correct.
    Mr. McAuliffe. My name is Robert McAuliffe, President of 
the Fishermen's United Services Cooperative of St. Croix. I 
speak on behalf of the co-op members and the fishing community 
in general.
    My involvement with Buck Island, though a bit more 
personal, is reflective of that of the fishing community on St. 
Croix. In the early fifties, during my first year of high 
school, I would go with one of my uncles to guide tourists at 
Buck Island on snorkeling and spear fishing strips. I received 
my first mask as a gift from one of the tourists. It was the 
latest full face mask with two snorkels and ping pong ball 
valves. It's an antique now.
    [Laughter.]
    Mr. McAuliffe. What started out as simple hospitality to 
some friendly tourists by a couple of young Crucian men has 
grown into a major tourist attraction and national monument.
    Harvesting the sea has been my reason for living from my 
earliest memories. When completing my military service with the 
U.S. Coast Guard, I took the first flight back to St. Croix and 
its familiar fishing grounds.
    This brief introduction will hopefully help demonstrate to 
the Subcommittee that even though I have 50 years of fishing 
experience, many of my most vivid memories are rooted in the 
waters around Buck Island. For example, my first 30-pound 
kingfish caught while fishing for yellow tail snapper with a 
hand line made of cotton marlin twine. That event took place 49 
years ago, and I still remember the exact landmarks for the 
spot.
    The purpose of this exercise is not to sit here all morning 
telling fish stories, but to convince this Subcommittee of the 
importance of the waters around the original park boundaries--
and I highlight original boundaries--to the commercial fishing 
industry, the charter fishing industry, and the community as a 
whole.
    I do not feel that the Park Service has the moral right to 
ask the people of the Virgin Islands to surrender their 
management rights to the fishing grounds around Buck Island 
National Monument when they, the Park Service, have failed for 
over 40 years to fully protect the stocks under their 
jurisdiction. It is an insult to the community that has, with 
very few exceptions, respected the authority and rules of the 
Service. For this Service to attempt to use ambiguities and 
failures of their own rules to take public lands of the Virgin 
Islands from the people of the Virgin Islands through 
Presidential proclamation is unacceptable. I refer to Title 36 
Chapter 1 Code of Federal Regulations, and the Presidential 
Proclamation 7392 of January 17, 2001.
    A great deal can be achieved by bringing all parties to the 
table from the beginning with frank discussion and good faith 
negotiations. The Virgin Islands Government must accept a full 
share of the blame for this situation, for they are paid by the 
people to keep the populace fully informed and in the loop. It 
is the duty of the local government to defend the property 
rights of the people of the Virgin Islands from all threats, 
including those from the Federal Government. Where are all 
these defenders that we, the people, pay such high salaries to?
    In closing, I would like to make the point that if, after 
all our arguments in favor of local fishing industries' rights 
and need to make a fair living, we should still lose these rich 
fishing grounds to the Park Service, the fishermen should be 
fairly compensated. Considering that there are 224 licensed 
fishermen on St. Croix, and all of them will be affected in 
some degree over the remainder of their lives, I would suggest 
that each licensed holder be paid $100,000. I thank you.
    Mr. Radanovich. Thank you, Mr. McAuliffe. We appreciate 
your testimony.
    [The prepared statement of Mr. McAuliffe follows:]

             Statement of Robert N. McAuliffe, President, 
          Fishermen's United Services Cooperative of St. Croix

    My name is Robert N. McAuliffe, President of Fishermen's United 
Services Cooperative of St. Croix, I speak on behalf of the Co-op 
members and the fishing community in general.
    My involvement with Buck Island, though a bit more personal, is 
reflective of that of the fishing community of St. Croix. This 
relationship also applies to Christiansted town and Salt River. I will 
confine my comments to Buck Island as it will affect the most people in 
the short term.
    Prior to my birth my family kept goats on Buck Island. They were 
accessible only to the larger boats that were fitted with sail. To row 
a small boat out to the island to shoot a few goats then row back to 
the main island was not an easy feat. When the Government built the 
lighthouse on the island the workers hunted the goats to extinction. My 
earliest recollection of Buck island was looking at it from the porch 
of the family shack while helping my uncles knit a net to catch giant 
parrot fish and turtles on the lea side of the island. By this time the 
family had access to one of the first outboard engines on St. Croix, a 
ten hp Johnson owned by Dr. Evans a gentleman who went on to become our 
first elected governor.
    In the early 50s during my first year of high school I would go 
with one of my uncles to guide tourists at Buck Island on snorkeling 
and spear fishing trips. I received my first mask as a gift from one of 
the tourist. It was the latest, a full face mask with two snorkels with 
ping pong ball valves. What started out as simple hospitality to some 
friendly tourist by a couple of young Cruzan men has grown into a major 
tourist attraction and National Monument.
    Harvesting the sea has been my reason for living from my earliest 
memories. On completing my military service with the U.S. Coast Guard, 
I took the first flight back to St. Croix and its familiar fishing 
grounds. After providing, with the help of many relatives, shelter for 
my wife and two young sons, I started my adult fishing career.
    This brief introduction will hopefully help demonstrate to the 
Subcommittee that even though I have fifty years of fishing experiences 
many of my most vivid memories are rooted in the waters around Buck 
Island. For example, my first 30 lb king fish caught while fishing for 
yellow tail snapper with a hand line made of cotton marline twine. That 
event took place 49 years ago and I still remember the exact land marks 
for the spot.
    The purpose of this exercise is not to sit here all morning telling 
fish stories, but to convince this Subcommittee of the importance of 
the waters around the original park boundaries, and I highlight 
original boundaries, to the commercial fishing industry, the charter 
fishing industry, and the community as a whole.
    I do not feel that the Park Service has the moral right to ask the 
people of the Virgin Islands to surrender their management rights to 
the fishing grounds around the Buck Island National Monument when they, 
the Park Service, have failed for over 40 years to fully protect the 
stocks under their jurisdiction. It is an insult to the community that 
has, with very few exceptions, respected the authority and rules of the 
Service. For this Service to attempt to use the ambiguities and the 
failures of their own rules to take public lands of the Virgin Islands 
from the people of the Virgin Islands through Presidential Proclamation 
is unacceptable. (Title 36, Chapter 1 Code of Federal Regulations--
Presidential Proclamation 7392 of January 17, 2001)
Code of Federal Regulations, Title 36, Chapter 1
    Sec. 7.73 Buck Island Reef National Monument. Paragraphs (e) (1) 
through (e) (5) are unenforceable and do not impart any meaningful 
protection to the fish stocks. It is only through the good will 
conservation and misunderstanding of the regulations by the people of 
St. Croix that the fish stocks within the Monument boundaries gained 
any relief.
    These five paragraphs, as written, are an open mandate to strip the 
Monument of all fish life. The fact that these regulations are still on 
the books is a clear demonstration that the Park Service is not 
equipped with the knowledgeable staff or the understanding to properly 
manage the underwater portion of the Monument. This is also a strong 
argument against any additional expansion of the original boundaries.
    A situation that I find particularly troubling falls under 
paragraph (e) (1). Provided, That fish may be taken by pots or traps of 
conventional Virgin Islands design and are not larger than five feet at 
the greatest dimension. When I discussed this with Joel Tutein recently 
he informed me that the Park Service did in fact permit the setting of 
traps within the Monument boundaries provided they met the size 
restriction and that they were not marked with a buoy. When Secretary 
Babbitt was taken on his now famous dive tour, traps were discovered 
with fish in them that were not marked with a buoy and labeled as ghost 
traps. The presence of ghost traps in the area has been given as one of 
the justifications for the need to expand the Monument boundaries. I 
would suggest that this situation warrants a complete re-evaluation 
with public input.
    Net mesh size restrictions speak to the minimum size of the mesh 
not the maximum size.
    There is no mention of cast nets in the regulation even though it 
is the most common type of bait net. Cast nets are measured by their 
hanging length or radius. The diameter of a 20 foot cast net would be 
40 feet, a real monster net.
    (e) (2) This paragraph is to ambiguous, mask, fins and snorkels 
could be considered spearfishing equipment as they are used for spear 
fishing.
    (e) (3) The taking of lobster by hand held hook is illegal in 
Virgin Islands waters and most other parts of the world. A boat with 
eight people on board would be technically legal if found to have 
thirty two (32) lobsters in their possession within the Monument 
boundaries. That is a lot of lobster.
    (e) (4) There is no mention of the size limits or closed seasons 
that apply to both conch and whelk in VI waters. Does that mean that as 
long as they are harvested and consumed within the Monument boundaries 
that it is permissible to violate Virgin Islands' Law?
    (e) (5) This is another example of ambiguity. Only the means of 
taking is prohibited, possession is not. A person would have to be 
caught in the act to be in violation.
    A great deal can be achieved by bringing all parties to the table 
from the beginning with frank discussions and good faith negotiations. 
The Virgin Islands Government must accept a full share of the blame for 
this situation for they are paid by the people to keep the populace 
fully informed and in the loop. It is the duty of the local Government 
to defend the property rights of the people of the Virgin Islands from 
all threats including those from the Federal Government. Where are all 
these defenders that we the people pay such high salaries to?
    In closing I would like to make the point that if, after all our 
arguments in favor of the local fishing industry's rights and need to 
make a fair living, we still lose these rich fishing grounds to the 
Park Service the fishermen should be fairly compensated.
    Considering that we have 224 licensed fishermen on St. Croix and 
all of them will be affected in some degree over the remainder of their 
lives I would suggest that each license holder be paid $100,000.00. 
These compensation payments should be administered directly by the Park 
Service or some other Federal agency, but not by the local Government.
    Thank you
                                 ______
                                 

    [Attachments to Mr. McAuliffe's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T0850.005
    
    [GRAPHIC] [TIFF OMITTED] T0850.006
    
    [GRAPHIC] [TIFF OMITTED] T0850.007
    
    [GRAPHIC] [TIFF OMITTED] T0850.008
    
    [GRAPHIC] [TIFF OMITTED] T0850.009
    
    [GRAPHIC] [TIFF OMITTED] T0850.010
    
    Mr. Radanovich. Mr. Virdin Brown, welcome to the Committee. 
And again, if you'd like to begin?

STATEMENT OF VIRDIN C. BROWN, CHAIRMAN OF THE CARIBBEAN FISHERY 
                       MANAGEMENT COUNCIL

    Mr. Brown. Thank you, Mr. Chairman, and good morning to you 
and to Honorable Delegate Donna Christensen and to the 
Honorable Betty McCollum who's now with us. We are happy to 
have you here to take testimony on the issues of concern to the 
members of this community.
    Let me say my name is--I guess I gave my name already. 
Anyway, I've been involved in a number of issues in this 
Territory as an administrative official. I've served seven 
terms in the Legislature of the Virgin Islands. I've served as 
the Commissioner of the Department of Conservation and Cultural 
Affairs which was charged with the first time full 4-year 
period of administering the submerged lands. I've also served 
as Assistant Commissioner of the Department, and I am currently 
sitting as chair of the Caribbean Fishery Management Council. 
My testimony, and much of what I put forth, has been on my 
personal involvement with the issues before you, although a 
portion of my testimony reflects concerns of the Council as 
well. So I speak to you with two hats in part.
    Let me say at the outset that the issue before you in terms 
of the monuments is not whether or not they should be larger or 
smaller, but whether in fact they exist legally in any right, 
in any way. And my submission to you is that they do not. They 
do not legally exist. They are not on any Federal submerged 
lands. And I'll try in my brief 5 minutes to clarify points, 
and I'll answer questions as you bring them forth.
    A little historical fact, I was in the Senate in 1971 to 
'75. This is the first part of my first two terms. And it was 
at that time I instigated, promoted the idea of transferring 
the submerged lands from the Department of Interior to the 
local government, because the Department of Interior had 
difficulty administering those submerged lands. As we began to 
develop, there were a number of illegal activities taking 
place, which included not only docks, but dredging and filling 
that took place. It was the Honorable late Congressman Phillip 
Burton who I talked to, along with our first Delegate to 
Congress Ron de Lugo, and who moved the issue through the 
Congress to transfer these submerged lands, and it became 
public law in 93-435 as you know.
    The question of whether or not the Department of Interior 
had any further rights beyond February 2nd of 1975 were 
extinguished in the Virgin Islands by two proclamations that 
the law permitted the President to issue, or any such 
proclamations that he had the right to issue. But he only 
issued two. That was President Gerald Ford. He issued two 
proclamations, and I'll cite them by number: Proclamation 4346 
and 4347, both of which were signed on February 1st right at 
the last hour of the 120-day allowable period.
    That then said that after--on and after the 120-day period, 
February 2nd, 1975, the Department of Interior had no further 
rights or interests or involvements in the administration of 
the submerged lands. That those lands, by Public Law 93-435, 
were transferred to the Government of the Virgin Islands, as 
the law states, for the administration in trust for the people 
of the Virgin Islands.
    It's mind boggling, I mean absolutely mind boggling, after 
a quarter of a century of administration of these submerged 
lands without any questions whatever, clear, unambiguous 
authority exercised, that the Department of Interior or any 
Presidential proclamation could come forth and take and lay 
claim to something that it does not own. The proclamations make 
it clear if there is no right or no title or interest in these 
lands, then the monuments don't--proclamations don't stands. 
Therefore, I say to you that they are moot and that this 
honorable Committee, Subcommittee, should recognize that.
    I've submitted testimony prior to the signing of the 
proclamations on January 10th to Honorable Congresswoman Donna 
Christian-Christensen stating this fact before the signing, and 
urging that she urge the President not to sign. And 
subsequently, on January 30th, I wrote to the Chair of the Full 
Committee, the House Resources Committee, Jim Hansen, to state 
the case and to ask that these monument, the proclamations, not 
be recognized. I think that letter was also referred to this 
Committee--Subcommittee.
    Let me try to highlight a couple of other points, one which 
you asked and was raised about the application I think of it's 
1705(b)(ii) as to whether or not the Department of Interior had 
right to all submerged lands adjacent to property owned by the 
United States above the line of mean high tide, that that was 
excepted. That's in the law. That's in the law. That's cited in 
the law. But I want to point out to this Committee that this 
law does not apply only to the Virgin Islands. It also applies 
to Guam and American Samoa, and that that section more aptly 
applies to perhaps Guam, where the Navy has substantial 
interests and holdings that are adjacent to submerged lands, 
and not to the Virgin Islands.
    Additionally, I want to submit to you to make it even more 
abundantly clear, the Congress identified Buck Island Reef 
National Monument, as it was established by proclamation, and 
the Virgin Islands National Parks around in St. John, with its 
water boundaries specifically in this legislation in 93-435. If 
that isn't clear on the face of it, I don't know what is.
    So there are other things, but I won't get into them, I 
will wait for your questions, but what I want to submit to you, 
Mr. Chair, is that this is a clear issue so far as I am 
concerned. From an administrative point I've had up close and 
intimate involvement with the assumption and administration of 
these submerged lands and with cataloging and reviewing them.
    I see the red light is on, but if I may just make one final 
point here, and I'll answer questions on Salt River and 
Christiansted as you raise the question. I read from one of my 
points in the testimony today I presented. The Department of 
Interior has done a mapping job of this Territory, and they use 
the Bureau of Minerals Management Service Mapping and Boundary 
Branch to supposedly catalog and identify Federal and 
Territorial lands around the Virgin Islands. I'm very concerned 
about what I've seen in those documents because the Department 
of Interior, or at least the maps as they were initially drawn, 
indicate in clear markings that Interior claims other Federal 
submerged land areas outside of these boundaries expanded, 
proposed national monuments. South of Water Island; west of St. 
Croix; within the harbor here in Christiansted, at Fort Louise 
Augusta in Charlotte Amalie Harbor, and elsewhere, and I just 
cite those as a point.
    Mr. Chairman, members, the Department of Interior has no 
such rights or claims, and therefore should not make any. But 
if we use their analogy on 1705(b)(ii) to apply to the Buck 
Island Reef and the newly found Virgin Islands Coral Reef 
National Monument around St. John, then what happens in 
Charlotte Amalie harbor in the instance where the National Park 
Service has now acquired lands on Hassel Island, acreage on 
Hassel Island, which also is partly land--additional lands 
there, a park owned by the V.I. Government, another case where 
there can be joint management. But what happens in Salt River 
or Green Cay or elsewhere?
    So the analogy, the concept, the whole rationale that is 
used is faulty and should not apply. And I'll be happy to 
answer questions and deal with the other areas as it's 
appropriate to.
    [The prepared statement of Mr. Brown follows:]

             Statement of Virdin C. Brown, Former Senator, 
                       Virgin Islands Legislature

    Good day Mr. Chairman, members, and staff of the House Resources 
Subcommittee on National Parks, Recreation, and Public Lands. My name 
is Virdin C. Brown and I am a resident of the Virgin Islands who reside 
on the Island of St. Croix. I am honored to have the opportunity to 
appear before your Committee and present my views on the several items 
outlined in your letter of invitation which include Christiansted 
National Historic Site, Buck Island Reef National Monument, and the 
Salt River Bay National Historical Park and Ecological Preserve.
    I am a former Senator in the Virgin Islands Legislature (having 
served seven terms 1971-75 & 1983-93), former Commissioner of the 
Department of Conservation and Cultural Affairs (1975-79), and former 
Assistant Commissioner of the Department of Planning and Natural 
Resources (1995-99). At present, I am serving as Chairman of the 
Caribbean Fishery Management Council, which is one of eight such 
councils established under the Magnuson-Stevens Fishery Conservation 
and Management Act of 1976. I have devoted more than three decades of 
service in the Government of the Virgin Islands to environmental and 
natural resource management issues. I was involved in the promotion of 
legislation and the transfer, acceptance, and administration of the 
submerged lands that were transferred to the Government and People of 
the Virgin Islands by Public Law 93-435.
    Mr. Chairman and members, because of the impact and legal 
significance of Presidential Proclamation No. 7392 (The Boundary 
Enlargement and Modifications of the Buck Island Reef National 
Monument) and Proclamation No. 7399 (Establishment of the Virgin 
Islands Coral Reef National Monument), I will address the monuments 
issue first. First and foremost it is my considered opinion that 
neither of the proclamations are legal, nor do they have any validity. 
The subject submerged lands, which they proclaim title and jurisdiction 
over, are the property of the Government and People of the Virgin 
Islands not the Federal Government. Public Law 93-435 transferred these 
same submerged lands from the Department of Interior to the Government 
of the Virgin Islands to be held in ``trust'' for the people of the 
Virgin Islands on October 5, 1974. Title 48 USC, Section 1705 (b)(vii) 
clearly states that the president would have one hundred twenty (120) 
days after October 5, 1974, to exempt from the transfer (by 
presidential proclamation) those submerged lands that he (and the 
Department of Interior) deemed necessary for retention by the Federal 
Government. Only two proclamations were issued in accordance with the 
aforementioned section of Title 48. They are the following:
    1) Proclamation No. 4346, which added thirty (30) acres of 
submerged lands to the Buck Island Reef National Monument; and
    2) Proclamation No. 4347, which reserved several acres of 
submerged, lands off the west coast of St. Croix for use by the Navy.
    The ``enlarged'' Buck Island Reef National Monument is increased in 
size by 18,135 acres of submerged lands, while the proposed Virgin 
Islands Coral Reef National Monument is designed to incorporate 12,708 
acres of submerged lands around St. John. This is a total of 30,843 
acres of property that belong to the government and people of the 
Virgin Islands that are being taken by executive fiat. These submerged 
lands were transferred by an Act of Congress (PL 93-435) and there are 
no provisions for an executive order, proclamation, or other 
nonlegislated instrument to overturn the transfers made by this Act 
after the 120-day period. This is especially noteworthy since the 
proclamations establishing the monuments were issued more than a 
quarter of a century after the executive branch of the Federal 
Government had already exercised its authority to withhold whatever 
submerged lands it so desired from transfer to the Government of the 
Virgin Islands not later than February 2, 1975.
    It is my understanding that the Department of Interior based its 
authority to make its claim to the 30,843 acres of submerged lands on 
the exception cited in Title 48 USC, Section 1705 (b)(ii) to wit, `` 
All submerged lands adjacent to property owned by the United States 
above the line of mean high tide.'' This rationale flies in the face of 
the PL 93-435 and Presidential Proclamation Numbers 4346and 4347 that 
set aside exemptions from the original transfer. It also disregards the 
laws and proclamations that established the Virgin Islands National 
Park and the Buck Island Reef National Monument. Additionally, it fails 
to recognize other legal documents that define the boundaries of each.
    The Virgin Islands Coastal Zone Management Plan's Coastal Land and 
Water Use Plan Map (attached) clearly identifies the Federally owned 
and controlled submerged lands around St. John, Buck Island and off the 
west coast of St. Croix. There were no Federal objections to this map 
when it was published in accordance with Federal consistency guidelines 
as late as 1978.
    If one accepts the Department of Interior's legal interpretation of 
Section 1705 (b)(ii), then one might assume that they will eventually 
lay claim to the Charlotte Amalie Harbor since they recently acquired a 
significant portion of Hassel Island. Is this interpretation 
transferable to Green Cay, Salt River, and other shoreline properties 
that the Department of Interior may acquire in the future? Where and 
when will it end? The people and the Government of the Virgin Islands 
have a right to their title to ALL of the submerged lands conveyed by 
PL93-435. We should not have to worry about what is going to be taken 
away next.
    There is still reason for concern. I have reviewed a map and 
related documents prepared by the Bureau of Minerals Management Service 
Mapping and Boundary Branch of the Department of Interior and I've 
become even more disturbed by what I have seen. The map identifies 
several large and small tracts of submerged lands within the 
Territorial Sea of the U.S. Virgin Islands as Federal Submerged Lands 
Areas. These marked submerged lands belong to the Government and People 
of the Virgin Islands and have been administered by the Virgin Islands 
Government since the enactment of PL 93-435.
    The concept of protecting the natural and cultural resources within 
the bounds of the ``proposed'' new and expanded monuments is 
noteworthy. However, as well intentioned as they may be, it does not 
give the Department of Interior the right to walk into the Virgin 
Islands and ``take'' our jewels and tell us that they are going to 
protect them for us. The constitutional process dictates otherwise. We 
are still a government of laws not of men. We must all operate under 
the constitution and laws of the United States and of the United States 
Virgin Islands. So too must the Department of Interior.
    I respectfully request that Presidential Proclamations 7392 and 
7399 be declared null and void because they do not address Federal 
lands nor lands that the Federal Government has legally acquired or 
controlled. It is my hope that the Virgin Islands Government will be 
given support and resources to help it to become a better steward of 
these and other resources.
SALT RIVER
    The Salt River Bay Historical Park and Ecological Preserve has the 
potential to establish a new benchmark for cooperation between the 
Virgin Islands Government and the Department of Interior's National 
Park Service. Thus far, some acquisitions have been made and more are 
pending. This is good. However, little or no attention is being given 
to the concept of helping the Virgin Islands Government establish its 
Territorial Parks System's administrative, management, and enforcement 
apparatus in a meaningful way. This Park is not only important for its 
historical and ecological value. It is also important because it can 
become the vehicle for full cooperation between both governments and in 
which the personnel of the Virgin Islands Territorial Parks System can 
obtain its training and become full fledged partners in the management 
and protection of the valuable resources of the Virgin Islands. It is a 
greater benefit to all of us if the Virgin Islands can develop its 
higher potential to become a responsible steward of its other 
significant natural and cultural resources that exist outside the 
boundaries of any of the legally established national parks. The 
Subcommittee should take note that the Government of the Virgin Islands 
also owns noteworthy properties on Hassel Island where the National 
Park Service also owns property. The need for cooperation and support 
is highlighted by the fact that both governments will continue to 
operate in close proximity to each other and should do so on a 
cooperative basis.
    I respectfully request that your Subcommittee take steps to 
appropriate funds for training and salaries of a reasonable number of 
individuals to be hired by the Virgin Islands and trained to become 
rangers and managers in the V. I. Territorial Park System. This support 
should be spread over a reasonable period. It will help the Virgin 
Islands mature in its resource management capabilities while promoting 
wise development and management of the Salt River Bay Historical Park 
and Ecological Preserve.
    Finally, I recommend that the Salt River Commission be continued in 
its planning and in an advisory capacity to insure equity in training, 
management, development, and utilization of the valuable resources at 
Salt River Bay.
CHRISTIANSTED NATIONAL HISTORIC SITE
    I have been pleased with the commitment of resources by the 
National Park Service to help enhance the appearance of the 
Christiansted National Historic Site. This special property is an 
important part of the Christiansted Town and as such it should 
represent one of its outstanding attractions. Resources should be 
continuously appropriated and allocated to insure that it is well 
maintained as a living part of St. Croix. Private property owners are 
struggling to rehabilitate their properties within Christiansted to 
help revitalize St. Croix. Therefore it is important that The 
Christiansted National Historic Site maintains its vibrancy and 
attractive appearance.
    Finally Mr. Chairman, I have appended copies of my January 10, 2001 
testimony at a public meeting held by our Honorable Congresswoman Donna 
Christian-Christensen and a copy of my January 30, 2001 letter to 
Congressman Jim Hansen, the Honorable Chairman of the House Resources 
Committee. It is my understanding that that letter was referred to your 
Subcommittee. I respectfully request that they be made a part of your 
record along with my statement.
    Thank you again for the opportunity to address the Honorable 
Members of this Subcommittee.
    Attachments
ATTACHMENT A
                    CONGRESSWOMAN DONNA CHRISTENSEN
                   RE: NATIONAL MONUMENT PROCLAMATION
                            January 10, 2001
    Good evening Congresswoman Christensen. My name is Virdin Brown. I 
am a former Senator in the Virgin Islands Legislature (serving seven 
terms), former Commissioner of the former Department of Conservation 
and Cultural Affairs, and former Assistant Commissioner of the 
Department of Planning and Natural Resources. Currently, I serve as 
Chairman of the Caribbean Fishery Management Council. My presence and 
testimony here this evening is to represent my own views and personal 
opinions on the proposed designation of national monument status for 
certain submerged lands around St. John and Buck Island out to the 
boundary of the Territorial Sea.
    I have devoted almost three decades of service in the Government of 
the Virgin Islands to environmental resource management issues--
especially the acceptance and administration of the submerged lands 
that are within the three-mile limit. In my current capacity I am 
involved with the development of management plans, which govern the use 
of marine resources from the three-mile Territorial Sea boundary out to 
the 200-mile limit of the U.S. Exclusive Economic Zone (EEZ) in the 
Caribbean.
    I have had the opportunity to review only a few of the documents 
related to the proposed establishment or designation of additional 
submerged lands around St. John Buck Island as national monuments. I 
have seen the press releases and the maps but have not seen the 
official proposed proclamation as of this moment. However, the 
information I have at hand is sufficient for me to formulate my views 
on this subject.
    Basically, I have no problem with the desire and intent to protect 
the coral and marine resources to insure that they are maintained, 
enjoyed, and--where appropriate--utilized by this and future 
generations. There is an international undertaking by governments and 
nongovernmental organizations to better manage and protect marine 
resources (especially corals) around the world.
    Tonight the issue surrounding the proposed national monuments is 
not so much ``WHY'' but rather ``HOW'', in my opinion. The Virgin 
Islands National Park on St. John and The Buck Island Reef National 
Monument on St. Croix have well defined limits within the sea that are 
easily discerned on maps and marine charts. In neither instance is 
either of these boundaries out to the limit of the Territorial Sea or 
international boundary, except for a small area between Mary's Point on 
St.
    John and Thatch Cay in the British Virgin Islands. Nevertheless, 
the Secretary of Interior has recommended ``TAKING'' 30,843 acres of 
Virgin Islands Submerged Lands (12,708 acres around St. John and 18,135 
acres around Buck Island on St. Croix) without due process or just 
compensation to the people of the Virgin Islands. I hasten to point out 
that this vast acreage of submerged lands is outside the existing 
boundaries of the Virgin Islands National Park on St. John and the Buck 
Island Reef National Monument on St. Croix. These 30,843 acres belong 
to the people of the Virgin Islands. They were transferred from the 
Department of Interior to the Government of the Virgin Islands in 1974 
through a conscientious Act of Congress designated as Public Law 93-435 
and codified in the U.S. Code in Title 48. In accordance with Title 48, 
section 1705(a) of the U.S. Code, these submerged lands were 
transferred ``... To be administered in trust for the benefit of the 
people...'' The Virgin Islands Government administers these submerged 
lands under Title 12, Chapter 21 of the Virgin Islands Code (The 
Coastal Zone Management Act) and refers to them as ``Trustlands.'' To 
be sure and keep the record clear, I must point out that Public Law 93-
435 made provisions for certain exceptions regarding conveyance of the 
submerged lands. Title 48, Section 1705(b) USC states in pertinent 
part:
        ``There are excepted from the transfer made by subsection (a) 
        hereof

            (i) all deposits of oil, gas, and other minerals, but the 
            term ``minerals'' shall not include coral, sand, and 
            gravel;

            (vii) all submerged lands designated by the President 
            within one hundred and twenty days after October 5,1974; 
            (These 120 days ended on February 2, 1975);

            (x) all submerged lands within the Virgin Islands National 
            Park established by sections 398 to 398b of Title 16, 
            including the lands described in sections 398c and 398d of 
            Title 16; and

            (xi) all submerged lands within the Buck Island Reef 
            National Monument as described in Presidential Proclamation 
            3448 dated December 28, 1961.''

    On February 1, 1975 President Gerald Ford exercised his authority 
under Title 48, section 1705(b)(vii) above and reserved an additional 
thirty (30) acres around Buck Island to increase the size of this 
National Monument. That was it. That was the most noteworthy exception 
made in the transfer. It meant that the President automatically 
transferred all other submerged lands to the Government of the Virgin 
Islands because the 120 days expired without further proclamations or 
exemptions being issues. How then, can the Department of Interior claim 
title, or exercise unusual authority, over submerged lands it does not 
own or control?
    In 1980, Congress further affirmed its unambiguous intent to 
transfer title of submerged lands, and the resources therein, to the 
people of the Virgin Islands when via Public Law 96-205 it directed the 
Secretary of Interior to convey ``...All right, title, and interest of 
the United States in deposits of oil, gas, and other minerals in the 
submerged lands conveyed to the government ... by subsection (a) of 
this section.'' Clearly what the Congress has given in an official act, 
only the Congress can take away in like manner.
    The documents that I have seen, recognize the President's authority 
to create national monuments on ``federal'' land--I repeat ``FEDERAL'' 
land--and I do not question that authority. However, it is my position 
that the submerged lands, to which the Secretary of Interior is 
claiming title, and is recommending to be designated as national 
monuments, or expansion of same, are NOT'' Federal lands. These 
submerged lands belong to the Government and the people of the Virgin 
Islands.
    They cannot be developed, occupied, sold or otherwise transferred 
without the approval of the Legislature of the Virgin Islands. This is 
codified in Title 12, Chapter 21 of the Virgin Islands Code and has 
existed in law since the transfer of the submerged lands to the 
Government and people of the Virgin Islands. The Government of the 
Virgin Islands has exercised its authority and control over the subject 
30,843 acres and the other submerged lands since the transfer became 
official.
    It should be noted that no executive agreements, exchange of notes, 
verbal commitments, nor memorandum of understanding could change the 
fact that the 30,843 acres of submerged land in question belong to the 
Government and people of the Virgin Islands. To best of my knowledge, 
no Act of Congress, or of the Legislature of the Virgin Islands has 
been undertaken to transfer these lands to anyone. If it is to happen, 
it is the kind of issue that should be the subject of a ``REAL 
REFERENDUM'' in accordance with the provisions of the Organic Act. 
Therefore I urge you to ask the President not to sign the proposed 
proclamation because it was conceived and developed on faulty legal 
claims, and because the Department of Interior has not developed this 
issue in the clear.
    On another matter, I urge you to follow up on the inaction of both 
the local and Federal Governments in making The Salt River Historical 
Park and Ecological Presence a functional reality. An Act of Congress 
created this Park in 1991. One of the mandates was that there would be 
a cooperative effort to develop the Park while at the same time help 
the Virgin Islands Government train staff  manage Salt River jointly 
with the National Park Service. This was to be the springboard for 
development of the Virgin Islands Territorial Parks System, but the 
expectations have not yet been realized. The Virgin Islands Government 
owns approximately 600 acres of submerged lands within the boundary of 
the Salt River Park as 'ell as terrestrial acreage. This is fertile 
ground for Federal/local cooperation. It is imperative that the Salt 
River Commission gets on with its mission before it arrives at its 
sunset date.
    Thanks very much for affording me an opportunity to express my 
views on this subject.

    [Attachments to Mr. Brown's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T0850.004
    
ATTACHMENT B

Virdin C. Brown
P.O. Box 7809 S.I.
St. Croix, Virgin Islands 00823
January 30, 2001

Honorable Jim Hansen, Chairman
Resources Committee
U.S. House of Representatives
1324 Longworth Building
Washington, D. C. 20515

Dear Congressman Hansen :

    I am writing to express my concern about an executive action that 
has wrought an injustice upon the government and people of the Virgin 
Islands, and to request your assistance in rectifying it.
    On January 17, 2001, President Clinton signed Proclamation Nos. 
7392 and 7399. The former is entitled ``Boundary Enlargement and 
Modifications of the Buck Island Reef National Monument'' near St. 
Croix and the latter, ``Establishment of the Virgin Islands Coral Reef 
National Monument'' off St. John. The natural and cultural resources to 
which these proclamations make reference are noteworthy and are indeed 
worth protecting. The issue here is whether or not the Department of 
Interior has right and title to the submerged lands over which they 
have exercised this authority under Section 2 of the Act of June 8,1906 
(34 Stat. 225,16 U.S.C. 431). The Department of Interior was 
overzealous in its efforts to have these sites designated as ``National 
Monuments'' and spent very little time discussing its plans with the 
people of the Virgin Islands especially fishermen who will be most 
directly impacted by this Federal action.
    My concern is that by these proclamations the Clinton 
Administration took, or declared its intention to take, 30,843 acres of 
submerged lands that belong to the Government and people of the Virgin 
Islands. These are NOT Federal submerged lands and the Department of 
Interior has had neither ownership nor control over them since midnight 
February 2, 1975.
    On October 5,1974, Public Law 93-435 took effect and transferred an 
submerged lands in the Virgin Islands, Guam, and American Samoa to the 
respective territorial governments. It provided for the retention of 
certain lands and mineral rights by the United States Government and 
also clearly stated that the President, by proclamation, would have one 
hundred and twenty (120) days after October 5,1974, to reserve those 
submerged lands that he proclaims win be exempted from transfer to the 
territorial governments. There were only two (2) proclamations issued 
under this section of PL 93435 affecting the Virgin Islands. They are 
Proclamation No.4346, which added thirty (30) acres of submerged lands 
to the Buck Islands Reef National Monument, and Proclamation No.4347 
which reserved certain submerged lands off the west coast of St. Croix 
for use by the U.S. Navy. President Gerald Ford signed these 
proclamations on February 1,1975, just one day prior to the expiration 
of the one hundred twenty day period.
    Thereafter, all other submerged lands were transferred from the 
Department of Interior to the Government of the Virgin Islands. These 
30,843 acres of submerged lands, which the Department of Interior 
through presidential proclamation has declared national monuments, are 
not Federal lands but the property of the Government of the Virgin 
Islands. I am keenly aware of this issue because I was the chief 
territorial official (Commissioner of the Department of Conservation 
and Cultural Affairs) responsible for the administration of the 
submerged lands immediately after PL 93-435 took effect. Prior to that, 
I was a Senator in the Virgin Islands Legislature and worked with the 
late Congressman Phillip Burton and former Congressman Ron de Lugo to 
secure enactment of the transfer legislation.
    Because of my experience and knowledge of the transfer and 
administration of the submerged lands, I cannot quietly observe the 
Department of Interior take submerged lands that do not belong to it. 
If Interior is sincerely interested in protecting these valuable 
natural and cultural assets, it could do so legitimately by providing 
the V. I. Government with the resources to execute a similar concept in 
its own right permitting thorough review and input from the residents 
of the Virgin Islands. It is interesting to note here that the Governor 
of the Virgin Islands, Dr. Charles Turnbull, has expressed his 
objections to Proclamation Nos. 7392 and 7399 apparently because he 
felt that he was blindsided by their issuance.
    Recently, I reviewed a map prepared by the Bureau of Minerals 
Management Service Mapping and Boundary Branch of the Department of 
Interior and became more concerned by what I saw. The map has 
identified several other areas within the Territorial Sea of the U.S. 
Virgin Islands as Federal Submerged Lands. However, these are submerged 
lands over which Interior has NO control and which have been 
administered by the V. I. Government since the enactment of PL 93-435. 
This map is alarming because it suggests that the Department of 
Interior intends to extend its claim or illegal taking of additional 
Virgin Islands Submerged Lands by some other unconstitutional means. 
This must not be allowed to happen because it would be a flagrant 
trampling of, and infringement upon, the rights of the Government of 
the Virgin Islands and its people. If they have used fallacious and 
specious justifications for recent proclamations what is there to 
prevent them from doing it again?
    It is obvious that a great injustice has been done to the 
Government and people of the Virgin Islands and it should be corrected 
by rescinding Proclamation Nos. 7392 and 7399. They are taking 
Territorial Submerged Lands without due process. Please note that the 
proclamations were published in the Federal Register on January 22, 
2001, two days after President Bush issued an executive order to 
suspend publication and implementation of all such eleventh-hour 
executive actions by the outgoing administration.
    I have enclosed a copy of my statement to Congresswoman Donna 
Christensen at a public hearing she held on January 10, 2001, a copy of 
an article from the V. I. Daily News in which Governor Turnbull 
expressed his surprise and opposition to the proclamations, and copies 
of the proclamations for quick and easy reference.
    I urge you to please review this issue and take steps to rescind 
Proclamation Nos. 7392 and 7399 in recognition of the fact that the 
submerged lands in question are the property of the Government of the 
Virgin Islands- and should remain so.

Respectfully,

Virdin C. Brown`
                                 ______
                                 
    Mr. Radanovich. Appreciate the testimony, Mr. Brown.
    Mr. Turner, welcome to the Committee. And again, if you'd 
begin your testimony, that would be great.

         STATEMENT OF BILL TURNER, EXECUTIVE DIRECTOR, 
              ST. CROIX ENVIRONMENTAL ASSOCIATION

    Mr. Turner. Thank you, Mr. Chairman, and good morning to 
the honorable members of the Subcommittee. I appreciate the 
opportunity to testify on this very important issue, or on a 
number of very important issues actually.
    First of all, St. Croix Environmental Association is an 
organization that's committed to conservation through community 
involvement. And in fact this community involvement I think is 
the linchpin of conservation efforts here in the Virgin 
Islands. Mr. McAuliffe, who testified before me and with whom 
I'm about to stringently disagree, and I are members of the 
Coalition for Sustainable Development here on St. Croix. So 
while we do disagree on this issue, there is a great deal of 
respect that SEA has for the community in which we operate.
    No. 1, I'd like to address the effectiveness of our local 
National Park Service, and I cannot be complimentary enough in 
the short time that I'm allotted to Mr. Tutein and his 
dedicated staff. And, in fact, contrary to what my friend Mr. 
McAuliffe said regarding the Park Service efforts, I think that 
the biodiversity that exists at Buck Island right now, given 
the current boundaries, is miraculous under the circumstances.
    It is, in fact, very difficult to put lines on a map and 
have that translate into a natural ecosystem's function and 
form. Specifically at Salt River, the St. Croix Environmental 
Association has planted 16,500 red mangroves and 3,000 black 
mangroves at Sugar Bay. While those mangroves are nowhere near 
a coral reef system, their effect on it is scientifically 
proven. Empirical evidence suggests that the planting of the 
mangroves actually cools the water as it comes into the 
shallower points at high tide, and as it returns out over the 
reef it's less damaging than had it not had the shade of the 
mangroves going back out.
    So for that matter, actually, the expansion at Buck Island, 
and I will talk a little bit more about that, is vital. It is--
nothing exists in stasis in nature. Human beings are the only 
animals on earth that have the ability to make maps. Animals 
and natural systems do not recognize boundary lines. It is a 
much larger system that influences a coral reef system.
    Specifically to Buck Island, there is the question of 
legality, and I'm certainly not qualified to address that 
question. However, I will say that as it stands, there is a de 
facto area of protection that exists there at Buck Island. I 
think, Mr. Chairman, your comments regarding the--where the 
line falls on a map are entirely appropriate, and perhaps with 
more community input and involvement and more involvement with 
the local government, this issue could have been addressed and 
resolved by former President Clinton in a much more expedient 
way, preventing the legal issues coming about. So on that issue 
I do recognize that everyone has concerns about the legal 
issues of Federal land versus local land, and we certainly 
share those concerns and hope that the General Accounting 
Office can provide a solution that's acceptable to everyone.
    I have to admit that as a conservationist I'm in the 
luxurious position of having two different governments fighting 
to preserve a great deal of marine area, and I would like to 
mention while we're on the subject that the Coastal Zone 
Management Committee did vote on Friday to create a marine-
protected area on the east end of St. Croix. Therefore, I would 
like my testimony amended in the second point where we suggest, 
under Exhibit 2, a creation of a national park extending to the 
shoreline of St. Croix, that that be struck given that the 
local government has taken action.
    Unfortunately, the local government, as Delegate 
Christensen has pointed out, is very--does have a very scarce 
amount of resources with which to deal with these important and 
vital issues, and we believe that there has to be collaboration 
between the Federal and local government to make sure that 
every resource available for the protection of marine life is 
utilized.
    Having said that, I still believe that if we look at the 
Buck Island National Monument that exists under the President--
former President's plan, I believe that there is the 
possibility in this plan that is presented for collaboration 
between the local and Federal Government. The local government 
does have a marine mark established on the east end. I cannot 
see the harm of the extension of that boundary line out from 
Buck Island as it stands.
    We talk about the coral reefs--and this is the last point 
that I want to make--we talk about the coral reef system being 
protected by the current boundary lines. That's not accurate. 
That boundary line has to extend beyond the coral reef. The 
fish don't know that a boundary line exists. Fish that live in 
coral, fish that are predators in coral reef systems don't stop 
at a boundary line. Extending the boundary line only serves to 
preserve the coral system. And I will point out, again, turtles 
are vital. They're vital parts of the ecosystem. That boundary 
line being extended further does in fact protect the turtles 
and migratory whales, as Mr. Tutein did point out.
    So we do support as much conservation as is possible. We do 
accept that the GAO will make its decision, and we only hope 
that after that decision has been rendered, that the Federal 
Government and the local government can collaborate together to 
create a situation where as much conservation as is possible 
exists, also taking into account the needs of the local people 
here in the Virgin Islands.
    Thank you very much for this opportunity.
    [The prepared statement of Mr. Turner follows:]

             Statement of Bill Turner, Executive Director, 
                  St. Croix Environmental Association

I. Introduction
    1.01 For more than 15 years, the St. Croix Environmental 
Association (SEA) has worked to preserve and conserve the vital 
resources of St. Croix. Our efforts have helped to preserve the Great 
Pond, Southgate Pond, Jack's and Isaac's Bays and, most relevant to 
this hearing, the Salt River watershed. Much time, money and effort 
have been given to the preservation of an ecosystem that endures both 
natural catastrophes and the pressures of economic development, along 
with a variety of infra-structural failures.
    1.02 In spite of all of these difficulties, we have worked to 
develop plans that will ensure that there is an ecologically sound 
future for the citizens of St. Croix. Our efforts include the 
replanting of nearly 20,000 mangroves in the Salt River watershed, 
community forestry education, education of elementary school students 
and advocacy for sound environmental initiatives. We have also reached 
out to developers to ensure that plans for the growth of St. Croix's 
economy are sustainable and conserve resources. We will continue to 
pursue avenues of education and action wherever possible.
II. The importance of National Parks on St. Croix.
    2.01 There are two specific benefits that National Parks provide: 
aesthetic improvement and ecological preservation. Aesthetic 
improvement is important for maintaining a higher quality of life, but 
on an island that desperately needs tourist dollars, aesthetic 
improvement can be the difference between success and bankruptcy for 
local businesses. Ecological preservation within the United States' 
park system is well documented. On St. Croix, many fishermen rely on a 
steady harvest of fish for their livelihood; thus ecological 
preservation is crucial to them to maintain the biodiversity that 
allows them to continue harvesting fish. The preservation of resources 
goes hand in hand with the preservation of culture and allows for 
independent sustainable growth on St. Croix.
    2.02 Aesthetic improvement on St. Croix is most notable in 
Christiansted. The efforts of the National Park Service to preserve the 
fort, the customs house and various other Danish colonial structures 
has led to one of the most breathtaking views in the United States. 
While this site has a great historic significance, the creation of 
``green areas'' around the buildings has increased the charm and 
usefulness of the site as a tourist attraction. Most importantly, the 
people of St. Croix have a location to enjoy and to view as a source of 
local pride. The efforts of Mr. Joel Tutein and his staff are to be 
commended for this marvelous local resource.
    2.03 Ecological preservation is observed most notably at the Salt 
River National Park. This site was slated for the addition of a large 
resort hotel. The potential for ecological devastation was both real 
and enormous. Through preserving this site, the National Park service 
has prevented a catastrophic destruction of coral that could have 
easily placed the local fishing industry in grave danger.
    2.04 Buck Island demonstrates the power of ecological preservation 
to provide aesthetic improvement. Through the preservation of coral 
reefs and attention to natural resources, the National Park Service has 
actually allowed a local industry to develop that specializes in tours 
to Buck Island. In Buck Island, we have an example of preservation that 
leads to economic development.
    2.05 SEA has worked at the Salt River National Park to restore an 
entire mangrove system that was devastated by Hurricane Hugo. Mangroves 
provide a natural filter for non-point source pollution, prevent reef 
silting and provide safe cover for juvenile fish. Mangroves are ``the 
roots of the sea.'' Through our efforts, 16,500 red mangroves and 3,000 
black mangroves have been restored at Salt River. We have provided an 
interim sketch of our efforts and are preparing a final report on the 
mangrove restoration effort. (See exhibit 1) With the amount of work 
that we have done in this watershed, it is natural for us to take great 
pride in it and to seek the well being of the park.
III. The future of National Parks on St. Croix.
    3.01 Two National Park Service locations are the current focus of 
our attention. Buck Island and Salt River are, as we have previously 
stated, vitally important to St. Croix. This importance cannot be 
overstated. The opportunity to enhance their facilities and increase 
their size should not be overlooked. This is an opportunity to improve 
two sites and increase ecological preservation in the Virgin Islands.
    3.02 At Buck Island, we endorse without reservation or 
qualification the expansion of the park by 18,135 acres. Given the 
record of success of the National Park Service at Buck Island, we 
believe that expansion will not only preserve the environment, we 
believe that it will enhance an already thriving ecosystem. We 
recognize that some groups have contested this expansion; but we must 
insist that the overall benefit of this expansion would be far more 
beneficial to local interests.
    3.03 In addition to our support for the expansion of Buck Island's 
area by 18,135 acres, we strongly urge the Subcommittee to explore the 
possibility of increasing the area to include the waters up to and 
surrounding Green Key (See Exhibit 2). There are three practical 
reasons for this suggestion. We believe that this expansion would 
provide critical protection for marine species in the proposed area, we 
believe that a potential for collaboration between the National Park 
Service and SEA exists and we believe that, ultimately, the restoration 
of marine life to sustainable levels would provide a more stable future 
for local fisheries.
    3.04 The seabed between Green Key and Buck Island once was filled 
with rich biodiversity. Conch thrived along the floor of the sea there. 
Unfortunately, with an export value of approximately $14 per pound and 
little or no enforcement of catch limits, this area has become a conch 
graveyard. To quote a friend and local Federal Enforcement Officer, 
``if it is not behind a boundary sign, kiss it goodbye.'' The 
authority, creativity and resourcefulness of our local National Park 
Service personnel could easily reverse this trend.
    3.05 SEA has purchased nearly 100 acres of land bordering Cheney 
Bay and Southgate Pond. We are currently in the planning phase of 
creating a comprehensive nature park on this property. We would be 
happy to explore the potential of working with the National Park 
Service to provide resources and facilities should the Service be able 
to create the area of protection that we have suggested.
    3.06 This proposed area of protection, if managed by the National 
Park Service or the United States Fish and Wildlife Service would 
restore the conch population, enhance biodiversity and would lead to 
larger future fish and conch harvests. The increase in harvest size 
would improve the economic position of local fisherman. Also, the 
increased protection would ensure that future generations would have 
access to the resources that are the core of local industry.
    3.07 At Salt River, we endorse without reservation or qualification 
the proposed expansion of the Park. Our own experience with our 
Southgate Pond property has shown us how difficult it is to site 
facilities without harming the surrounding ecosystem. If the National 
Park Service could acquire land with buildings in place for their 
facilities, they could reduce expense in planning and quickly have 
operations in place. With the growing importance of the Salt River 
National Park, it is important for the National Park Service to have a 
fixed and permanent presence there.
IV. Threats to National Parks on St. Croix.
    4.01 In spite of all of the efforts of our local National Park 
Service staff, our National Parks face three imminent and potentially 
dangerous threats. Discharge of raw sewage into coastal waters, non-
point source pollution and lack of a comprehensive solid waste 
management system place our National Parks at risk for serious to 
severe health hazards. We must advise the Committee that the failure of 
the current local administration, as well as the cumulative failures of 
past administrations, to address these issues opens the door to 
potential disaster.
    4.02 In the past six months, discharge of raw sewage into coastal 
waters has forced the Virgin Islands Department of Planning and Natural 
Resources on several occasions to issue warnings to avoid contact with 
seawater. We have included two of these warnings, issued on January 
15th and April 9th, in our testimony, because the waters that are 
contaminated reach the Christiansted National Historic Site at Fort 
Christianvern. The Government of the Virgin Islands is under a court 
order to repair the wastewater system, however, action has been slow 
and problems persist.
    4.03 A visitor to a National Park should not be confronted with the 
potential of contracting a serious disease as a result of their visit. 
Sewage contaminated water can contain hepatitis A, cryptosporidium, 
cholera and E coli bacteria. These are only a few of a much larger list 
of potential contaminants. Furthermore, contraction of any one of these 
diseases by a tourist or tourists could smear the good name and 
reputation of our National Park Service.
    4.04 The Virgin Islands Department of Planning and Natural 
Resources is a recognized leader in mitigating non-point source 
pollution. Commissioner Dean Plaskett has demonstrated commitment to 
address this serious problem. Unfortunately, the lack of a 
comprehensive land and water use plan in the Virgin Islands leads to 
development that is poorly planned. This poor planning requires greater 
efforts to protect the fragile systems that it endangers, such as Salt 
River National Park.
    4.05 Solid waste management in the Virgin Islands is the threat, 
which most directly affects the aesthetics of our National Parks. The 
presence of solid waste containers at Columbus' Landing that are not 
emptied, detract from the experience of the visit. Although the 
National Park Service does not control this area, if it were there 
would be no problem of this nature, it is a part of the general 
experience and should be addressed.
V. Conclusion
    5.01 It is the position of the St. Croix Environmental Association 
that our National Park Service should be expanded on St. Croix. This 
agency has affected positive change on the island as a whole by 
providing an excellent service to the citizens. To the extent that it 
is possible, this Committee would be well served to increase funding, 
personnel and equipment available to this National Park Service staff.
                                 ______
                                 
    [Attachments to Mr. Turner's statement follow:] 
    [GRAPHIC] [TIFF OMITTED] T0850.001
    
    [GRAPHIC] [TIFF OMITTED] T0850.002
    
    [GRAPHIC] [TIFF OMITTED] T0850.003
    

    Mr. Radanovich. Thank you very much, Mr. Turner.
    Appreciate the testimony of everybody here. I would 
further--Mrs. Christensen, do you have any questions?
    Mrs. Christensen. OK, well, I'll start.
    I want to thank the panelists for their testimony as well. 
Maybe I would begin with Mr. McAuliffe.
    I'm not talking loud enough?
    Mr. Radanovich. Uh-huh.
    Mrs. Christensen. Mr. McAuliffe, you stated in your 
testimony that the Park Service has failed for 40 years to 
fully protect the stocks under their jurisdiction. What do you 
think should have been done that would have insured a different 
result?
    Mr. McAuliffe. That's pretty fully covered in the written 
testimony, in that the Code of Federal Regulations rules for 
Buck Island for fishing, if we were to follow those rules, we 
would be able to pretty much strip the park of living life and 
not violate the rules. That is very antiquated and should have 
been revised many, many years ago. And I look at that as a 
failure not on the part of the local Park Service employees, 
because they can only go by the rules that are given to them, 
but the Park Service in general.
    The Park Service employees here have had their hands tied 
for many years trying to enforce fisheries regulations in that 
area, but they--what they have enforced have not been done 
equally across board. Most of the community, fishing community 
has respected the original boundaries, and all of us have 
understood that you just don't fish within those park 
boundaries. Yet the rules permit fishing, and fishing with 
traps and fishing to a degree that would denude the park.
    Mrs. Christensen. Let me ask you another question. Did you 
attend the September public hearings that were held by the 
Department of Interior and the National Park Service?
    Mr. McAuliffe. I didn't hear you.
    Mrs. Christensen. The September 2000 public hearings that 
were held by the Department of Interior and the Park Service, 
did you attend those?
    Mr. McAuliffe. I wasn't aware of them at the time. I wasn't 
notified until I think the day or the day after.
    Mrs. Christensen. OK. Because I notice that you put some 
stress on good faith negotiations. Are you--do you consider--
well, you probably have partly answered my question, but do you 
consider that they afforded the public an adequate opportunity 
to provide input into the protections that were needed?
    Mr. McAuliffe. Absolutely not.
    Mrs. Christensen. I guess I should have asked Mr. Tutein a 
question as well.
    Let me go to Mr. Turner and ask two questions if I can get 
them in. How do you reconcile your unqualified support of the 
monument as designated by President Clinton with the needs of 
the fishing community and the possible impact on people that 
are making a livelihood?
    Mr. Turner. As I stated, we are very strong supporters of 
the local fishermen. In fact, we worked with them in the 
creation of the local marine protected area that was voted in 
by the Coastal Zone Management Commission. Again, Mr. Tutein 
pointed out we're talking about 5 percent of the overall 
fishing area. That leaves 95 percent available for fishing. I 
recognize that for some families this will be a strain, and I 
agree with Mr. McAuliffe entirely that some form of 
compensation must be given to those fishermen who are greatly 
affected by this.
    On the other hand, I believe that it's been demonstrated 
before also in St. Lucia at the Soufriere management area that 
once you preserve and protect a specific location, the fish 
size and the number of fish goes up substantially. In some 
cases two to three times the number of fish, and two to three 
times the size of the fish. Those fish do not stay in that 
zone. They migrate in and out of that zone. Therefore the 
fishermen would have a much greater take in the ultimate 
outcome of this plan.
    Mrs. Christensen. You also mentioned in your written 
testimony that the National Parks face certain other threats on 
St. Croix despite the best efforts of the National Park Service 
staff. Would you elaborate on that, and is SEA doing anything 
to assist in some of those areas, because the fishing is not 
the only threat to the reefs and to the National Park.
    Mr. Turner. That is absolutely correct. In fact, we were at 
the Salt River National Park yesterday, and up from the Salt 
River National Park there's an area called Mon Bijou, there's a 
gut. A gut is an intermittent river that runs on St. Croix. In 
that gut there's a pile of garbage, including refrigerators, 
old used appliances, all sorts of other materials.
    Non-point-source pollution is a serious threat. In fact, 
that is why SEA undertook the mangrove replanting there at 
Sugar Bay to mitigate some of the non-point-source pollution.
    Also at Christiansted Harbor I must in fact congratulate 
the local Department of Public Works for finally correcting the 
problem that exists there. However, many other problems do 
exist. And again, it's a scarcity of resources issue which 
leads to these problems existing, and raw sewage dumping into 
the harbor actually can introduce a number of different 
pathogens into the water, from hepatitis A to E. coli to 
Cryptosporidium. I could go on for a while with just what could 
be dumped into the water.
    So yes, there are substantial threats to the National Parks 
here on the island.
    Mrs. Christensen. Can I ask one last question?
    Mr. Radanovich. Sure.
    Mrs. Christensen. On this round anyway.
    Former Senator Brown, the Section 1705(b)(ii), the part 
that deals with the at mean low tide--high tide, that 
exclusion, how do you interpret that? Does it just--because all 
of what we're talking about seems to ride on that one 
exception, and is it just not clearly written? Does it have no 
impact?
    How do you interpret that second exception?
    Mr. Brown. Well, to restate what I said earlier, I don't 
see a problem with that language, 1705(b)(ii). The point is 
that someone in the Interior has used it to apply to the Virgin 
Islands. And my position is, and in fact the reality is, it 
does not apply to the Virgin Islands, but it more aptly applies 
to Guam, and again where there are substantial holdings.
    Mrs. Christensen. But the law applies equally to--
    Mr. Brown. It's a general law.
    Mrs. Christensen. And it applies in effect equally to each 
of those jurisdictions.
    Mr. Brown. But it has to be taken in the context in which 
it's written, and that is--
    Mrs. Christensen. I--
    Mr. Brown. If it applied, if there are any such Federal 
lands existing in the Territory, then it would so apply. But it 
does not apply because there are no such Federal lands existing 
in the Territory; one, because President Ford made the 
exceptions that would not be transferred. That's the 30 acres 
to--added to Buck Island, plus the several dozen acres on the 
west end of St. Croix that were excluded specifically. Then in 
1705(b)(x) and (xi) I think it is, if I'm correct, the law 
specifically cites the Virgin Islands National Park as it's 
defined and it has been defined by law. Therefore it 
specifically states what those boundaries are, and the Buck 
Island Reef National Monument.
    If that isn't clear on the face of it as to what is to be 
considered Federal lands in this Territory, I'm not sure what 
other way to interpret it. And as I say, then 1705(b)(ii) can 
only apply then to Guam certainly where there, again, is 
substantial holdings by the U.S. Navy, lands adjacent to 
submerged lands, and I'm not too sure to what extent it might 
apply in American Samoa. But definitely in Guam, but not here.
    Mrs. Christensen. Did you have an opportunity to provide 
input to the GAO as well? I asked that question, didn't I?
    Mr. Brown. I was told by you that I was to be invited to 
give input, but I did not receive an invitation. But I took the 
initiative to call and speak to the person who is responsible 
for and overseeing that report. That was a couple months ago, 
maybe sometime in March I spoke to her.
    Mrs. Christensen. So you were able to provide your--
    Mr. Brown. I gave extensive--
    Mrs. Christensen. --your input into the decision that we're 
anticipating?
    Mr. Brown. Yes. At the time I think the anticipation was 
that there was--a report would be forthcoming shortly, but now 
we see that it is not. It has not come.
    Mrs. Christensen. But the question was--
    Mr. Brown. I did.
    Mrs. Christensen. --you were able to provide your--
    Mr. Brown. I did.
    Mrs. Christensen. --input.
    Mr. Brown. We had extensive communication verbally.
    Mrs. Christensen. I just wanted to make sure.
    Mr. Brown. No written communication as yet. Since I did not 
receive the written invitation to give testimony, I took the 
initiative to call and give my input.
    Mrs. Christensen. But you were able to provide it. Thank 
you.
    Mr. Radanovich. Thank you very much.
    Ms. McCollum?
    Ms. McCollum. Just a follow-up to Mr. Brown's.
    You were serving you said in '70--in 1971 through '75, is 
that correct?
    Mr. Brown. I'm sorry. Say that again?
    Mr. Radanovich. 1971 to '75 was your first term you were 
serving?
    Mr. Brown. I served two 2-year terms during that period, 
and at a subsequent date in the eighties up into the early 
nineties I served another 5-year term.
    Ms. McCollum. So when President--
    Mr. Brown. Expired terms.
    Ms. McCollum. OK. So when President Ford put fourth the 
language which then became part of the statute dealing with 
submerged lands, and I will find the documentation I'm sure you 
submitted about the exceptions that you've spoken about for the 
Virgin Islands. I have not seen that, but I'll be looking for 
it. Did you then, or did the Virgin Islands Government actively 
pursue a clear understanding to what President Ford's language 
in 1974 meant to the Virgin Islands? Because there's 
documentation, I believe it's in 1975 from the Park Service, 
clearly saying how they were going to be using that language. 
It's a public record.
    Did you aggressively say, Gees, we don't agree with the 
Department of Interior on that? Did you--do you have 
documentation that you filed with the Federal Government on 
President Ford's foundation for what President Clinton went 
forward on?
    Mr. Brown. I--well, let me put it this way: First of all, 
there were no real contests about the proclamation as issued by 
President Ford, and there was no reason to. There is reason to 
contest what the National Park Service, by extension, want to 
interpret what it says. But the law says the President, by 
proclamation, shall make such exceptions from the transfer as 
he may deem necessary. Not the Department of Interior. And it 
has to be done by a proclamation. There were only two 
proclamations issued, and therefore we had no reason to contest 
anything.
    The administrative transfer of the submerged lands from the 
Interior was through the Office of Territorial Affairs, which 
was responsible for the administration of the submerged lands 
at the time. All of their records and documents were physically 
transferred, as well as some monies, to this government. I was 
in the Legislature at the time that the law was enacted, and I 
was the, immediately after that, the following year in 
February, appointed by the Governor to be in his cabinet as the 
Commissioner of the Department of Conservation and Cultural 
Affairs. And therefore I was the person then responsible 
directly for the administration of these submerged lands.
    Let me state further that our law was structured at that 
time to clearly state, by Act of the Legislature in 1974, that 
any use of these submerged lands, as we define them, trust 
lands, could only be done by an administrative process that got 
the Governor's approval, and subsequently the approval of the 
Legislature. That was to allow the highest possible public 
scrutiny and opportunity for inputs on the disposition or 
utilization or development of any of these trust lands, 
submerged lands. So that's from the shoreline out to the 3-mile 
line.
    Ms. McCollum. Mr. Chair, just a follow-up for the record 
here. I'm going to be doing some more extensive research on 
Public Law 93-435 dated October 5th, 1974. I appreciate on the 
interpretation, and law is subject to interpretation as by our 
sitting in a court chamber, but it appears from my reading, 
sir, and I will be looking at what you have brought to my 
attention, that the Federal Government, and we may agree or 
disagree as to its interpretation, I quote, it says, All 
submerged lands adjacent to property owned by the Federal 
Government, and then they go on to say that they can extend 
protection to it.
    And then I also, Mr. Chair, for the record I mentioned this 
at the other hearing, I refer to a document written on January 
16th, 1975, and I was just right out of high school so I wasn't 
in public service then, but I have to go, as you're going 
through your interpretations, I'm--I would like to draw to your 
attention to a quote from that letter. It's to the Acting 
Director of Territorial Affairs, and it refers again to the 
public law that I had just cited, Submerged Lands, and it says, 
quote:
    For example, the Park Service would continue to have 
administrative responsibility for submerged lands adjacent to 
park lands, and it says, And the Navy would have jurisdiction 
over submerged lands adjacent to the lands of its own 
facilities.
    So to your point, when you were talking about Guam, this 
letter does address that the Navy does have authority over its 
submerged--jurisdiction over submerged lands, but this also 
states that the Park Service also has.
    So we'll do--I'll do a little more research, and I just 
thought I'd let you know what I had seen. And thank you very 
much all of you--
    Mr. Brown. If I might--
    Ms. McCollum. --for your testimony.
    Mr. Brown. If I may, just a comment, by extension help your 
research. Attached to my presentation is a copy of a map chart 
done as a part of the development of our Coastal Zone 
Management Plan, which was circulated and given to all of the 
requisite Federal agencies for comment, including Department of 
Interior, and this document set aside and identified those 
waters that are relevant to the National Park Service. And when 
I cited, and when it's cited in the law, and when I cited the 
Virgin Islands National Park and Buck Island Reef National 
Monument as they are cited in the 1705(b)(x) and (xi), it's 
clearly identified here on this map. And if you look at it, 
you'll see what the boundaries are. The water boundaries for 
the National Park Service are identified. They're not out to 
the 3-mile limit. And only on one case between the British 
Virgin Islands and the U.S. Virgin Islands in St. John does it 
touch the international boundary. Very narrow point, a point on 
a pin. To the south, to the east, nor to the west are there any 
indications in anywhere under the law as the V.I. National Park 
has defined them that its boundaries, albeit in the water as 
established by Act, are to the 3-mile limit.
    The same is true for Buck Island. That is here. And I have 
this in color if you want to see it, and the exceptions are 
shown as Buck Island as defined here, and the lands identified 
for use by the Navy are also defined here. That's in the 
documents, that's among those things that I submitted to you. 
So it's there for you to review along with it.
    So if, as I pointed out, this was 1978. Why did the 
Department of Interior not make any exceptions or express any 
concerns at that time? And come to this quarter century later 
and decide that it can claim what it does not claim, have a 
right of title to, and further make further claims, if they use 
the analogy they've used, the arguments that they've used, 
further claims against lands, submerged lands within this 
Territory.
    Mr. Radanovich. Does the map, Mr. Brown, have a date on it?
    Mr. Brown. Should be 1978. I have a copy of the original 
which I can't give to you but--
    Mr. Radanovich. As long as we have the information, I think 
it's--
    Mr. Brown. Yes, you have it. And it may be retrievable from 
the Department--the original maps may be retrievable from the 
Department of Planning and Natural Resources.
    And I support the Honorable Commissioner's position as he's 
postulated to this Subcommittee.
    Mr. Radanovich. Very good. Thank you.
    Mrs. Christensen?
    Mrs. Christensen. Just--just maybe one, because--and it 
goes back to the question that you asked, Mr. Chairman, because 
Mr. Brown raised it again, former Senator Brown, that if one 
accepts the Department of Interior's legal interpretation of 
Section 1705(b)(ii), then one might assume they will act, 
eventually lay claim to Charlotte Amalie Harbor, since they 
recently acquired a significant portion of Hassel Island.
    Now, I'm not a lawyer, and my colleagues remind me of that, 
but is not Section 1705(b)(ii) referring to lands owned by the 
Federal Government at the time of this law in 1974, and not 
lands later acquired by the Federal Government? I need to refer 
to Hassel Island, for example, as being recently acquired.
    Mr. Brown. Well, see that is--are you raising the question 
to me? That is the question that is to be answered in the sense 
of who interprets which statement. It, at least to me, on the 
face of it, applies only to what existed at the time, and to 
what extent the Federal Government owned whatever lands it 
owned.
    I can't help but restate, in the Virgin Islands case, it's 
clear on the face of it. The V.I. National Park is identified, 
Buck Island Reef National Monument is clearly identified, and 
they are defined elsewhere in the law, so what else could there 
be?
    Mrs. Christensen. But you're posing the question of 
additional takeover of additional land--
    Mr. Brown. Yes.
    Mrs. Christensen. --and I'm just saying, I'm just asking is 
wasn't the law referring to lands owned at that time?
    Mr. Brown. At that time. And under the circumstances.
    Mrs. Christensen. Well, you know, essentially when I wrote 
to GAO I essentially put forth the same argument that you're 
putting forth now, so I'm not arguing with that.
    Mr. Brown. I see.
    Mrs. Christensen. I'm asking about Charlotte Amalie Harbor 
and all of the other things that you're saying could take--
could be a taking of the Federal Government. And I'm saying 
that as I read it, and wouldn't you agree that it applied to 
Federal lands owned in 1974?
    Mr. Brown. I don't--I would tend to agree with what you 
said, and I don't see that any way under any circumstances that 
any subsequent acquisitions could be utilized to transpose to 
Charlotte Amalie Harbor or around Green Cay or elsewhere.
    Mr. Radanovich. Unless a new monument was declared.
    [Laughter.]
    Mr. Brown. Well, Salt River is there.
    Mrs. Christensen. It would come under that law, Mr. 
Chairman.
    Mr. Radanovich. Thank you.
    Any further questions, Mrs. Christensen? Forgive me for 
interrupting.
    Mrs. Christensen. I don't think I had any further questions 
at this time. No.
    Mr. Radanovich. All right.
    Ms. McCollum? Guess not.
    OK. I think in closing, it seems to me that I guess the 
concerns that I have with monuments, and I'm very fortunate to 
be able to come here for the first time and see your beautiful 
habitat. It's just a gorgeous place, and I can see everybody's 
need to want to preserve the environment as well as draw a 
living from it. It seems to me that when this issue comes and 
goes whenever GAO decides, there's still going to be the issues 
of cooperating amongst yourselves, and maybe there's other 
avenues to go down as far as even private donations or 
otherwise to build an infrastructure that maintains 
preponderance fisheries and allows people to live, and at the 
same time preserve your glorious resources, because they need 
it. And I think that that is something that everybody should 
strive for.
    So that's my closing, and again, I want to thank Mrs. 
Christensen for making sure that we had everybody here and were 
able to conduct this hearing, and would like to defer to Mrs. 
Christensen for her closing statement.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I also once again just want to thank you for holding a 
hearing, and Ms. McCollum for joining us, and remind the 
audience and the testifiers that written statements are still 
accepted for a period of 2 weeks that would be made a part of 
the record of this formal hearing.
    And I want to just underscore what the secretary has said 
on many, many occasions, and what was reiterated here today by 
the Director of the National Park Service, that their position 
is that Cooperation, Consultation, Communication, and 
Conservation, are their four Cs. To date they have proved 
themselves, proved to me that they mean to incorporate those 
four Cs as they administer both the Department and the National 
Park Service, and I look forward to working with you and 
bridging that communication and cooperation and collaboration 
between the National Park Service and the Department and the 
people of the Virgin Islands, as we've already started to do. 
And I want to thank everybody for taking the time to come out 
here today.
    Mr. Radanovich. With that, our hearing is closed. Thank you 
very much.
    [Whereupon, the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
